<html>
<title> - CRUISE SHIP SECURITY PRACTICES AND PROCEDURES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
               CRUISE SHIP SECURITY PRACTICES AND PROCEDURES

=======================================================================

                                (110-69)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 19, 2007

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure

             CRUISE SHIP SECURITY PRACTICES AND PROCEDURES




                     U.S. GOVERNMENT PRINTING OFFICE

37-916 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Bald, Gary, Senior Vice President and Global Chief Security 
  Officer, Royal Caribbean Cruises, Ltd..........................    51
Carver, Ken, President, International Cruise Victims Organization    27
Dale, Terry, President and CEO, Cruise Lines International 
  Association....................................................    51
DiPiero, Sue.....................................................    27
Hernandez, Salvador, Deputy Assistant Director, Criminal 
  Investigative Division, Federal Bureau of Investigation........    12
Hudson, Lynette..................................................    27
Justice, Rear Admiral Wayne, Assistant Commandant for Response, 
  United States Coast Guard......................................    12
Morgan, Jeff, President and Co-Founder, Family Assistance 
  Foundation, Inc................................................    51
Orlich, Angela...................................................    27
Rey, Vicky, Vice President, Reservations Administration, Carnival 
  Cruise Lines...................................................    51
Ruchelman, Harold................................................    27
Sullivan, Jr., William M., Partner, Winston and Strawn, LLP......    27

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Jackson Lee, Hon. Sheila, of Texas...............................    77
Matsui, Hon. Doris O., of California.............................    82

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bald, Gary.......................................................    85
Carver, Kendall..................................................    94
Dale, Terry......................................................   126
DiPiero, Susan...................................................   165
Hernandez, Salvador..............................................   195
Hudson, Lynnette.................................................   200
Justice, Rear Admiral Wayne......................................   213
Morgan, Jeff.....................................................   217
Orlich, Angela A.................................................   220
Ruchelman, Harold................................................   238
Sullivan, Jr., William M.........................................   242

                       SUBMISSIONS FOR THE RECORD

Sullivan, Jr., William M., Partner, Winston and Strawn, LLP, 
  supplemental testimony.........................................   256

                        ADDITIONS TO THE RECORD

Ambassador Cruises, Mary S. Brennan, ECC, NACOA, Legislative 
  Representative, written statement..............................   261
American Society of Travel Agents, Cheryl Corey Hudak, CTC, 
  President, written statement...................................   263
Cruise Planners, Michelle Fee, CTC, CEO, written statement.......   265
Cruise Shoppes, Shawn Tubman, President and CEO, written 
  statement......................................................   266
National Business Travel Association, William Connors, Executive 
  Director and COO, written statement............................   267
Royal Caribbean Cruises Ltd., Eleni P. Kalisch, Vice President 
  for Congressional Affairs, written statement...................   268
Travel Industry Association, Roger J. Dow, President and CEO; 
  Travel Business Roundtable, Charles L. Merin, President; joint 
  written statement..............................................   323
Vacation.com, Steve Tracas, President and CEO, written statement.   325


[GRAPHIC] [TIFF OMITTED] 37916.001

[GRAPHIC] [TIFF OMITTED] 37916.002

[GRAPHIC] [TIFF OMITTED] 37916.003

[GRAPHIC] [TIFF OMITTED] 37916.004

[GRAPHIC] [TIFF OMITTED] 37916.005

[GRAPHIC] [TIFF OMITTED] 37916.006



        HEARING ON CRUISE SHIP SECURITY PRACTICES AND PROCEDURES

                              ----------                              


                     Wednesday, September 19, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. Before I begin, I ask unanimous consent that 
Representative Matsui, a Member of the Committee on 
Transportation and Infrastructure, may sit with the 
Subcommittee today and participate in this hearing and, without 
objection, it is so ordered.
    I also want to commend Congresswoman Matsui for her 
continuing leadership on this issue. In March of this year, 
responding to a request made by the gentlelady from California, 
I convened the Subcommittee to examine the extent of crimes 
committed against Americans on cruise ships.
    All cruise ships calling on ports in the continental United 
States are registered in foreign nations. American citizens who 
travel on such ships are essentially stepping into a little 
floating piece of foreign soil, and therefore they are not 
afforded the same protection under U.S. law, they would be 
afforded in the United States.
    Nonetheless, during the hearing I convened in March, we 
heard truly poignant and compelling testimony from several 
individuals who were either the victims of crimes or safety 
incidents on cruise ships or who were the family members of 
victims. These individuals explained that given the unique 
jurisdictional circumstances of cruise ships, they had 
encountered practices, procedures and responses that did not 
support the effective investigation or prosecution of their 
cases, in some instances, did not even ensure that they 
received sensitive and supportive care in moments of great 
vulnerability and need.
    At the time of the March hearing, the Coast Guard and the 
FBI, both of which are joining us on our first panel today, had 
just concluded with the cruise lines' international association 
known as CLIA a voluntary agreement which sought to define the 
processes which cruise ships would follow to report criminal 
activity to the FBI and to the Coast Guard.
    Today's hearing will give us the opportunity to hear from 
the Coast Guard, the FBI and CLIA, their assessments of whether 
the provisions of this voluntary agreement are ensuring the 
timely and adequate reporting of incidents to United States 
authorities.
    At the conclusion of the March hearing, I asked the cruise 
lines if they would meet with the victims and families of 
victims of crimes and incidents on cruise ships to develop 
recommendations that the cruise lines could implement on a 
potentially voluntary basis to improve passenger safety and 
security on these cruise ships, to provide all reasonable 
assistance to victims and to support the investigation and 
prosecution of alleged crimes.
    We will receive an update today from both CLIA and the 
victims and families of victims of incidents on cruise ships 
regarding the status of these discussions as well as 
recommendations on what the next steps should be.
    The FBI has informed the Subcommittee that a total of 207 
incidents have been reported to it by cruise lines from the 
time of the implementation of the voluntary agreement at the 
beginning of April through August 24th of this year. The Coast 
Guard reports that during that timeframe, nearly 4.4 million 
passengers have sailed on cruise line members of CLIA, meaning 
that fewer than .01 percent of passengers sailing on the cruise 
ships during that time period were involved in incidents 
reported to the FBI.
    Of the 207 incidents reported to the FBI, the Bureau 
reports that 72 incidents are considered potentially serious 
violations of U.S. law including 41 sexual assaults, 13 
incidents of assault causing serious bodily injury, 13 
incidents of theft of items valued at more $10,000, 4 missing 
persons and 1 incident in which someone tampered with a ship. 
Under the terms of the voluntary agreement, these 72 incidents 
constituted the kinds of violations that are to be reported by 
telephone.
    These are also the incidents that the FBI will consider 
investigating, but that does mean that the Bureau will 
investigate each of these incidents. In fact, FBI reports that 
it opened only 18 case files between April 1st and August 24th, 
meaning that many of the incidents that are considered 
potentially serious violations of U.S. law were not 
investigated by the Bureau though they could have been 
investigated by some other law enforcement entity, and in some 
cases they were.
    The remaining 135 incidents reported to the FBI between 
April and August were classified by it as ``other'' incidents, 
meaning that they did not constitute the potentially serious 
violations of U.S. law that the FBI would consider 
investigating. These cases included 41 thefts of items valued 
at less than $10,000, 36 simple assaults, 28 incidents of 
sexual contact, 2 suicides, 1 death from natural causes and 1 
accidental death and 26 other incidents.
    The statistics I have just mentioned suggest that cruising 
is actually quite safe, though we look forward to assessing the 
adequacy of current incident reporting procedures. However, 
when an incident occurs, it is our Subcommittee's goal to 
ensure that the crime victims have the opportunity to receive 
justice.
    People taking cruises have paid to be there, and they often 
anticipate trips that will be the highlight of their lives. 
They deserve to know that if they are victims of crime, there 
is a reasonable chance that the perpetrators can be identified 
and brought before a legal proceeding and be brought to 
justice.
    I am also particularly eager to hear from CLIA and the 
cruise lines as to what measures they have or will put in place 
to ensure that women who are the victims of sexual assault 
receive appropriate care to meet both their physical and mental 
health needs.
    Ms. Brown, in our last hearing, spent quite a bit of time 
emphasizing the importance of having women involved in the 
processes, and one of the things that the FBI will talk about 
is that a number of the cases that they considered or came to 
their attention, a substantial number of them, were with regard 
to sexual assaults. Such measures must include ensuring that 
cruise ships' care teams always include female professional 
staff members.
    I believe that all sides to this very difficult 
circumstance will accomplish the objectives of improving the 
security and safety of cruise ships if they approach this issue 
with a pragmatic and reasonable attitude. Some of the cruise 
lines, which are eager to protect their image and rightfully 
so, need to bring an attitude of reasonableness about what they 
can do right now to improve security and safety, and improving 
safety is certainly the best way they can protect their 
corporate interests and image.
    I look forward to the testimony of all who will appear 
before the Subcommittee today, and I hope that all will 
approach this matter with the reasonable and pragmatic attitude 
I have just described. I truly want this to be a win-win 
process.
    I also want to note that in preparing for this hearing, our 
Subcommittee spoke to a number of individuals who had 
experiences and observations to share about the discussions 
that have occurred over the summer and about what they believe 
the next steps should be. Many of these victims and family 
members of victims shared very personal and profound 
observations and deeply wish to testify today.
    To all those individuals, I wish to thank you for your 
dedication to improving security practices and procedures on 
cruise ships to ensure that no one else must endure the 
suffering you have endured.
    While we were unable to accommodate all the requests of 
those who wanted to testify, I invite everyone who was unable 
to testify to submit a written statement for the record to 
ensure that your words and experiences are part of the record 
of these proceedings.
    With that, I want to recognize our Ranking Member, Mr. 
LaTourette and, Ms. Jackson Lee, you will come after Mr. 
LaTourette.
    Mr. LaTourette. Mr. Chairman, thank you very much for 
holding this hearing.
    This morning, the Subcommittee is meeting to review the 
practices and procedures in place aboard cruise vessels to 
secure and safeguard passengers and crew. Now this hearing, of 
course, builds upon the testimony that the Subcommittee 
received in a hearing held six months ago on these topics.
    Each year, more than 10 million Americans vacation aboard 
cruise ships. The cruise line industry is an important 
component of our national economy and the economy of many 
coastal States. It is everyone's interest that actions are 
taken to prevent serious accidents and crimes on cruise ships 
to the greatest extent possible.
    The hearing that this Subcommittee held six months ago 
focused on the existing framework of international and U.S. 
laws and industry practices that govern safety and security 
practices on U.S.-based cruise vessels.
    I understand that the Coast Guard, the FBI, the cruise 
lines and representatives of several victims groups have worked 
over the past six months to review this framework and identify 
areas that can and should be improved. I hope to hear more this 
morning about the steps that have been taken and those that 
will be taken in the future to improve shipboard anti-crime 
practices and procedures.
    All of us on this panel are committed to doing what we can 
to further improve the safety and security of passengers and 
crew on cruise ships. The testimony that we will receive from 
the witnesses this morning will further assist the Subcommittee 
in this process.
    I want to especially welcome the DiPiero Family from my 
home State of Ohio, a little bit outside my district in 
Canfield, for appearing here this morning and for their efforts 
to improve cruise ship safety so that other families are spared 
the loss that they have experienced.
    Again, Chairman Cummings, I want to thank you for your 
continued attention to these critical issues and the witnesses 
for assisting the Subcommittee with our efforts.
    I am particularly interested in some of the comments that I 
thought came out of the last hearing relative to evidence 
retention and crime scene retention and things of that nature, 
how rape kits are processed and the training that goes into 
that aboard cruise ships, and I hope that our witnesses will 
talk about what, if any, progress has been made in those areas 
during their testimony today.
    I thank you and yield back.
    Mr. Cummings. I just want to amend what I said a moment 
ago. We are going to hear from Ms. Brown, and then we will go 
to Mr. Mica and then to you, Ms. Jackson Lee.
    Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman, and Ranking Member for 
holding this hearing today concerning the cruise industry.
    I was encouraged by the positive focus of today's hearing, 
but I do hope that we are coming to the end of having these 
hearings. I was watching television this morning as I was 
getting dressed to come up here, and I was watching CNN. It 
indicated that we were having this hearing today, and it was on 
the crime on the cruise ships. Now that is misleading.
    It implied that crime on the cruise ships was higher than 
what it is right here in the Capital or what it is in my 
district or in your district, and so I think part of it is that 
it is misleading.
    As a Member from the Florida delegation and representative 
of the Port of Jacksonville, I have a particular interest in 
the cruise industry. The cruise industry is one of the most 
important economic engines in Florida. Over 5 million 
passengers embarked from Florida in 2006, and the industry 
contributed to more $5.8 billion in direct spending. In 
addition, the cruise industry is the second largest employer in 
Florida, generating more than 125,000 jobs, and they do so at 
the same time for every community that they touch.
    I am also a personal fan and have taken several cruises. In 
fact, I used to be a travel agent in my real life before I came 
here, and I thoroughly enjoyed it. In fact, later this year, I 
am sending my mother and a group of friends on a cruise. You 
need to know that if I felt it wasn't safe in any way, I 
wouldn't be sending my mother.
    I believe that the cruise industry is committed to 
protecting its passengers and providing information about 
accidents that occur. It makes sense for the cruise industry to 
ensure that their passengers are safe while traveling on 
cruises. Unfortunately, crime happens everywhere, but you are 
safer on a cruise than you are walking down any major city in 
America and to say anything different is misleading.
    People also need to take personal responsibility for 
themselves and use some common sense when they take on a cruise 
and don't leave that common sense when they dock the cruise 
ships.
    It is important that risks be minimized and the procedures 
are in place. I am eager to receive an update from the FBI and 
the Coast Guard on the crime reporting procedures that we 
discussed and what procedures have been taken and put in place.
    I am looking forward to the hearing. One of the points that 
I made that I want to know an update on, how many women have 
been hired or what procedures are to put women in security and 
in medical positions.
    So I want to make sure that we have a fair hearing. I want 
to make sure that the industry is treated fairly by Congress 
and make sure that the victims are treated fairly.
    I am here to hear what the witnesses have to say. I want to 
thank you again, Mr. Cummings, but like I said, I want to make 
sure that we don't send a message to the public that is not 
fair to the industry. Thank you.
    Mr. Cummings. I want to thank you very much, Ms. Brown.
    Let me say this. The title of the hearing is CLIA's title. 
They asked for this title, and they got it.
    As far as testimony is concerned, we have bent over 
backwards, and I told CLIA that in my experience as a Chairman, 
I have not engaged in not even one-tenth of the conversations 
with any witness group than we have with CLIA.
    We have tried to work with them. I believe that we have 
been extremely fair to present a hearing that is well balanced, 
and so I understand.
    Any comments that I may have made have been purely neutral 
to the press, but I appreciate what you said.
    Ms. Brown. Mr. Chairman, I want to point out that I think 
you have been extremely fair, and it is not you. But I am 
saying when you put this message out and when the media pick it 
up, they are looking for the entertainment in it.
    Mr. Cummings. I understand.
    Ms. Brown. It is not entertaining. It is serious for the 
victims, and it is serious for the industry.
    Mr. Cummings. I understand.
    Let me just say one other thing too which is that the way I 
conduct these hearings, and I have said this before. You have 
been here a little longer than I have, and I just want to say 
this to the Committee.
    A lot of people say, well, why do you bring people back? 
Having been in Congress now for 11 years, I notice what 
happens. You will have a hearing, and then people make 
commitments, and then they don't have to worry because they 
know that you are not going to bring them back for another two 
or three years. So in order to try to get things resolved, and 
one of the things that we have tried to do is try to go around 
the legislative process and get some things done voluntarily.
    To your credit, Ms. Brown, I think you will hear some 
testimony about women and the role that women have played, and 
it was a direct result of these hearings that that happened.
    I think there are a lot of good things that have happened 
with regard to the industry. I know everybody will not agree, 
but I think that there are a lot of good things. I am just 
trying to make sure that we do everything in our power with 
this opportunity we have so that we have that win-win 
situation.
    But I really do appreciate what you have said.
    We are very pleased to have now the Ranking Member of the 
Full Committee, Mr. Mica.
    Mr. Mica. I thank you for holding this hearing.
    I want to associate my remarks with Ms. Brown. Ms. Brown 
and I come from the State of Florida, and we do have a very 
strong, active and vibrant tourism industry in that State. We 
also have a responsibility as Members of Congress to make 
certain that we do have in place proper cruise ship security 
practices and procedures that ensure the safety and security of 
those who enjoy tourism in our State.
    We don't want the hearing to be a bashing of the industry, 
but I think we all have attempted to work together to find some 
reasonable things that can be put in place, working with the 
industry, that make their cruise experience or tourism 
experience safe and that the families enjoy that experience and 
feel comfortable that we have taken those steps.
    I know we are going to hear from some folks that had some 
experiences, incidents and some crimes committed. But, as Ms. 
Brown has said, unfortunately we do have that in all aspects of 
society.
    Looking at what the industry has done, though, and working 
with them, I don't think we have seen anybody that is more 
responsive or who has put in place more measures to secure the 
safety and security of their clients and those who enjoy their 
tourist experience. In fact, I don't know of anyone who they 
photograph you and have entry and exit counts on their property 
and on their boat.
    The additional steps that have been taken to screen their 
personnel, and screening personnel is difficult for any 
employer today, not to mention a cruise ship that is 
internationally flagged and enters and exits many foreign 
ports.
    It is a big business, but we want to make certain it is a 
responsible business. I think, to date, if we look at the 
statistics of incidents on a cruise ship as opposed to any 
other tourist experience or just within our communities, it is 
probably one of the safest venues that you can find.
    Of course, today we will hear some exceptions to that. I 
think we are also looking for any way that we can make that 
safe experience even more secure.
    I know how important this business is to not just Florida, 
but we stop and think of Baltimore, Hawaii or any of these 
other places, Texas. I see Members here from different States.
    I guess it would be easy for the industry to stop boarding 
people at our ports, look at places like Bermuda, offshore and 
the Bahamas and the many islands, and not have them board or 
enter or be responsible to the United States. That might be a 
possible solution for the industry and then ignore us, but I 
think it is much better to have them as a viable part of our 
economies, easy access for people who want to enjoy that 
experience and then also work with them to make it safe.
    I hope this can be a productive hearing rather than 
destructive.
    Finally, I do have one concern. As the ranking Republican, 
I am not really pleased with setting a precedent to have people 
who are involved in litigation--and we have I see at least one 
witness here--and pending litigation, testifying on behalf of 
their client here, again with pending litigation. I think that 
sets a bad precedent and puts us in an awkward position in this 
Committee.
    So I take issue with having that particular witness as a 
member of one of these panels, but otherwise I do welcome the 
opportunity to show the American people and the Congress how 
working together with an industry we can achieve some positive 
results.
    I yield back.
    Mr. Cummings. I want to thank the gentleman for his 
statement.
    Let me just clear up one thing. The witness that you are 
talking about was requested by several Members of Congress. One 
of the things that has happened is that this hearing has 
generated more interest from Members of Congress wanting people 
in their district to testify than any hearing that I have been 
involved in, and so we basically had to say to many Members 
that we just could not accept their witnesses. But I 
understand, and I appreciate that.
    Ms. Jackson Lee, and then we will get to the others' 
opening statements. Thank you very much.
    Ms. Jackson Lee. Mr. Chairman, Mr. LaTourette, Ranking 
Member, let me thank you for your courtesies, first of all, and 
thank you for your enormous leadership, not only on these 
issues but a number of issues of which you have been on the 
frontline of innovativeness and oversight, and I applaud this 
Committee.
    Thank you again for allowing me to come before you this 
morning and to cite comments made by our colleague, 
Congresswoman Brown, this is about the victims and certainly it 
is about an industry.
    I come to address the question maybe as it relates to a 
particular incident and procedure, the question of cruise ship 
security practices and procedures. I understand that the 
purpose of this hearing is to enable the Subcommittee to 
receive an update from persons who have been victims or family 
members of victims of alleged crimes on cruise ships regarding 
potential refinements in procedures for reporting alleged 
crimes on cruise ships to U.S. authorities and specific 
measures that could be implemented to improve the safety and 
security of passengers on cruise ships.
    While I agree that procedures for reporting crimes on 
cruise ships to U.S. authorities and the measures to improve 
the safety and security of cruise ship passengers can be 
improved, I am not offering a specific suggestion, I am hoping 
to be part of the solution and possibly not part of the 
problem.
    I come before this Committee to highlight a recent 
experience that I have had that involved a tragic incident of a 
constituent in my congressional area. That is the late David 
Ray Ritcheson.
    Many of you know that I have long been one of the House's 
strongest advocates for Federal hate crime legislation, and I 
am proud to have played a leading role in the passage earlier 
this year by the House of H.R. 1592, the Local Law Enforcement 
Hate Crimes Protection Act of 2007.
    Most of you also know that the late David Ray Ritcheson was 
instrumental in passage of this landmark legislation. In a case 
that drew national attention, the 16 year old David Ray 
Ritcheson, a Mexican American, was severely assaulted in April 
23rd, 2006, by two youth while attending a party in the Houston 
suburb of Spring, Texas.
    One of his teenage attackers, a skinhead, yelled ethnic 
slurs and kicked a pipe up his rectum, severely damaging his 
internal organs and leaving him in the hospital for three 
months and eight days, almost all of it in critical care.
    For the supposed crime of allegedly kissing a white girl, 
this Hispanic young man was punched unconscious, kicked in the 
head, suffered 17 cigarette burns, sadistically inflicted that 
scarring on his body. His assailants poured bleach on his face 
and body and then assaulted him with a pipe taken from a patio 
umbrella. He was left unconscious and unattended in the back 
yard of a house for more than eight hours, and he has endured 
more than 30 operations. I cite this to show the atrocities he 
suffered on land.
    After surviving this horrific attack, the young man said 
that he was going to live, and so he participated in hearings 
before the House Judiciary Committee and indicated in his 
concluding words: It has been a blessing to know that the most 
terrible day of my life may help put another human face on a 
campaign to enact a much needed law dealing with hate crimes. I 
can assure you from this day forward, I will do whatever I can 
to help make our great Country, the United States of America, 
hate free.
    This testimony, I think, helped the passage of this 
legislation.
    As he went on to live his life, he sought to join some 
friends from Texas on a Carnival cruise. David Ritcheson went 
on that cruise over the July 4th weekend of last year. David 
Ritcheson then died this past July 1st of a blunt force trauma 
sustained when he jumped from the upper deck of the cruise 
ship, Ecstasy owned by Carnival Cruise Lines, while a passenger 
on a cruise from Galveston to Cozumel and Progreso, Mexico.
    I gave the backdrop of his life experience so that we can 
know the trauma that he had gone through, through life.
    Cruise staff tried unsuccessfully for perhaps a period of 
time to talk him out of jumping from the ship. According to 
media reports, at least one of his friends witnessed the 
suicide. The ship's captain quickly alerted passengers that the 
boat was being turned around to rescue a man who had gone 
overboard. The rescue crew recovered David's body later that 
morning, and the captain made a second announcement telling 
passengers that a man had gone overboard.
    I was notified as I reached out to any sources that I could 
find to understand what had happened--and I want to qualify and 
indicate that this is still ongoing but, quickly, Mr. 
Chairman--by Tom Dow, the Vice President for Public Affairs.
    We spent the entire day of July 2nd, attempting to 
determine what happened, finding how we could bring relief and 
response to the parents of David and to work through getting 
his body back to the United States. The cruise line provided us 
with a care team, provided assistance to David's family, 
provided travel arrangements, and I hope these are procedures 
that could be reinforced.
    None of this is final. We are still in the midst of an 
investigation and certainly more answers would come. But I only 
offer the fact that this cruise ship and this organization were 
intimately involved in helping the parents avoiding the media, 
getting them to get on board, getting the medical examiner's 
involvement and moving the body to the United States along with 
the Mexican Embassy and Consul, so they did not have to stop 
midway to Mexico but come back to the United States.
    These are procedures that I hope can be reinforced, but I 
wanted to share an experience that impacted the victim and the 
cruise lines to suggest that we might have a meeting of the 
minds of how we can work through some of these tragic 
incidents.
    I offer my greatest sympathy again to David's family, and I 
am grateful, however, for the attention and the extended time 
that was spent with us in Houston, trying to work through this 
very tragic incident.
    I submit my entire statement to the record, and I thank the 
Chairman and the Ranking Member for their courtesies.
    Mr. Cummings. Mr. Oberstar.
    Mr. Oberstar. Mr. Chairman, I just want to thank you for 
following up on the hearing that you held earlier this year. As 
you said, you would stay on top of this issue, and you have 
done.
    I thank Ms. Jackson Lee.
    We really need to get on with the other witnesses.
    I have a statement to be included in the record.
    Mr. Cummings. Thank you.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I appreciate your also having this follow-up hearing. I 
have only been here three years, but it has been obvious to me 
so many times we have Committee hearings. Then things are said 
and promised by witnesses and they disappear into the abyss and 
we never find that out again. So I appreciate the follow-up 
hearing.
    As a founder and co-chair of the Congressional Victims' 
Rights Caucus and a former judge in Texas, hearing 25,000 
felony cases, I am concerned about what takes place on our 
cruise lines. We have a cruise line that goes out of Galveston, 
Texas, not far from my congressional district, and we certainly 
need to find out and make sure that those cruise ships are 
secure.
    I am concerned about victims of crime and crime that occurs 
on cruise ships. I am sure they are safer than most big cities 
in the United States, but it is something we have to deal with 
and have to figure out the jurisdictional problems and resolve 
the issue because victims of crime certainly need to have a 
voice and an answer and to make sure that those cruise ships 
are safe.
    So, with that, I yield back the remainder of my time. Thank 
you.
    Mr. Cummings. Thank you very much.
    I am sorry, Ms. Jackson Lee. Thank you very much. I don't 
want you to just sit there. I know we love looking at you, but 
I know you have got things to do.
    Ms. Jackson Lee. I was ready to answer a litany of 
questions.
    Mr. Cummings. Oh, I am sorry.
    [Laughter.]
    Ms. Jackson Lee. Let me thank Chairman Oberstar. Let me 
thank you very much for your courtesy.
    Mr. Cummings. Were there any questions for Ms. Jackson Lee? 
I am sorry.
    Ms. Jackson Lee. Thank you.
    Mr. Cummings. Thank you very much.
    Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman. First of all, I want 
to thank you for calling this important and necessary second 
hearing, and I look forward to hearing from the cruise industry 
as to what steps they have taken to improve their security on 
their ships.
    I had asked Chairman Cummings to hold a hearing in March of 
this year after learning about a young woman from my district 
who came to me for assistance after she had been a victim of a 
violent crime on February 21st, 2006, on a cruise ship. The 
Committee heard from my constituent, Laurie Dishman, at the 
first hearing. Laurie is here with us today, and I want to 
publicly thank her for her continued and brave efforts to make 
sure that no one else goes through what she has endured.
    Laurie, thank you very much.
    Since our hearing last March, I know that individuals like 
Ken Carver and Laurie Dishman have been working hard to secure 
a meeting with the cruise industry. While there were seemingly 
unnecessary delays and even a few false starts, I was pleased 
to learn that the discussions did take place just a month ago 
in August. The International Cruise Victims Organization-CLIA 
meeting was the first time that there has ever been a 
discussion of the various issues concerning cruise lines by an 
independent group with a cruise line industry.
    I look forward to hearing the reforms the cruise industry 
is undergoing based on this meeting. I am particularly 
interested in the timeframes for which these reforms will be 
enacted and what information is being shared with passengers 
about the potential for danger onboard a cruise ship.
    As Laurie testified at the last hearing, as a passenger 
onboard the Vision of the Seas, a ship operated by Royal 
Caribbean, she was raped by a crew member. One of the most 
disturbing aspects of Laurie's case is that the cruise ship on 
which she was raped was short security staff. As a result, the 
cruise line promoted someone with no training to perform 
security personnel duties. The tragedy that ensued in something 
that Laurie will never forget.
    I continue to be concerned about the lack of security 
personnel on cruise ships, many of which are essentially 
floating cities with thousands of passengers and few security 
guards. Similarly, passengers may hear that background checks 
are performed on all crew members. However, what Americans do 
not understand is that many of these individuals are foreign 
nationals and that their countries do not have the same system 
in place for background checks as we do.
    The story of Laurie's and other victims' experiences are 
shocking enough. Unfortunately, most of these victims and their 
families continue to experience difficulties after the crime 
occurs.
    In Laurie's case, she was forced to collect her own 
evidence after she departed the ship and experienced difficulty 
in getting information about the incident from the cruise line. 
Proper evidence collection and victim's assistance after a 
crime are important and seemingly missing from cruise ships.
    I hope that the cruise industry has worked during these 
last six months not only on ways to prevent crimes from 
occurring but also on working to take care of victims and their 
families after a crime has occurred. The more I have inquired 
about crimes on cruise ships, the more I have been alarmed that 
there is no shortage of cases of rape, sexual assaults of 
minors, alcohol-related fighting and abuse, and persons 
overboard.
    The last hearing highlighted how crime numbers reported to 
Congress dramatically differed from the cruise industry's 
internal crime statistics. The cruise industry insists that 
they are voluntarily reporting more crimes than they are 
statutorily required to. I feel that their actions have been 
less than forthcoming. Unfortunately, it seems that without 
continued congressional oversight or penalties for 
noncompliance, the cruise industry reports what and when they 
want to.
    We continue to hear media reports of passengers falling 
overboard, passengers going missing and passengers being raped 
and sexually assaulted. Sadly, many of these cases remain 
unresolved because of a lack of security personnel and 
standards for crime scene preservation. Worse yet, many cases 
go unreported because there is no industry reporting mechanism.
    The results of our first hearing combined with numerous 
media reports of crimes on cruise ships point to the need for 
increased safety and security for these passengers. Prevention 
can be an important tool, and prevention begins with making 
people aware of the potential for a crime to occur.
    There will be 12 million Americans traveling on cruise 
ships this year. The industry is growing. With growth comes a 
greater responsibility. This is an opportunity for all of us. 
Working together, we can and we will improve the safety and 
security of Americans who travel on the high seas.
    I thank you, Mr. Chairman, and I yield back.
    Mr. Cummings. Thank you very much, Ms. Matsui.
    I want to thank all the Members for your opening 
statements.
    Mr. Bishop, you did not have a statement?
    What we are going to do is we are going to recess for 
probably about 30 minutes. We have three votes, and we will be 
back. You might want to go and get a bite to eat. Thank you.
    [Recess.]
    Mr. Cummings. Thank you very much. We will now resume our 
hearing.
    Rear Admiral Wayne Justice--is he here--and Salvadore 
Hernandez. I guess the Rear Admiral will be joining us 
momentarily.
    Mr. Hernandez is the Deputy Assistant Director of the 
Criminal Investigative Division with the Federal Bureau of 
Investigation, and Rear Admiral Wayne Justice is the United 
States Coast Guard's Assistant Commandant for Response.
    I want to thank all of you for bearing with us.
    Rear Admiral, if you have now caught your breath, you may 
proceed.

 TESTIMONY OF REAR ADMIRAL WAYNE JUSTICE, ASSISTANT COMMANDANT 
FOR RESPONSE, UNITED STATES COAST GUARD AND SALVADOR HERNANDEZ, 
  DEPUTY ASSISTANT DIRECTOR, CRIMINAL INVESTIGATIVE DIVISION, 
                FEDERAL BUREAU OF INVESTIGATION

    Admiral Justice. Good afternoon, Mr. Chairman, Ranking 
Member LaTourette and distinguished Members.
    I am honored again to appear before you and to provide an 
update on the Coast Guard's role and actions within the 
interagency to assess and address concerns about crimes on 
cruise ships. I intend to focus my brief remarks on apprizing 
you of our progress since March to both clarify and highlight 
the scope of mandatory cruise ship crime reporting requirements 
and to implement more expansive voluntary reporting of crimes 
on cruise ships.
    The primary role of the Coast Guard with respect to cruise 
ship crime is establishing and facilitating Federal reporting 
requirement and procedures in a manner consistent with domestic 
and international law to enable notification to and decision-
making by appropriate investigative agencies. By establishing 
maritime crime reporting requirements and facilitating delivery 
of incident reports through the Coast Guard's network of 
maritime command and operation centers, the Coast Guard 
supports the FBI in its lead investigative and statistical 
analysis roles.
    In furtherance of our role, the Coast Guard led a 
successful effort this year to ensure national level 
interagency and industry alignment regarding the application of 
current Federal regulations. In order to facilitate increased 
reporting, the Coast Guard worked closely with the FBI and CLIA 
through 2006 and early 2007 to reinforce the scope of the 
mandatory reporting requirements and to develop voluntary 
reporting procedures for serious offenses committed by or 
against U.S. nationals aboard cruise ships that are beyond the 
scope of the mandatory reporting requirements. This effort 
represented the first disciplined attempt to gather serious 
crime statistics with respect to cruise ships frequented by 
U.S. nationals regardless of whether such vessels call on the 
United States.
    Given the legal and operational environment that I 
described to you when I testified in March, we viewed this 
voluntary reporting system as the most promising and viable 
option for improving and expanding cruise ship crime reporting 
and investigative response in the near term. As expected, many 
in the cruise industry reinforced compliance with existing 
mandatory reporting requirements and embraced the opportunity 
to report and improve responses to serious crimes affecting 
U.S. nationals.
    Sir, as you mentioned this morning, collectively the Coast 
Guard and the FBI have received and processed 207 incident 
reports in the first six months of the program. That is 207 
reports from the same vessels that carried over 4 million 
passengers during the period.
    It is the Coast Guard's role to establish reporting 
requirements and the FBI's role to determine the appropriate 
Federal investigative response in specific cases and compile 
crime statistics and policy analysis. Accordingly, I will defer 
to the FBI to provide more detailed investigative and 
analytical context for the reporting.
    From the Coast Guard's overall maritime security 
perspective, we have no evidence to suggest that there is 
significantly more or more serious crimes affecting U.S. 
nationals aboard cruise ships than indicated by the reporting 
data.
    Based on consultation with the FBI, the Coast Guard 
believes that clarifying the scope of the mandatory cruise ship 
reporting requirements and implementing additional voluntary 
reporting procedures are working well, contributing to improved 
situational awareness through transparency and helping to 
better inform both the discussion and response with respect to 
allegations regarding crimes on cruise ships.
    We continue to recommend that perspective cruise ship 
passengers assess the level of security and safety on foreign-
flagged cruise vessels on which they may embark just like they 
would evaluate their safety and security risks when visiting a 
foreign country. Congressional hearings like this help 
highlight that responsibility and encourage the cruise ship 
industry to embrace transparency in reporting and crime 
prevention strategies to remain economically competitive.
    It is clear that some serious acts affecting U.S. nationals 
aboard foreign-flagged cruise ships have brought great sadness 
to the families of victims. The Coast Guard mourns the losses 
these families have suffered, and we are committed to improving 
the overall safety and security environment within the maritime 
domain.
    The Coast Guard will continue to work with the FBI to 
ensure effective implementation of both mandatory and voluntary 
reporting procedures and intervene at sea when appropriate 
while recognizing the collective jurisdictional and resource 
limitations of the United States. Taken together, the mandatory 
reporting regulations and the voluntary reporting requirements 
contribute to improving the safety and security of U.S. 
nationals aboard cruise ships by leveraging partnerships with 
industry and international partners as well as improving 
transparency for consumers.
    Thanks for the opportunity to testify, sir, and I will be 
happy to take questions as they come.
    Mr. Cummings. Thank you very much.
    Deputy Assistant Director Hernandez.
    Mr. Hernandez. Good afternoon, Chairman Cummings, Ranking 
Member LaTourette and Members of the Subcommittee.
    I appreciate the opportunity to be here today to provide an 
update on the FBI's work with the U.S. Coast Guard, the cruise 
line industry and the victims of cruise line crime regarding 
crime aboard cruise ships.
    I testified earlier this year that after many months of 
development, in March 2007, the FBI, the U.S. Coast Guard and 
the Cruise Lines International Association, or CLIA, reached an 
agreement on voluntary, standardized protocols for CLIA member 
lines to report allegations of serious violations of U.S. law 
committed aboard cruise ships. These reporting procedures are 
in addition to, but not in lieu of, the mandatory reporting 
requirements under the Code of Federal Regulations, the 
Maritime Operational Threat Response Plan.
    Pursuant to the agreement, on April 1st, 2007, the FBI 
began collecting and tracking the incidents as they were 
reported by CLIA member lines. I would like to take a few 
minutes this afternoon to report on the results of this effort.
    Through August 24th, 2007, the FBI received 207 reports 
from CLIA members. Many of these matters did not require 
criminal investigation and, as such, should be viewed as 
``incident reports,'' not ``crime reports.'' For example, 
reports were received of attempted suicides of passengers as 
well as matters with purely civil implications.
    Sixteen, or 8 percent, of all reports involved incidents 
that occurred while a passenger was ashore outside of the 
United States and, therefore, outside the jurisdiction of the 
FBI or other U.S. law enforcement. For example, a passenger 
reported that he was robbed by two subjects in a vehicle while 
ashore in the Bahamas.
    In matters such as these, the reporting agreement holds 
that although cruise lines may report incidents which occurred 
outside the United States' jurisdiction to the FBI, they are 
not required to do so.
    Of the 207 reports received by the FBI, 39 incidents, or 19 
percent, were responded to and/or investigated by law 
enforcement other than the FBI. These law enforcement agencies 
included local police departments in the United States, as well 
as foreign law enforcement agencies.
    Nineteen reported incidents occurred while the ship was 
docked. In the United States, the respective State has 
jurisdiction when a vessel is moored or otherwise connected to 
the land of the State. Accordingly, a report of a theft of 
items estimated at $30,000, which was stolen while the ship was 
docked at Galveston, Texas, was investigated by the Galveston 
Police Department.
    In further breakdown of the incidents that were reported to 
the FBI during the initial rating period, I provide the 
following:
    The agreement with CLIA and the United States Coast Guard 
lists eight categories of incidents which are to be 
telephonically reported by CLIA members to the nearest FBI 
field office or legal attache office. These matters--homicide, 
suspicious death, missing U.S. national, kidnapping, assault 
with serious bodily injury, sexual assault, firing or tampering 
with vessels and theft greater than $10,000--involve 
potentially serious violations of U.S. law and are to be called 
into the FBI as soon as possible following the incident.
    After telephonic contact, CLIA members are instructed to 
follow up with a standardized written report. All other less 
serious matters are reported under a general ``other'' category 
and are brought to the FBI's attention by submission of a 
written report.
    During the first month's reporting under the agreement, 
there were no reports of homicide, suspicious death or 
kidnapping aboard CLIA member ships. There were four reports of 
missing U.S. nationals. Of these four reports, one involved a 
husband and wife who took most of their belongings with them 
and chose not to reboard after docking at a foreign port. The 
three remaining reports involved passengers whose past 
histories and behavior while on board the ship strongly 
suggested that they had taken their own lives.
    CLIA members reported 13 assaults with serious bodily 
injury. The FBI opened two investigative cases from these 
reports, both of which are ongoing. Several matters submitted 
in the ``assault with serious bodily injury'' category were, in 
fact, of lesser seriousness.
    The FBI investigates sexual assaults as defined in Title 18 
of the United States Code, Sections 2241 through 2243 and 2244 
(a) and (c). Since April 1st, the cruise lines have reported 41 
instances of sexual assault. Of these 41 incidents, 19 
represented allegations of sexual activity generally 
categorized as rape, 3 of which occurred on shore and, thus, 
outside the jurisdiction of the FBI.
    Based on the 41 reports, the FBI opened 13 investigative 
cases. Five of these cases have been closed for reasons of 
victim reluctance to pursue prosecution or prosecutive 
declination from the United States Attorneys' Office. Eight 
investigations are pending.
    During the reporting period, there were 13 incidents of 
theft of more than $10,000 reported. Nine of these involved 
jewelry, two involved cash, one involved miscellaneous items 
from aboard ship, and one involved food products.
    There was one report of firing or tampering with vessels.
    The remaining 135 reports, or 65 percent, of all of them 
involved less serious matters such as simple assault, low 
dollar loss theft, fraud, suspicious activity, bomb threats, 
sexual contact or activity that was criminal in nature.
    Sexual contact, as defined in 2244 (b) as, essentially, 
uninvited touching of a sexual nature. That made up 28 reports.
    Thirty-six of the one hundred thirty-five reports involved 
simple assault matters to include punching, slapping or pushing 
actions, and forty-one reports were related to theft of less 
than ten thousand dollars.
    I would like to briefly update this Committee on the other 
matters which the FBI has undertaken in support of its role in 
investigating crimes aboard cruise ships.
    Since I last testified, the FBI has met again with members 
of the International Cruise Victims Association. Kendall 
Carver, whom you will hear from today, came to FBI Headquarters 
in July, accompanied by two members of his group. I met 
personally with Mr. Carver and his associates to hear their 
concerns and to explain the work being done by the Coast Guard, 
CLIA and the FBI.
    Over the past six months, my associates at the FBI and I 
have met or spoken with CLIA and the Coast Guard regularly to 
check on progress.
    In closing, the FBI is committed to continuing his work 
with the cruise line industry, the U.S. Coast Guard and 
victims' groups to ensure full reporting of crimes aboard 
cruise ships and to facilitate more effective first response to 
such crimes.
    Thank you, Chairman and Members of the Subcommittee, for 
the opportunity to testify today. I am happy to answer any 
questions.
    Mr. Cummings. Thank you very much.
    First of all, I want to thank you all for what you all have 
done in working with the industry and with the victims' groups. 
I realize, believe me, I realize that the Coast Guard and the 
FBI have tremendous responsibilities, and I understand that. 
The fact that you all would take the time to try to work 
through this is much appreciated by all of us. I really do 
thank you.
    I want to go to you, Deputy Hernandez. In your testimony, 
you talked about the 72 cases being serious. How do you decide 
which cases are serious?
    I think then you went on to investigate 18 open files. How 
do you then go on to open a file?
    Are you following me? In other words, what do you take into 
consideration?
    Mr. Hernandez. Chairman, basically, we have defined up 
front what we consider serious through the reporting 
requirements that we have established with the cruise lines, 
and they are, as I said, homicide, serious violation; death, if 
it is suspicious in nature; a missing U.S. national is 
considered a serious matter; kidnapping, obviously; assault 
with serious bodily injury or sexual assault in certain 
instances.
    This is a product primarily of investigative and 
prosecutive thresholds that are driven by resources, 
ultimately. We understand that there may be many other 
instances of alleged criminal activity which occur aboard a 
cruise ship. Cruise ships are invited to report that to us if 
they desire, but the truth is only certain kinds of matters 
will actually receive investigative attention because of 
resources and ultimately will only receive prosecutive 
attention if resources are available.
    So what we have tried to do is narrow this, making sure 
that we get full reporting on the most serious crimes and give 
permissive reporting or allow for permissive reporting when the 
crimes are not considered as serious.
    Mr. Cummings. Now one of the things that I have been very 
interested in is, I think, as Mr. Dale mentions in his 
testimony about how CLIA is not only concerned about security 
but also concerned about the way people are treated.
    I realize that you have training program going on basically 
about preservation of evidence, is that correct?
    Mr. Hernandez. That is correct.
    Mr. Cummings. What is the name of that program?
    Mr. Hernandez. We currently have in place.
    Mr. Cummings. The new one.
    Mr. Hernandez. Right, it has just been concluded. It is a 
PowerPoint presentation by our evidence response team at 
Quantico that will be distributed to all the cruise lines that 
will instruct them on crime scene preservation, evidence 
retention.
    Mr. Cummings. How long is that presentation? How long is 
the PowerPoint?
    Mr. Hernandez. I have not seen the presentation.
    Mr. Cummings. Okay. But this is something, I take it, that 
you shouldn't take, I mean if you were guessing, no more than a 
day or so.
    Mr. Hernandez. I would say far less than a day. I am 
guessing it would be a couple of hours.
    Mr. Cummings. What is it, on a DVD? What have you got 
there?
    Mr. Hernandez. It will be available on a DVD.
    Mr. Cummings. We would like to have a copy of that. But I 
am just wondering, do you think that should be something that 
is required of all cruise lines with regard to security?
    In other words, part of the complaints coming from Ms. 
Matsui and others is this whole idea of evidence and how 
evidence is addressed. You can't get a better agency than the 
FBI, I think, trying to instruct security, boat security, CLIA 
security as to how to preserve that evidence because once that 
evidence is disposed of or tampered with, a case, even if you 
had a case, is kind of difficult to prosecute.
    So I am just wondering, what is your opinion on that and 
have you had any discussions with the CLIA folk with regard to 
that?
    Mr. Hernandez. We haven't had recent discussions. We did 
talk earlier in the year, actually probably last year when we 
first began the process.
    The CLIA members, as represented by those that attend their 
CLIA headquarters' meetings, were very interested in this. They 
have repeatedly asked for training from the FBI, and I would 
guess other law enforcement agencies.
    So it is available. It will be available, and my guess is 
that CLIA members will want this training and will put it to 
use.
    Mr. Cummings. Now how soon, if you know, will that be 
available to them? It sounds like it is hot off the press.
    Mr. Hernandez. My understanding is that it has been 
completed, so it should be anytime.
    Mr. Cummings. All right.
    Rear Admiral, let me ask you this. The incidents reports 
that you receive, are they ever made available to the public?
    Admiral Justice. No, sir. I guess they could be FOIable.
    Mr. Cummings. But they are not now, is that right?
    Admiral Justice. That is correct.
    Mr. Cummings. In your testimony, you write that: ``We 
continue to recommend perspective cruise ship passengers assess 
the level of security and safety on foreign-flagged cruise 
ships on which they may embark just like they would evaluate 
their safety and security risks when visiting a foreign 
country.''
    Do you recall that?
    Admiral Justice. Yes, sir.
    Mr. Cummings. If they don't have the information, other 
than word of mouth, I guess, recommendations, how are they 
supposed to do that, accomplish that?
    Admiral Justice. There are a couple of different ways. The 
State Department has information about other countries that 
would be of interest, and they post that.
    But, specifically, the cruise ships have stepped up. Cruise 
lines have stepped up, and they have information available 
about where they are going and what concerns you might have. I 
think there has been an effort by the cruise lines to 
articulate more awareness, particularly if you are going to do 
an excursion in another country or what is going to happen on 
your ship. They are making it available to the public.
    Mr. Cummings. Perhaps Mr. Dale could address that because 
part of the problem, in fairness to both sides, is the cruise 
industry is concerned that putting out this information to the 
public may send the wrong message.
    On the other hand, when I read your statement, I am talking 
about incidents that would fall within the jurisdiction of what 
you and the FBI do together. I am not talking about other 
things that may happen on land or whatever while a person is on 
a cruise.
    But I think that perhaps if there was a way that they could 
know, have some kind of idea, they could make those kinds of 
judgments. When I read your statement, it just jumped out at 
me, and I was trying to figure out how they would accomplish 
that.
    I am not just talking about threats, problems in a country, 
where there are security risks and things of that nature. I am 
talking about the cruise ship itself, the line itself. Are you 
following me?
    Admiral Justice. I do. Again, I would expect Mr. Dale to 
answer that there for a preventive side. It is a preventive 
piece here to be aware of where you are at, what you are doing, 
the condition you are doing it in, those sorts of things. As we 
all know, we don't always have our situational awareness up 
when we are at some place and particularly in a different 
environment on a ship like that. I think that is where they 
would go with this.
    Mr. Cummings. Mr. Hernandez, are there any specific 
security or safety improvements that you believe that cruise 
ships should implement at the present time to improve passenger 
safety and security? If so, what are they, from what you have 
seen?
    Mr. Hernandez. Mr. Chairman, we really haven't assessed 
what it is cruise ships do. We have been, since the beginning 
of this process, more interested in working with them about how 
it is they report information under what circumstances. We have 
had general discussions. So I am really not in a position to 
make that kind of judgment today.
    Mr. Cummings. I got you. I understand.
    All right, Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman, and I thank both 
of you for your testimony.
    I want to talk a little bit about this agreement and how it 
is working based upon your observations and then follow up on 
some preservation of evidence questions that the Chairman was 
talking about.
    This agreement has been described as a voluntary agreement 
between CLIA members and the Government. What I take from that 
is, either or both of your opinions, that there is no provision 
currently in law that could have compelled them to make this 
agreement, that it is something that they voluntarily chose to 
enter into.
    Admiral?
    Admiral Justice. There are mandatory requirements that are 
regulated. The effort was made to look at where there are holes 
above that aren't regulated, and this voluntary construct fills 
in those gaps, those holes. So now we feel that crimes that 
should be reported are being reported. The good news is that it 
is happening.
    Mr. LaTourette. Right. Is it your observation that this 
agreement, I know that it is new, but it seems to be working 
well?
    Admiral Justice. Yes, it is. It is working well, and we 
feel. I would use the point that we don't have instances of 
crime being public or aware to us that haven't been reported. 
So that is good news.
    Mr. LaTourette. The other thing, the thing that strikes me 
about the agreement is that the reporting requirement is as 
soon as possible. I understand that reporting is happening, 207 
or whatever the number is. Has either the Coast Guard or the 
FBI determined whether or not they are being reported in a 
timely fashion in the spirit of the agreement?
    Admiral Justice. We feel they are.
    Mr. LaTourette. Mr. Hernandez?
    Mr. Hernandez. Yes, as soon as possible means by telephone, 
and our experience has been that the cruise lines are 
telephonically contacting the nearest FBI office or legal 
attache office.
    Mr. LaTourette. The Chairman was talking about evidence 
preservation, and I think one of the things that was alarming 
about Ms. Matsui's constituent was the notion that you had to 
collect your own evidence.
    Mr. Hernandez, I heard what you said about the DVD 
presentation or the presentation that is now going to be 
distributed for people to be instructed on preservation, but 
have you either talked to or you personally had the opportunity 
to view any of these open files that you talked about?
    For instance, I think that there are 13 open files on rape 
cases or serious sexual assault cases. Have you talked to any 
of the case agents or yourself looked at those?
    Mr. Hernandez. No, I have not. Those cases, of course, are 
in our field offices. I have a sense from discussions from some 
of the people at headquarters what those are about, but I 
haven't reviewed the files.
    Mr. LaTourette. Well, my question is do you, from your 
sense, have any sense as to whether or not, while we are all 
waiting for this evidence collection instruction going out, as 
to whether or not the cruise line industry is doing a good, 
decent job of evidence collection at this moment in time?
    Mr. Hernandez. I don't know that. I take it from what I 
have seen that there is sufficient evidence in some of these 
cases to move forward with a prosecution, with an investigation 
or prosecution. I can't say with certainty in what percentage 
of those cases evidence was properly collected at the very 
beginning.
    Mr. LaTourette. You talked a little bit about the fact that 
some of the cases have been declined for prosecution by the 
United States Attorney. Are you aware of any of those 
prosecutorial declinations being based upon the fact that 
evidence was poorly collected?
    Mr. Hernandez. I am not aware of any being declined on that 
basis.
    Mr. LaTourette. Okay.
    The other thing that we sort of got into and I think the 
folks from CLIA are going to talk about it a little bit later, 
obviously, in an allegation of serious sexual assault or rape, 
it is very important that the rape kit or the pelvic 
examination be performed professionally. Have either of you 
worked with or asked the question of the cruise line industry 
as to whether or not their personnel are trained and have the 
ability to properly administer those examinations after an 
allegation is made?
    Mr. Hernandez. I have not. We have not.
    Mr. LaTourette. Admiral, anything?
    Admiral Justice. No, sir, I can't answer that question.
    Mr. LaTourette. Okay. I think we will wait for them to talk 
a little bit about that.
    Are you aware as to whether or not the cruise line industry 
has protocols relative to the collection of evidence?
    Mr. Hernandez. I am not aware of the protocols. I believe 
that there are standard operating procedures in place with 
respect to each cruise line. I think they will be able to 
answer that.
    Mr. LaTourette. Okay.
    Then the last question would be on this voluntary agreement 
business with the reporting that you describe is going well. If 
this agreement of timely reporting, as soon as possible 
reporting continues to go well, in your opinions, either of 
you, does it enhance the ability of law enforcement to make 
judgments as to when to enter a case quicker than it would have 
if we didn't have this voluntary agreement in place?
    Do you think we are going to see a positive impact in terms 
of prosecution for those cases that are real cases?
    Mr. Hernandez. I think we will, and I will make one 
observation about the voluntary reporting. The issue here has 
been for many months now the difference, the distinction 
between what is our jurisdiction and what is required to be 
reported. The voluntary reporting mechanism was established 
because, in truth, the cruise lines came to us and said we 
would like to be able to report more. We would like some rules 
about how we report.
    There has been, I think, a good faith interest from the 
very beginning to establish some procedures that would allow 
them to report beyond what was required under CFR regulations. 
So that has worked well.
    My belief is that because we have about as many cases 
proceeding to prosecution given a five month period compared to 
what we have had over the last five years, that we have about 
as many crimes being reported that we did before. Now before, 
we didn't know because we were only capturing those cases that 
actually were opened as investigations by the FBI.
    My sense is that the cruise lines have probably been 
reporting at about the same rate all along. Now it is just 
standardized.
    Mr. LaTourette. Admiral, is there anything you want to say 
in response?
    Admiral Justice. No, exactly what my partner says, sir.
    Mr. LaTourette. Thanks very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Before we get to Ms. Matsui, let me just ask 
you this, Deputy Hernandez.
    The DVD, I know you haven't reviewed it, but is it likely 
to contain protocol? I mean just following up on the Ranking 
Member's question.
    In other words, the DVD tells them how to preserve 
evidence. Would you consider that some type of protocol that 
they might adopt or do you think that it is just some general 
information? Do you follow what I am saying?
    Mr. Hernandez. Yes. Yes, we would like to be able to 
provide onsite training, FBI agents training cruise ship 
personnel. We simply don't have the resources to do that in 
great numbers, so the DVD is the next best option.
    I believe that, and again I haven't seen it, but my 
instructions in moving this forward were to put together 
protocols, guidance about how to collect evidence and preserve 
crime scenes. So my belief is that it does just that and that 
these will be accepted by the cruise lines as part of their 
standard operating procedure.
    Mr. Cummings. I take it these are the same kinds of 
instructions that you, that FBI agents would likely have to go 
by. I mean they are at a different level of law enforcement, 
but it would be the same things that they would be looking for 
as agents, is that right, in other words, preservation issues?
    Mr. Hernandez. Generally speaking, we would like in the end 
to preserve crime scenes and collect evidence as FBI agents 
wherever possible. My guidance has been to preserve primarily, 
to preserve a crime scene, so evidence can be collected by true 
collection professionals, but I am sure that there will be some 
guidance there that explains how to deal with evidence that 
simply could be dissipated if not collected quickly.
    Mr. Cummings. I see. Thank you very much.
    Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman.
    I want to thank both of you for working together on this. I 
know that it hasn't been a very long time, and you have had to 
bring yourself up to speed on processes.
    I wanted to know, Admiral Justice, since the Coast Guard is 
in charge of overseeing the reporting requirements for the 
cruise line industry, I think part of the problem is that there 
is no mechanism to get this out to the public. You mentioned a 
couple things. The State Department has some things about how 
different things are happening in different countries, and the 
cruise lines themselves have information.
    But I believe that what we have here is a situation where 
there is a lack of trust, and the Coast Guard is certainly an 
institution that we trust. Is there a way that we can get some 
of that information available to the public? What kind of 
mechanisms do we need to work out in order for that to happen?
    Admiral Justice. Ma'am, I go back to what I said before. I 
truly believe that the cruise ship industry, it is in their 
best interest, if there is a way to do things better, they are 
going to do it. If there are better ways to have processes on 
ships for people to do things, that is safer, it is in their 
best interest to do that.
    As far as reporting this information, it is not available. 
I would submit that we would be happy to work with industry 
talk about. Of course, they have the same information we do, 
but what might they do more to help better inform their 
passengers?
    Again, I wouldn't be so--I mean I am absolutely positive 
that not only is it in their best interest but they have 
demonstrated the commitment to doing that, to working to make 
things as safe as possible and to construct processes that 
support that.
    Ms. Matsui. I believe you understand, though, that we are 
here at this hearing because the victims didn't believe that 
they had adequate information, and they also believe too that 
the picture presented about the cruise industry, the things you 
see on television or the brochures you get in the mail. It is 
perfectly safe, everybody is having a great time and, in a 
sense, it lulls you into thinking that there is no crime on 
board at all. You can bring your families and your young kids 
and have them go off on their own.
    We understand. Yes, you should have some idea that it is 
like everywhere else, but that is not presented by the cruise 
industry. I think, in a sense, we need to really understand 
that things have happened. Bad things have happened, and we 
really need to understand that we need to not just trust the 
cruise industry.
    I know we want to work together. I also believe too that it 
is in their best interest to do this. However, we almost need 
another party to be a part of this too, to work together, to 
get a neutral party involved in this to get some crime 
statistics out there.
    It is not that we are going to say that it is perfectly 
unsafe. No, we are not going to do that.
    But I remember the hotel industry a couple decades back 
when there was a lot of media frenzy about the unsafe hotels, 
how women were having difficulties, and I think that they have 
improved so much that I really believe that there is an 
opportunity here for us to get beyond this, but we still need 
to understand what is the real story. At this point in time, I 
can't trust that it is the real story.
    Admiral Justice. Yes, ma'am. Thank you.
    What I would say is the information is available through 
the Freedom of Information Act. Information could be published 
by the cruise industry or by us. But I will tell you that I 
take your point and we will talk to them, work with them and 
make sure we do better to paint the proper picture.
    Ms. Matsui. I also believe that you really need to be 
talking with the victims too because they have actually gone 
through some of this and understand the situation that they 
have been put into.
    I understand that the Coast Guard puts in lines' safety 
violations in a database called PSIX, is that right?
    Admiral Justice. Yes.
    Ms. Matsui. Why doesn't the Coast Guard put online from 
each reportable crime on the cruise line? Can we do that?
    Admiral Justice. Different safety, security, a different 
venue. We could. We don't do it right now. We don't want to do 
it.
    Ms. Matsui. But we could do something like that, is that 
what you are saying?
    Admiral Justice. Yes, ma'am. Yes, ma'am.
    Ms. Matsui. Okay.
    Admiral Justice. I had to check with my barrister to make 
sure. Yes, ma'am.
    Ms. Matsui. All right. Well, I will follow up on that 
later.
    Thank you very much, Mr. Chairman.
    Admiral Justice. Thank you.
    Mr. Cummings. Thank you.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Admiral, the gentleman from Ohio may have touched on this. 
Let me put a three-part question to you.
    Are cruise ships required to report crimes (a), (b), if so, 
to whom are they reported, and (c) does the cruise industry 
comply with these reporting requirements?
    Admiral Justice. The answer is yes, sir, they are required 
to report certain crimes, and they report them to the Coast 
Guard and the FBI, and they do do it.
    Mr. Coble. Does the United States have the authority to 
require foreign-flagged vessels or cruise ships to carry aboard 
Federal marshals?
    Admiral Justice. Sir, the answer is no.
    Mr. Coble. Do you think we should?
    Admiral Justice. No, sir. That is an extraordinarily 
complicated, multi-jurisdictional international rule of law 
challenge that could be explored through the International 
Maritime Organization. It would take a very complex multi-year 
effort. It could be looked at.
    It is a private industry, cruise ship responsibility, and I 
know two panels from now they are going to step up there and 
tell you that they accept that responsibility and they do. I 
think they do extraordinary efforts to properly secure their 
vessels.
    Mr. Coble. Mr. Hernandez, this may be more appropriately 
put to you. How does the Federal Government respond when 
receiving a report of an allege crime or accident?
    Mr. Hernandez. First, we look at what has been alleged. If 
it meets one of the criteria as a serious violation, we are 
going to respond. Whatever form that may take depends. That 
means going to the ship, collecting evidence, taking 
statements.
    Mr. Coble. Would the track usually go from the cruise ship 
to the Coast Guard to the FBI? Would that be the normal 
pattern?
    Mr. Hernandez. No. By virtue of this agreement, any of 
those kinds of alleged violations would be reported to us at 
the same time as the Coast Guard. They would be called into us.
    Mr. Coble. Okay, it would be simultaneously reported.
    Mr. Hernandez. Yes.
    Mr. Coble. Again, I want to follow the pattern here, 
Admiral. Can passengers make reports of alleged crimes or 
accidents or the occurrence of accidents directly to the United 
States, i.e., Coast Guard or FBI or does the process require 
that they go through the vessel security officer?
    Admiral Justice. There is no requirement to go through the 
vessel's security officer. They can make the complaint or bring 
to our attention the issue.
    Mr. Coble. Thank you, gentleman, for being with us.
    Thank you, Mr. Chairman.
    Mr. LaTourette. Mr. Coble, will you yield the balance of 
your time to me?
    Mr. Coble. I will indeed.
    Mr. LaTourette. I thank you very much.
    Admiral, I wanted to follow up on what counsel has brought 
to my attention. In your testimony, you have a statement that 
foreign-flagged cruise ships that visit a U.S. port would be 
required to comply with reporting requirements as a de facto 
condition under port State control.
    My question is: Is this something that is new? Have the 
captains of the port been instructed of this policy? Has the 
Coast Guard ever denied entry to a vessel for failure to report 
and what would be the penalties for that?
    Admiral Justice. Yes, sir. We have not. We have never not 
allowed entry. It is civil. It is a civil penalty that could be 
affected. I don't have the exact details of what they are, but 
the answer is it is new. Yes, we could penalize them, but no 
one has been denied entry because of that at this time.
    Mr. LaTourette. It being a new initiative, have the 
captains of the port been instructed on the new initiative?
    Admiral Justice. Yes, sir.
    Mr. LaTourette. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Just one last two or three questions, Deputy Hernandez, let 
me ask you this. I note from the FBI report, it says of the 18 
cases open, 13 were alleged sexual assaults. When you are 
dealing with a sexual assault, are there certain preservation 
issues that come up that are different, say, from other crimes, 
preservation of evidence issues?
    Mr. Hernandez. Well, it depends on the other crimes you are 
speaking of. The FBI has very broad jurisdiction, but when we 
discuss personal crimes that the FBI might investigate, 
certainly rape kits are critically important, that that be done 
forthwith, that evidence be collected properly. So, yes, there 
are special requirements.
    Mr. Cummings. Say, for example, in rape cases that you get 
the report, you have 18 files open. Thirteen of them are sexual 
assaults, and we don't know. I don't know the extent of them, 
but I am sure a lot of them know the extent of them. But let us 
assume there is a rape case in there of the 13. I mean this is 
kind of significant. You open 18; 13 of them are sexual 
assaults.
    I guess what I am trying to figure out, and you may have to 
answer this in writing if you don't have the answer, is that 
are there issues, are there things that the cruise industry 
should be doing to make those cases more likely to have 
positive prosecutions? That is what I am concerned about here, 
and that is why I was asking about the training, this DVD, and 
exactly how that plays into all of that.
    This is a very sensitive issue. I am not a woman as you can 
see, but I am concerned about that issue because I think if you 
tell me 13 of your 18 open cases are sexual assault, I would 
bet everything I have got that they were probably mostly women 
victims, if not all.
    I think maybe that is something that we need to really make 
sure is tight with regard to just not the reporting, we want 
prosecutions, and I think the industry wants prosecutions too. 
The last thing they want is somebody assaulting women on their 
ships.
    So, perhaps we can get you some written information. I 
understand that you have got open cases. Maybe you all can give 
us some information on things that have been closed.
    Mr. Hernandez. Sure.
    Mr. Cummings. But I don't want to interfere with anything 
that is ongoing. I just want to make sure that we are doing 
everything that we can to provide the FBI and other agencies 
because it may not even be the FBI--it may be other law 
enforcement agencies that may be involved--that they get 
everything that they need to be able to do what they have to 
do. That is all.
    Mr. Hernandez. I understand your concerns, Mr. Chairman. I 
will say that within this area, we view very seriously these 
kinds of assaults, and it is one of the reasons there are so 
many open cases. Of the 18, 13 are sexual assaults, and that is 
because we take that seriously and the prosecutors take it 
seriously. So there is no effort to walk away from that in any 
way, shape or form.
    The remaining five cases are of a serious nature, but I 
think are on par with those sexual assaults. And so, I just 
want to give you an assurance that we do take that very 
seriously, and we do want the cruise lines to do everything 
they can to provide the best evidence to us.
    Mr. Cummings. Do you know, with regard to crew members when 
it comes to these assaults, how many are alleged to have been 
committed by crew members?
    Mr. Hernandez. I don't have numbers. I know that some of 
them do involve crew members.
    Mr. Cummings. Do you have any knowledge with regard to how 
these crew members are vetted?
    Mr. Hernandez. I do not.
    Mr. Cummings. Very well.
    Anybody else?
    Ms. Matsui.
    Ms. Matsui. How many agents do you have, Mr. Hernandez, on 
cruise line cases?
    Mr. Hernandez. There is no number per se. They are agents 
that work within our violent crime program. So each field 
office has a certain number of violent crime program agents.
    When a case meets the qualifications, an agent is assigned. 
So it could be anywhere from a small number to a large number 
depending on the number of crimes alleged.
    Ms. Matsui. So the type of crimes that they are all 
involved in, are they similar types of crimes as far as in the 
unit that you are talking about that they are involved in?
    Mr. Hernandez. Well, they could be anything from a homicide 
to an assault with serious bodily injury to a sexual assault to 
a firing to an arson, whatever it might be.
    Ms. Matsui. Okay. I appreciate the Chairman's questions 
regarding sexual assault and the follow-up to it as far as 
preserving the crime evidence.
    As a woman, there have been so many instances--forget about 
the cruise industry--of sexual assaults. Women, because of the 
very nature of that, don't come forward at all, and it is very 
difficult for them. I think we are getting to the point now, I 
hope, that women are coming forward, difficult as it is.
    I think there is a protocol established, particularly here 
in this Country, and there is an expectation obviously with all 
these Americans going on cruise lines, that you would have the 
same type of protocol. I know that Laurie Dishman expected 
that, and it was not only that there was no protocol but the 
fact that the people who were actually in charge of a medical 
unit weren't even there.
    So I think, in a sense, I have to look at this and say a 
PowerPoint, a DVD to me is not enough. It might be if in fact, 
and I believe both of you when you say the cruise industry 
understands and really wants to make things right here. I think 
we have to go a step further with the cruise industry in a 
sense that we need to have onsite training. It might therefore 
be the cruise industry bringing in people.
    It is a very sensitive area. In the case of Ms. Dishman, 
she didn't have anybody at all. She had to collect her own 
evidence. She was lying there for I don't know how many hours, 
waiting.
    I just feel that a DVD isn't going to do it. There is going 
to have to be other training to actually make the people on the 
ship aware of what they need to do. I think once you do that, I 
think all the other aspects of it will fall into place much 
more easily. So that is my comment.
    I really do appreciate the Chairman and his questioning on 
that regard. I just hope that it is possible for you to work 
with the cruise industry, and maybe we might suggest to them 
that. I know your resources are limited, but in a sense if 
there is at least some onsite training where you have a lot of 
people together to train people, it would be great.
    Thank you.
    Mr. Cummings. As we move to the next panel, let me just say 
this to Ms. Matsui. I do know that for the cruise industry, I 
think it is Mr. Bald will be testifying, who is a former FBI 
agent, and he is now doing some security. He will tell you 
exactly what he does when he testifies.
    But I am just wondering if maybe the cruise industry would 
consider possibly, since you are already reaching to former FBI 
agents, perhaps find ways to incorporate that training in what 
you do. It seems like you have already got superstars on board. 
It seems like you would just use them along with the DVD. I 
hope they will take that into consideration.
    Thank you all very much. We really do appreciate your 
testimony. Thank you.
    We will now call Ken Carver who is President of the 
International Cruise Victims Organization, Ms. Sue DiPiero, Ms. 
Lynette Hudson, Ms. Angela Orlich and Mr. Harold Ruchelman.
    I am sorry. I didn't mean to leave you off. I was wondering 
why there was an empty chair over there.
    We are going to ask you to stay within the five minutes 
because we have another panel, and I know there will be a 
number of questions.
    Mr. Carver, thank you very much for being with us and thank 
you for your leadership.

   TESTIMONY OF KEN CARVER, PRESIDENT, INTERNATIONAL CRUISE 
   VICTIMS ORGANIZATION; SUE DIPIERO, LYNETTE HUDSON; ANGELA 
  ORLICH; HAROLD RUCHELMAN; WILLIAM M SULLIVAN, JR., PARTNER, 
                    WINSTON AND STRAWN, LLP

    Mr. Carver. Thank you for the opportunity to speak today.
    We have had a series of meetings, so it is difficult to 
cover it in five minutes, but we will go through it as quickly 
as we can.
    It was just three years ago today that I was looking for a 
daughter who was missing, one of my four daughters, and found 
out after months of investigation that she had been subject to 
a cover-up by a major cruise line concerning her disappearance.
    As a result of that, a group was founded called 
International Cruise Victims. This group now has members in 15 
countries, several hundred members and has, I guess you would 
say, brought this issue to the forefront.
    Through their individual experiences, victims soon realized 
acting on their own was ineffective. You had to do this as a 
group.
    In the March, 2006 hearing, not only did we testify but we 
presented a 10-point program. At the last congressional 
hearing, the Chairman asked for what I think was an historic 
meeting, that the victims group meet with the cruise lines to 
discuss these various issues.
    I would like to discuss very quickly four meetings that we 
have had since our last hearing. On May 7th, Son Michael Pham 
and myself met with Terry Dale to establish the guidelines for 
the meeting.
    On July 25th, we initiated a meeting with the FBI here in 
Washington, D.C. It was held with Salvador Hernandez, Deputy 
Assistant Director, and John Gillis who is the director of the 
Violent Crime Division. The purpose was to review the agreement 
that they entered in March, 2007.
    Both FBI representatives were unaware in that meeting that 
in 1999 the cruise line industry had entered into a policy of 
zero tolerance for crimes and were required or voluntarily 
indicated that they would report all crimes. This new agreement 
was only dealing with a form in which those crimes would be 
reported.
    Of most significance at that meeting was the fact that the 
FBI indicated they did not have the resources, which they have 
said today, to follow up on crimes on cruise ships unless it 
reached certain thresholds. This is why, in 2005, only 50 cases 
were opened and there were only 4 convictions of cruise ship 
crimes in a year in which they had approximately 10 million 
passengers.
    In the summer of 2006, knowing that they were working with 
CLIA, the Coast Guard and the FBI, three ICV officers came to 
Washington and met with the FBI and the Coast Guard separately 
to show them the plans that we developed, indicating that we 
wanted to be part of that. In fact, we were excluded from those 
discussions.
    On July 6th, 2007, I sent a request to the Coast Guard to 
enter into the same type of meeting we had with the FBI. They 
never acknowledge the letter until the morning of July 27th 
when it was too late to schedule the meeting.
    On July 26th, we had our first formalized and only meeting 
with CLIA. We actually had sent them 60 pages of documents on 
April 15th, and we didn't have our first meeting, I am sorry to 
say, until July 26th.
    Certain information which we provided to the cruise lines 
at that time, and I have heard the questions asked today was 
were there data individually and how did these crimes occur. 
Based upon court released documents from Royal Caribbean from 
the year 2003 to 2005, close to 80 percent of these crimes 
involved crew members. I believe that question was asked 
earlier, and it is in the documents that I provided to the 
Committee.
    Also the rate of sexual assaults was 50 percent greater on 
cruise ships than on the average American city. That is from 
the court documents covering several other cases.
    The cruise lines also took the position that they do not 
investigate crimes. That is their legal position. That 
information is in the material that I have given to you.
    Since the FBI has indicated they do not have the resources 
to follow up on many of these crimes, in effect, no one is 
looking or taking action on these crimes. I think that is a 
major problem.
    We just discussed the video surveillance, that the cruise 
ships like to say we have 300 cameras on a ship but, number 
one, they are not monitored. In the documents that I have 
submitted, we show a deposition that occurred in my daughter's 
case in which they indicated that was privileged information 
and not available to us.
    James Walker, who is on our committee, indicated that in 50 
cases he has never been able to get to the videos. Only in a 
couple of cases and one is sitting right next to me, Sue 
DiPiero, where they had her son going overboard, did they show 
that video, and I am aware of one other case. But they have 
evidence that nobody can get to.
    We approached this meeting with a positive attitude, and 
when it adjourned I honestly felt that both organizations had 
set the stage for future positive discussions.
    Here is what Terry Dale said in a letter to me: I believe 
it is fair to say that the cruise lines agree in concept with 
ICV but differ in how best to achieve the end results. We, 
therefore, look forward to continuing our discussions with ICV 
in an effort to reach our shared common goals.
    Mr. Chairman, you set an historic meeting in place, and we 
feel it is essential to continue these discussions between ICV 
and CLIA to understand what their alternatives are that they 
are proposing. We don't know that their alternatives are.
    Prior to the above meetings, on June 25th, they sent out a 
letter that was addressed to cruise passengers and their 
families. It was an expense paid trip to Miami to talk about 
issues regarding victims and how to address that.
    In early July, I started receiving, I guess you would, 
tremendous pressure to invite the members of ICV to that 
meeting. So I wrote CLIA, Terry Dale.
    Mr. Cummings. Mr. Carver, I am going to have to ask you to 
kind of summarize.
    Mr. Carver. Okay.
    Mr. Cummings. We have your testimony. I know we have read 
it. I have read it, and we will have some questions of you. But 
why don't you summarize by telling us where you and what you 
expect?
    Mr. Carver. Okay. Well, I will just say this. The August 
14th meeting, we were given no information. We went, and it 
targeted only ICV members and yet, they have hundreds of 
victims. We were disappointed that they would only select our 
members.
    So, in summary, I sit here today as President of 
International Cruise Victims. I have lost a daughter and for 
all the victims and their families. You and the Government and 
the U.S. Congress, I am sure would like to have families, 
parents, wives, husbands and children, and you would not like 
to encounter the tragedies we have encountered. We deserve to 
be protected.
    We thank you for your time. I will be happy to answer 
questions.
    Mr. Cummings. Thank you very much, Mr. Carver.
    Ms. DiPiero.
    Ms. DiPiero. Good afternoon. I would like to thank Chairman 
Cummings and the Committee for inviting me to testify today.
    I am Sue DiPiero. I am here with my husband, Ron. Our son 
was lost at sea from Royal Caribbean's Mariner of the Sea.
    Following the hearing last March, Ken Carver approached 
CLIA and proposed a meeting. It was set up by Ken to include an 
expert panel consisting of attorneys, Ross Klein, a few ICV 
board members and CLIA. No other victims were invited. The 
focus of this meeting was a 10 point plan.
    Meanwhile, Terry Dale, Gary Bald and Kimberly Edwards from 
the ICV discussed what Congressman Cummings' order meant. It 
was confirmed through his office that the cruise lines should 
meet with all victims and get our ideas.
    On June 25th, an invitation was sent out by CLIA for a 
meeting in Miami. This invitation was sent to Ken Carver, 
asking him to forward it to the members of the ICV. It was not 
forwarded until August 6th. Due to the short notice, some may 
not have been able to attend.
    Invitations were sent to other victims with whom the cruise 
lines had contact, and it was immediately forwarded to Ron and 
myself by Kimberly Edwards at Gary Bald's request.
    On August 14th, we joined 18 victims, representatives of 
CLIA, the Family Assistance Foundation, Royal Caribbean and 
Carnival cruise lines. Some victims told their stories and 
offered suggestions that would improve the safety on cruises 
and treatment of victims and their families. Ron and I each 
spoke and handed out a list of our ideas.
    The ICV had time to speak. Ken gave a presentation of the 
10-point plan. Letters were read, one from an ICV member who 
could not attend and one from the ICV board asking that CLIA 
deal only with the ICV board in the future. I spoke with Terry 
Dale and was assured that all victims would be included in 
future correspondence and meetings.
    Gary Bald and Travis Winslow discussed technology and 
safety features that they were researching. They also discussed 
improved security training. Terry Dale concluded the meeting by 
saying that he felt that the day's discussion was helpful and 
suggested continued conversations with victims in the future.
    He also suggested working groups be formed. Terry Dale has 
begun organizing working groups. He asked the victims that 
attended the meeting if they would like to be included. As of 
yet, we are not sure what being part of this group means.
    No promises or proposals were made in Miami by CLIA or the 
cruise lines as far as safety is concerned. It is in my nature 
to believe that people will do the best thing, but there are no 
signs that the industry will do their best to protect their 
passengers. The working group should be a channel for sharing 
ideas and brainstorming, but unless the idea results of the 
working groups become the goals of action groups that 
implement, they are nothing more than an illusion by the 
industry to appear to be making change.
    The subject of expense comes up when discussing safety. The 
goal of every business is to show the maximum profit. The 
decision to make change is in the hands of the people who 
control the purse strings. Unless it becomes more profitable to 
make ships safe than to settle lawsuits, all of the necessary 
changes will not come at the hands of the industry.
    I believe we should support bill H.R. 2989. This would 
change the Death on the High Seas Act to allow non-pecuniary 
and punitive damages to families of a person who has died at 
sea while aboard a ship. Congress has deemed the DOHSA limits 
unfair in the context of aviation cases and removed the 
limitation of damages that previously applied.
    It makes no sense to limit damages to surviving families in 
a wrongful death when the death happens to be at the high seas 
on a ship. Why is there different treatment for survivors of 
maritime accidents and survivors of a plane crash?
    In the cases of my family, George Smith's, Annette 
Mizener's and Merrian Carver's families and others involved in 
death at the high seas, the cruise lines used DOHSA to limit 
their responsibility. This thwarts the goal of our tort system 
which is full compensation to survivors. If full compensation 
is allowed, the cruise lines will improve safety in order to 
prevent liability. Currently, DOHSA does not permit punitive 
damages, and the cruise lines get away with murder.
    I believe our Government needs to create legislation to set 
standards, create laws and monitor accidents and crime 
statistics. Fines and consequences need to be substantial so 
that it is more profitable to follow the law.
    I believe legislation needs to be updated as technology 
changes. As technology is developed, the cruise industry will 
incorporate all features that will entice people to take a 
cruise and increase their profits. Safety standards and 
legislation need to be updated as well to meet the changing 
situations.
    Care teams, infrared imaging and improved reporting are 
great. However, these things are used for after a rape happens, 
a person dies from smoke inhalation or a young man goes 
overboard. Our goal should be to prevent these accidents and 
crimes from ever happening.
    I believe cruise lines should be regulated like a business 
in the United States. U.S. businesses are required to update 
products for the safety of consumers. There are regulations on 
all consumer goods and activities in the U.S. Government 
agencies enforce these regulations. The cruise industry should 
be regulated in the same manner as any U.S. business as they 
are doing business from our ports and transporting our 
citizens.
    In closing, I would like to say in order to achieve change, 
all victims, CLIA, the industry and our Government must work 
together. Change cannot be hindered by efforts of individuals 
with an agenda to punish cruise lines to get even. Efforts by 
the cruise lines must not mean changes are minimal and at 
minimal cost to only appear to be improving their way of doing 
business.
    There must be legislation to assure that all U.S. citizens 
and those leaving from a U.S. port come back safe and sound. 
Legislation cannot be defined in a single 10-point plan but 
must set forth a flexible plan that allows for continuous 
improvement.
    Thank you very much.
    Mr. Cummings. Thank you very much.
    Ms. Hudson.
    Ms. Hudson. Good morning, Mr. Chairman and Members of the 
Subcommittee. I would like to thank Chairman Cummings and the 
Committee for inviting me to testify today concerning cruise 
ship security practices and procedures.
    I would also like to personally thank my Congressman, Mike 
Castle, for his continued support of legislation to protect 
Americans on cruise ships.
    My name is Lynnette Hudson, and I am the daughter of 
Richard Liffridge. My father died after a fire erupted on the 
Star Princess on March 23rd, 2006.
    I would like to take this opportunity to acknowledge my 
family who is present here today as well as the other members 
and victims of the ICV who have come to support us.
    I have submitted my written statement which outlines 
recommendations to ensure this type of tragedy does not happen 
to another family. I just want to take a few minutes to point 
out major points regarding some defects in security and safety 
practices onboard cruise ships.
    During the early hours on March 23rd, 2006, a fire erupted 
on the balcony of a stateroom on the 11th deck. The cause of 
the fire was determined to be a smoldering cigarette that was 
improperly discarded. The cigarette landed on a towel or 
clothing that was left on the balcony furniture. The furniture 
and the balcony partitions were made of highly combustible 
polycarbonate materials.
    Let me just describe a few of the shortcomings that I 
believe contributed to the death of my father. First of all, 
there were no fire detection or fire suppression systems on the 
balconies. The ship's emergency number which is manned 24 hours 
per day was not manned after the crew alert signal was sounded. 
This left the 911 call center vacant during subsequent 
emergency calls.
    The self-closing alleyway doors were propped open with a 
wooden wedge which allowed the toxic smoke to reach internal 
alleyways.
    One of the six members of the engine fire party was unable 
to dress because his suit was too small.
    No member of the engine fire party or any other party 
carried the thermal imaging camera because it was considered to 
be too heavy and cumbersome. This camera would have provided 
necessary visibility.
    It is clear that changes need to be made in the area of 
fire safety training, emergency response and in the protocol of 
handling emergency situations. Smoking is still a big issue on 
cruise ships. Although some lines have banned smoking in 
certain areas of the ships, the probability of another fire 
occurring is extremely high.
    During the last Subcommittee hearing in March, 2007, 
Chairman Cummings, you recommended that the cruise industry 
work with the victims to develop solutions to the current 
problems. On July 26th, 2007, I attended a meeting with CLIA 
along with the ICV President, Ken Carver, and others 
representing victims. As a board member of the ICV, I felt that 
the process to bring CLIA to the table for discussions took too 
long.
    Many suggestions were made at that meeting regarding how 
the cruise industry could improve in areas of safety. There has 
been no follow-up meeting or any acknowledgment that CLIA acted 
on any of the suggestions that were offered.
    CLIA held a meeting this past August where they flew 
certain victims to Miami. They told these victims that they 
could not bring their legal representatives nor were the media 
welcome.
    At the end of the meeting, CLIA wanted to form an advisory 
committee for the purpose of providing possible solutions to 
the industry's safety and security problems. CLIA had the sole 
discretion of picking the members themselves. It is unclear to 
me why CLIA would want to form a separate committee instead of 
working with the ICV, an organization that consists of over 200 
members and friends.
    I am concerned that there has not been true progress since 
the meeting last March. If the industry has committed to 
changes, they have not shared them with the ICV.
    In my situation, not only were the circumstances 
surrounding my father's death difficult to accept, the 
mishandling of the fire emergency and aftermath compounded the 
situation. Despite being listed as my father's emergency 
contact person, no one from Princess Cruise Line contacted me. 
Not one person from Princess Cruise Lines or from the cruise 
industry told us what happened to my father. I, in fact, had to 
read about it in this 52-page marine accident report.
    Let me just take a minute to tell you a few things about my 
father. Not only was he a devoted husband, father, grandfather 
and great-grandfather, he was also my friend. After 20 years of 
honorable military service, he retired from the Air Force. He 
proudly served this Country in the Vietnam and Korean Wars. He 
was also a Mason. One of the things he enjoyed most was 
traveling and spending time with his family and friends.
    In closing, I am hoping that we as victims can work 
together with CLIA to make cruising safer for passengers.
    I often struggle with wondering what my father felt those 
last few minutes of his life. I find peace in knowing that he 
thought about his children and the people he loved the most.
    I also struggle with the fact that knowing the moment I 
woke up that morning, he was already gone and no one from 
Princess Cruise Line bothered to call me. It took nine hours--
nine hours--after the fire before I received a call, and it 
still wasn't from Princess Cruise Line.
    Thank you for conducting this important meeting and 
listening to our concerns and comments. Thank you.
    Mr. Cummings. Thank you. I really appreciate it. Thank you.
    Ms. Orlich.
    Ms. Orlich. My name is Angela Orlich, and I am from 
Springfield, Massachusetts. Thank you for providing me the 
opportunity to tell the ordeal that I encountered during a 
Royal Caribbean cruise with several of my friends. Our group 
consisted of approximately 40 individuals from a local hospital 
where I worked.
    During the cruise, I purchased a shore excursion which was 
promoted and sold to me while on the Royal Caribbean cruise 
ship. This excursion was to a resort in Cozumel, Mexico, which 
included scuba diving. The excursion in question was part of 
Royal Caribbean's shore excursions promotion called 
Explorations which is one of the attachments.
    The cruise ship I sailed on, Nordic Empress, offered many 
different types of excursions, all of which sounded like great 
fun. I decided to purchase an excursion which was described by 
Royal Caribbean as parasailing, banana boat, snorkeling and 
diving tours. I signed up for the excursion, completed the 
Explorations shore excursion information and order form bearing 
the Royal Caribbean International Get Out There official logo 
and paid my $28. Little did I know that it would result in a 
horrifying experience.
    I had previously taken scuba lessons at home but had not 
been certified. I am claustrophobic and the Atlantic Waters 
were too murky for me to get certified. I thought it would be a 
good idea to take additional lessons in the clear waters of 
Cozumel.
    The dive instructor told me that he was a PADI master 
diver. I asked for a wetsuit, but the dive instructor told me 
it was not necessary. I also asked not to go out very deep, but 
I was nervous.
    During the dive, the instructor took me to a depth of 
approximately 60 feet. I did not want to go that deep, but it 
was too late. I was already on the boat. We stayed underwater 
longer than I wanted, and I became tired.
    While still underwater, the dive instructor began to rub 
his hands over my body and molested me. He grabbed my buttocks 
and ran his hands up and down my legs. I shook my head no and 
began to panic, but I tried to maintain my composure.
    I motioned to return to the surface. I grabbed the rope to 
get back up to the boat, trying to get away from him, but he 
grabbed and began to pull me back down. I tried to fight him 
off, but he continued to molest me.
    Then he turned off the air in my tank. He pulled my top 
down and bit my breast. I was terrified. At this point, we were 
about 30 feet underwater. I was afraid that I would die, that 
my body would never be found and that no one would ever know 
what happened to me.
    Finally, I managed to get back to the surface and return to 
my group. I was so frightened that my friends thought a shark 
had attacked me while I was running towards them. I was 
horrified, shaking and crying. My friends were also very upset 
and tried to find a police officer, but in Cozumel, Mexico, 
there are none to be found.
    When I returned to the Royal Caribbean ship, I reported 
what had happened to me. I could not believe that something 
like this could happen to me during a cruise. I didn't know 
what to do.
    I reported the assault to the cruise employee, Jessica, who 
had coordinated passenger activities. I made a report to the 
ship security officer, and I went down to the ship's doctor. 
The ship doctor refused to examine or treat me. He was totally 
dismissive and told me to see a doctor when I returned home 
tomorrow to Massachusetts.
    When the cruise ship returned to Miami, there were no FBI 
agents waiting to interview me or any other agents. The cruise 
line offered no assistance whatsoever.
    My life changed on the day that I was attacked. I could not 
sleep. I was traumatized and forced to seek treatment from a 
doctor and help from a counselor.
    It was clear to me that the instructor needed to be 
arrested and sent to jail and only then could other women be 
protected. I did not want anyone else to experience anything 
like this. I took it upon myself to report what happened to the 
U.S. Consulate's Office in Mexico and Anne Harris.
    The excursion company told me that the diving instructor 
would be fired. However, I wanted him to be criminally 
prosecuted. Six months after the cruise, in an attempt to have 
the dive instructor prosecuted, I returned to Mexico, made a 
formal declaration against him, but the criminal prosecution 
has gone nowhere. This has been a very frustrating and 
fruitless experience so far, and it has also been expensive.
    The cruise line response? Not only did Royal Caribbean 
refuse to help me, it refused to reimburse me the $28 which I 
had spent for the excursion.
    But what did I receive instead? A form letter from the 
President of Royal Caribbean thanking me for giving them an 
opportunity to send you home with an experience to remember. 
The President also enclosed a $50 coupon because you can expect 
just as many memorable experiences on your next cruise 
vacation, which is another exhibit.
    In February, 2006, I sought advice on what I could do from 
a maritime lawyer. The purpose was not to file a lawsuit but to 
obtain information and to prevent this from happening to 
others. He sent a letter to the President of the cruise line 
and its risk management department, asking for basic 
information about the assault on me, also an attachment. There 
was no response from Royal Caribbean.
    I would actually, in closing, like to say how many other 
victims like me have not survived their attacks at the hands of 
the same individual as well as other dive or snorkeling 
instructors. Who will be his next victim? Is this individual 
still employed as a scuba instructor?
    I would like the cruise lines to investigate the excursions 
they sell. Go to the excursion location to make certain that 
the activity is safe. Make certain that you can send your 
family to this site. Warn you in advance that you are really on 
your own the second you leave the cruise ship even on an 
excursion the cruise line promotes and profits from it.
    Maintain a database of sexual predators both on their 
cruise ships and the excursions they promote. Respond to 
passenger complaints in a timely and meaningful manner. Notify 
the FBI and the U.S. Consulate immediately.
    Provide a trained female crisis counselor aboard the ship 
so that the female victims have other female to turn to. It was 
very difficult to talk to a security officer as a male and I am 
a female and not a female in there.
    Mr. Cummings. Believe me, we are very sensitive to that 
issue.
    Ms. Orlich. Yes.
    Mr. Cummings. I am going to have to ask you to wrap up 
because we have got some votes and time has run out anyway.
    Ms. Orlich. Fine.
    Mr. Cummings. But I want to hear from Mr. Ruchelman and Mr. 
Sullivan, and then we are going to have to take a break. I 
would just ask you to move through it as fast as you can. I am 
sorry.
    Mr. Ruchelman. Good afternoon, Mr. Chairman, Ranking Member 
and Members of the Subcommittee. Thank you for inviting me to 
testify before you today.
    My name is Harold Ruchelman, and I understand that I am 
here to help you determine how the cruise line industry should 
deal with tragic events. My story is an example of how they 
should handle such situations.
    My story is about what Celebrity Cruises did for me in 
March of 2006. It was Thursday, March 22nd. We docked in Arica, 
Chile. One of our friends had made arrangements for a tour, a 
tour that was not sponsored by Celebrity. It was an enjoyable 
one, and we were on our way back to the ship when the accident 
occurred, an accident that changed my life forever.
    Our driver lost control of the van, and we toppled down the 
steep slope of the mountain. The next thing I remember was 
coming to on the side of the mountain with a broken right leg. 
My friends' bodies were strewn about the mountain with the 
remnants of the van near the bottom of the slope.
    I could not see where my wife was. The guide, the only one 
who was mobile, told me that most of the people perished 
including all the women. That meant I had lost my wife.
    Here I was in the middle of nowhere. How do I get in touch 
with anyone? What do I do now? I felt cut off from my world and 
totally helpless. All I could do was wait and see.
    It took about an hour and a half before any help arrived. 
No one spoke English, and I didn't speak Spanish. It was so bad 
that when people asked me how I felt, I thought they were 
asking for my name.
    I was taken by ambulance to a hospital in Arica. My clothes 
were cut off in the emergency room when I was taken for x-rays 
to determine my condition.
    Coming back from that procedure, I got my first taste of 
the care that Celebrity Cruises would be giving me. One of the 
doctors and one of the nurses from the Millennium, the ship we 
were cruising on, were there at the hospital.
    When I was in the ICU, the doctor asked me if there was 
anything I need on the ship. I suffer from sleep apnea and use 
a CPAP machine which was in the cabin on the ship. I asked if 
he could get it as I doubted that the hospital in Arica had 
one.
    He also told me that the doctors there said my x-rays 
indicated I may have a problem with my aorta. I was taken for a 
CAT scan. When the doctor came back with my CPAP machine, he 
conferred with the doctors and told me that my CAT scan proved 
negative.
    I was concerned about the cost of everything and how I was 
going to pay for it. Seeing my anxiety over this issue, the 
doctor, after taking it upon himself to look into this matter, 
told me that Celebrity would pick up all the costs associated 
with the accident. I was astounded as this excursion was not 
sponsored by them.
    I was then moved to a ward which I shared with the guide 
and the other surviving member of our group. Being in a 
hospital in a small town in a third world country was 
unsettling to say the least. Air conditioning was opening a 
window which let the flies in. The food left much to be desired 
even for hospital food.
    But the worst was the language barrier. My leg, now in a 
full cast, kept me bedridden. If I needed anything, how could I 
let them know?
    Two American volunteers from a nearby university came to 
help. They remained until Celebrity Cruises brought two people 
from the States to remain with us, myself and the other 
survivor for the duration of our stay in the hospital. They 
stayed with us day and night just in case we needed anything.
    These two wonderful people were my connection to the rest 
of my world. The attention they provided was both comforting 
and greatly appreciated. They treated me as if I was family. 
When I stirred during the night, they jumped to see if I needed 
anything. I will never forget them.
    They were only one facet of the help and concern offered by 
Celebrity. A member of their strike force came to see what he 
could do for us. He was constantly on the phone, trying to make 
all sorts of arrangements. Seeing what gyrations he was going 
though gave me a secure feeling, a feeling that I was not alone 
in Arica. There were people who were extremely concerned with 
my situation.
    Celebrity flew in a rabbi from Florida. Being of the Jewish 
religion, we avoid autopsies if at all possible. However, when 
one is required by law, certain procedures must be followed. 
This rabbi was there to make sure that religious protocols were 
followed in our wives' autopsies as well as meeting our 
spiritual needs.
    They thought of things that I was in no condition to think 
of. They even flew in a counselor to talk to me.
    Many people came in to see us. A rabbi from Santiago, an 
individual from Israel, officials from the U.S. Embassy, 
officials from Chile, but the ones that stood out as trying to 
do the most for us were the people from Celebrity Cruises. They 
were obviously making a concerted effort to meet our every need 
and bring the situation to a satisfactory conclusion.
    They made arrangements for my children to fly down to 
Chile. You can imagine how welcome that news was since I 
thought I would be in that hospital for some time. Later that 
day, I was told we would be flying home Friday afternoon. I 
asked if my children knew of the change in plans and was told 
they had been informed.
    Another problem was solved, how could I get in touch with 
my kids and let them know I was okay. I was elated when the 
person making all the arrangements handed me his cell phone 
with my son-in-law at the other end of the line.
    Mr. Cummings. Mr. Ruchelman, I am going to have to ask you 
to wrap up because we have got to get to Mr. Sullivan and we 
only have about six and a half minutes.
    Mr. Ruchelman. Okay.
    Soon I was whisked off to a waiting ambulance and taken to 
a local airport together with other survivors and put on a 
chartered plane. I cannot believe what was done for us, that 
Celebrity chartered the plane just for the two of us and the 
remains of our wives.
    On board were the doctor, the nurse and two guardian 
angels, the counselor and the rabbi. They, along with the 
flight crew, were constantly checking up on us. The doctor, in 
order to monitor us, sat facing us the entire trip. The doctor 
accompanied us all the way to Newark, New Jersey.
    The plane landed at Newark, taxied to a private hanger 
where our children came on board. The doctor checked me out one 
last time to ensure I was well enough to go home, and I was 
then put in an ambulance that took me to my daughter's house.
    I cannot begin to express the feeling I had then or have 
now at the consideration, concern and efforts the Celebrity 
Cruise organization extended to me and to think that this all 
began with an excursion that they had not sponsored. Yet, they 
still chose to do something, and they did an astonishing job. 
They more than extended themselves in helping me get through my 
ordeal. I do not know what I would have done without them.
    Mr. Cummings. Mr. Ruchelman, I have been very kind. I have 
got to get to Mr. Sullivan.
    Why don't we let you? You go ahead and finish. Mr. 
Sullivan, we will get you on the way back. Please wrap up.
    Mr. Ruchelman. I will be eternally grateful for their 
humanity, compassion and thoughtfulness. I don't know if my 
case is an aberration, but Celebrity has set a standard that 
the rest of the industry should emulate.
    Thank you again, Mr. Chairman, for the opportunity to be 
here today.
    Mr. Cummings. Thank you very much.
    We have four votes. We should be back in a little bit over 
a half an hour.
    [Recess.]
    Mr. Cummings. Mr. Sullivan.
    Mr. Sullivan. Good afternoon, Chairman Cummings, Ranking 
Member Mr. LaTourette and Subcommittee Members and staff.
    I, in fact, am the mystery guest earlier referred to by 
Congressman Mica. I am a former Federal prosecutor, and I spent 
over 10 years pursuing any and all manner of Federal crime as 
an Assistant U.S. Attorney in the District of Columbia. Now, 
ironically, I represent corporations.
    I know how and when and why things go wrong in 
corporations, and I understand how to correct them. I am sorry 
to report that based on what I have seen Royal Caribbean does 
not.
    Today, I represent a young college woman who was horribly 
and brutally raped while asleep behind a locked stateroom door 
while on a Royal Caribbean cruise.
    Contrary to Congressman Mica's suggestion, there is no 
pending litigation right now between my client and Royal 
Caribbean. I am here at her request to pursue the legislative 
process.
    Chairman Cummings was also correct when he represented that 
my appearance was also requested by other Members of Congress, 
and he very graciously extended me an invitation to appear here 
today. I am grateful and so is my client.
    You have heard a lot of reassurances from Royal Caribbean 
and will hear more today. The story I am here to tell you 
occurred just three weeks prior to the testimony that you heard 
from Royal Caribbean in March of 2007. The company chose not to 
tell you about it because it is in stark contrast to the 
portrait Royal Caribbean publicly paints. In fact, this story 
is the classic case of how a company should not behave.
    I would like to draw your attention as some backdrop to the 
written testimony of Mr. Bald who said that where situations 
occur, their goal is to effectively respond, to restore safety 
and security, to treat and care for guests, to identify those 
responsible, to preserve evidence and to facilitate and support 
the investigation of the incident.
    Nothing of the kind happened. While those are laudable 
goals, there was no evidence of that practice when it came to 
my client in March of 2007, three weeks before the testimony 
you heard. I implore you to question Mr. Bald closely today 
about what happened to my client.
    In March, Laurie Dishman testified about being raped by a 
Royal Caribbean employee and then victimized by a company that 
managed its own risk instead of caring for her. She warned 
there would be another Laurie Dishman.
    I represent the next Laurie Dishman. To respect my client's 
desire for anonymity and because of her youthfulness, I will 
refer to her as Jane Doe throughout my testimony. She was raped 
two weeks before the March hearing and, like Ms. Dishman, she 
was raped by a crew member. I would like to tell you just a 
part of her story which is significantly at odds with the 
portrait Royal Caribbean painted for you in March and ask that 
you refer to my written statement for more detail.
    In March, Jane boarded a Royal Caribbean ship with several 
of her college age female friends to experience a fun and 
relaxing spring break. Midway through the cruise, the cabin 
steward who was assigned to Jane's quarters used his Royal 
Caribbean-issued pass key after hours to enter a cabin and rape 
Jane while she slept.
    The crew member who did this was a predator. He knew Jane 
and her friend were fast asleep when he let himself into the 
room. Without waking Jane or her friend, the crew member 
removed Jane's shorts and bikini bottom and forcibly raped her. 
She awoke as a result of the rape and was able to struggle 
free.
    Jane's friend reported the crime immediately by dialing 911 
on the ship's phone. All she met with by the Royal Caribbean 
operator on the other end of the line was a laugh. The report 
wasn't taken seriously when that first call was placed.
    Jane was next taken to the ship's infirmary where she 
expected to receive the urgent medical care, forensic treatment 
and even a bit of compassion that she so desperately needed at 
that time. Instead, she encountered a medical staff whose 
actions served only Royal Caribbean's risk management 
interests.
    The medical staff did not examine Jane, did not ask her if 
there were any alcohol or prescription medications in her 
system, did not perform a rape kit examination, did not give 
Jane the anti-retrovirals and other medications that are 
critical to preventing HIV and other sexually transmitted 
diseases after a rape.
    The only thing Royal Caribbean's medical staff did was to 
immediately inject her, without her consent or any discussion 
whatsoever, with a powerful drug, a drug called Lorazepam, a 
potent sedative and an amnesic drug, one that induces 
forgetfulness. Lorazepam is also known to dangerously interact 
with other medications and alcohol, but the nurse never 
inquired.
    Further, the nurse gave the injection, knowing that Royal 
Caribbean's doctor would soon compel Jane to make a written 
statement about the rape and that Jane would be interviewed by 
local law enforcement. Obviously, she would not have been in 
any condition to forcefully describe the trauma and the facts 
of the rape that she suffered half an hour or so before when 
she was sedated.
    Shortly after the injection took effect, the doctor ordered 
Jane to complete and sign a Royal Caribbean statement form 
without informing Jane that the information she provided would 
be turned directly over to Royal Caribbean's risk management 
personnel and lawyers.
    After obtaining the statement, the doctor abandoned Jane in 
a sedated state on an infirmary cot for almost six hours when 
she was in need of emergency medical care. The inexcusable 
delay placed her outside the recommended timeframe for 
receiving anti-retrovirals and allowing evidence of the rape to 
deteriorate within and outside of her body. Further, the doctor 
initially refused the request of Jane and her traveling 
companions to call their parents for help and guidance.
    Contrary to the company's testimony in March, Royal 
Caribbean did not assign the most senior female officer to 
serve as Jane's advocate. Indeed, she had no advocate. The 
shipboard personnel were scrambling to protect Royal 
Caribbean's liability interests from the consequences of her 
action.
    After six hours, while Jane was left in repose to herself 
on a company cot, her friends were allowed to leave the ship, 
and she was abandoned at the foreign port of call to the local 
authorities. Ship members did nothing to ensure that she was 
taken to the best possible hospital. She was taken to a 
developing nation's public hospital where in fact she received 
only half the standard dosage of the anti-retrovirals she 
desperately needed.
    After Jane left the ship, Royal Caribbean continued its 
risk management tactics. Witnesses have reported that Royal 
Caribbean failed to promptly secure the crime scene such that 
unauthorized individuals had easy access to it and, in fact, 
entered it.
    Mr. Cummings. Mr. Sullivan, I am going to have to ask you 
to wrap up.
    Mr. Sullivan. Despite the fact that Jane's rapist was 
apprehended by local authorities and will stand trial, Royal 
Caribbean to this day refuses to turn over evidence it retains 
that is needed to bring Jane's rapist to justice. We also have 
been without and have requested many times the rapist's medical 
records, so we can make determinations as to whether or not my 
client is at risk for HIV or STDs.
    I want to jump to the recommendations that I think are 
important and, of course, most of them are outlined. All of 
them are outlined in my written testimony, but again I want to 
offer a backdrop. In terms of Mr. Bald's written testimony, in 
terms of the enhanced safety and security requirements, he has, 
what I think, offered nothing more but amorphous and ambiguous 
happy talk phraseology.
    He talks about instituting a deterrent presence without 
describing it, revising of several key processes and exchange 
of information, continuing discussions, quarterly reviews of 
shipboard incidents, formal after-action processes, development 
of incident metrics, whatever those might be. The amended 
policy on incident responses in place and SeaPass program is 
happily now in the request for proposal phase.
    My recommendations are concrete.
    Chairman Cummings, I think the key to this case is that 
there was no pass key technology whereby a crew member was 
allowed to enter a stateroom after hours without the knowledge 
or consent of the victim inside. I call for a pass key 
technology, a very simple technology. Make them inoperative 
after the duty shift of the particular employee or simply have 
them turned in.
    I have also requested for the installation and monitoring 
of security cameras in the hallways of these ships just like 
what is done in hotels. There would be evidence of individuals 
entering the room, in this case, unauthorized entry.
    Thank you very much for your time.
    Mr. Cummings. We will probably get to some of yours. Did 
you finish your suggestions, your recommendations? We will be 
able to get to them in the questions.
    Mr. Sullivan. Those are the two primary recommendations 
and, of course, I have a few in my written testimony.
    Mr. Cummings. Thank you. I am just trying to keep it all 
even-steven here.
    Mr. Carver, do you support or oppose the establishment by 
CLIA of a working group comprised of victims and the families 
of victims of crimes and incidents on cruise lines to advise 
CLIA on the adoption of safety and security improvements?
    Mr. Carver. Let me answer the question this way. Here is 
what I am against.
    Mr. Cummings. As briefly as you can.
    Mr. Carver. Yes. CLIA targeted only ICV members. If you 
read their invitation, no one would know that that was the 
target of their invitation. I, in fact, wrote them a letter and 
said, who has been invited to this meeting, because you surely 
can't tell from that.
    There are hundreds of victims and which ones are chosen to 
come to the meeting, a select group of victims? What was the 
program? I could get no answer to that, to those two simple 
questions.
    I think CLIA, to be honest and sincere, needs to go to the 
thousands of victims that they have to solicit information and 
not just target ICV.
    Now why did they target just ICV? Because we are organized. 
We are an organized group of victims. The rest of their 
victims, and there are hundreds of them, are not organized. So 
they are no problem to the cruise line.
    Here is a list of hundreds of victims that they could have 
solicited for their advice. They ignored them.
    So I say this. If they are interested in setting up a 
group, then they need to be balanced and go after all of their 
victims and not just a select group of ICV members.
    Mr. Cummings. What do you think should be the next step?
    I had asked you all to get together. Certainly, there were 
efforts to pull it together. I understand you had a meeting and 
you described all of that. I guess I am trying to figure out do 
you see a way forward.
    Mr. Carver. Yes, I do because we had a meeting on July 
26th. We went through the 10 points, and there seemed to be 
agreement on a lot of the 10 points, but Terry Dale came back 
and said, well, we would like to do it another way.
    So I think we need to have another meeting required by the 
Chairman to look at what are they proposing. All we know is 
what we proposed. They have come back and said, well, we have 
got other ways to do it although we agree in principle.
    I think the one concern that I have is that they want to do 
these things on a voluntary basis. That deeply concerns us, but 
I think we need a second meeting for them to respond to what 
their exact proposals are.
    Mr. Cummings. One of the things, Mr. Carver and to all of 
you, is just trying to get the parties to come together to try 
to bring some resolution, like you said, voluntarily, but I 
don't want to waste our time and don't want to waste yours.
    Mr. Carver. Sure.
    Mr. Cummings. We have one life to live. This is no dress 
rehearsal. This is it. This is the life.
    Mr. Carver. You are right.
    Mr. Cummings. What I am trying to get to is that I am 
trying to create a win-win situation.
    Mr. Carver. Absolutely.
    Mr. Cummings. If you still have confidence--it sounds like 
you do,--that there is something that you can go forward to try 
to do and accomplish, we will see what the industry says in a 
few minutes. I am just curious.
    Mr. Carver. Yes, I think we need that second meeting to get 
their feedback, so we know whether we can agree with it or 
disagree with it, and that seems to be a reasonable approach.
    Mr. Cummings. Let me ask you, Mr. Sullivan. I want to thank 
you for your testimony.
    One of the things that I am concerned about, I think you 
were here earlier when we were talking to the FBI, and we 
talked about evidence. One of the things I am going to ask the 
industry to do is to make sure that they have already reached 
out to the FBI--as you know, Mr. Bald, used to be with the 
FBI--and to try to create this CLIA protocol with regard to 
these sexual assaults and other crimes, by the way.
    But it is just so interesting that out of the 18 open 
cases, that 13 of them are sexual assaults. That seems to be 
kind of glaring, making sure that we preserve evidence and 
hopefully address some of the issues.
    I understand what you said about the pass key, but do you 
have any comments with regard to the preservation of evidence? 
You are a lawyer.
    Mr. Sullivan. Absolutely.
    Mr. Cummings. And I ask you to be brief.
    Mr. Sullivan. Thank you. I did prosecute crime, so I know a 
little bit about the collection and preservation of evidence.
    What the experience I have testified to you about tells me 
is that contrary to what we have heard from representatives of 
the FBI and the Coast Guard this morning, it doesn't seem to me 
that Royal Caribbean is interested in prosecuting criminals, 
predators, people who prey on American citizens or any other 
individual on shipboard cruises.
    Why? Because that exposes them to liability, and that is 
not something that they are interested in.
    There were many reports. We have seen reports from 1999, 
commissioned reports by consultants, that the cruise industry 
in particular has asked: How do we enhance our security 
processes?
    Video camera surveillance, the pass key that I referenced a 
few minutes ago is easy; the installation of peepholes; a 
victim/witness advocate; having the rape kit onboard actually 
used.
    The rape kit was not even attempted for my client who sat 
there under sedation for six hours. As I think about that, what 
possible purpose could be served by sedating my client without 
her consent, knowing that she is about to give statements to 
law enforcement as well as statements to Royal Caribbean 
personnel under that condition?
    You are a lawyer. I am a lawyer. Everyone knows that for 
purposes of providing information or testimony, one of the 
first questions asked is are you under any medication, is there 
anything in your body which might influence your ability to 
relate what you perceived as to an event that happened to you.
    Royal Caribbean did this intentionally because they wanted 
to undermine the potential for pursuing this case because that 
might lead to exposure, and I frankly represent that it is 
probably more cost effective for them to attempt to handle a 
case by case situation as opposed to installing the broader 
range of preventive measures although I don't think that is the 
case.
    There is testimony before you or evidence before you that 
installing peepholes per door is only $11.00. It is very easy 
to have personnel trained in the collection and preservation of 
evidence. It is very easy to have video surveillance. It is 
very easy to have a victim/witness advocate, and it is 
extremely to make those pass keys inoperative after the duty 
shift of the crew member is over.
    The cruise lines have been on notice of these problems for 
years. Those commission reports were in 1999. We are in 2007.
    Royal Caribbean knew about the fate of my client in March, 
2007. Three weeks prior to that, she was victimized.
    So my recommendation at this point, respectfully, is that 
it is long gone for purposes of the two sides reaching an 
accommodation on their own. It is time for legislation. It is 
time for Congress to step in and mandate that specific security 
procedures be installed onboard these cruise lines to protect 
American citizens primarily but to protect anyone else who buys 
a ticket where they are implored to go and enjoy themselves 
under a safe and fun environment when in fact there is nothing 
of the kind that is available for them. They go on these 
cruises at their own risk.
    I submit that the cruise industry could take these 
preventive measures, Chairman Cummings, with a minimum of 
expenditure in light of the profits they obtain on a yearly 
basis.
    Mr. Cummings. Let me ask Ms. Hudson and Ms. DiPiero, Ms. 
Orlich and Mr. Ruchelman. Can you each of please state which of 
the meetings held between the victims and families of victims 
and the cruise lines you attended, if any? Please give the 
Subcommittee your sense of these meetings and then comment on 
what you believe needs to be done next in terms of ongoing 
discussions between the victims and cruise lines to improve 
safety and security on cruise ships.
    We will go with you, Ms. Hudson. You are first.
    Ms. Hudson. Okay. Thank you.
    Mr. Cummings. I ask you all to be brief. I just want to get 
a feel.
    Ms. Hudson. Okay. I attended the July 26th, 2007 meeting 
that was held here in Washington, D.C. along with a few other 
members of the ICV and a couple of members and friends to the 
ICV. It was five hours long. We went five hours straight. There 
were a lot of great recommendations that came out of that 
meeting.
    Terry Dale, they did take notes. There was an attorney, 
Phil, who recommended the cruise industry possibly using an 
outside vendor to take a look at the security setup and 
practices. So I thought there were a lot of good suggestions 
that came out of it.
    My problem and concern is that was the end of it. We never 
heard anything like, well, this is what we did. This is what we 
are going to do.
    So that is the only meeting I attended. I did not go to the 
August meeting because I didn't get an invitation to the August 
meeting, not like the other two, but that was one meeting.
    I thought it was helpful. They listened to our 10-point 
plan. They did give their recommendations, but I thought we 
were trying to move forward, but unfortunately I don't know 
what came of that. It kind of went by the wayside.
    Mr. Cummings. In other words, you are saying you felt good 
about that meeting.
    Ms. Hudson. I felt good about that meeting.
    Mr. Cummings. When you walked out the door, you felt 
optimistic that you would be able to work something out?
    Ms. Hudson. I thought they were going to work something 
out, yes, sir.
    Mr. Cummings. All right. Do you want to try to continue 
that effort?
    Ms. Hudson. I would like to. I am very skeptical about the 
voluntary agreement. Also legislation, I would love to see 
legislation here, but if they would commit to making the 
changes that we are asking, like Congresswoman Brown said, use 
common sense. There are things that they can do common sense-
wise.
    Mr. Cummings. Ms. Orlich?
    Ms. Orlich. I did attend in March, 2006, the first hearing 
here in D.C. I didn't testify. I was just with my fellow ICV 
people here. But I also attended in August in Miami and met 
with CLIA, Terry Dale, Gary Bald, and I actually thought at 
that time that there would be things done. That was 
approximately a month ago. Nothing has been done since then to 
my expectations that I thought.
    I also spoke to someone underneath Gary Bald, a Mike 
Giglia--I am sorry if I am ruining his name--who is a former 
FBI agent. He took my case, took all my information, and I 
thought by now I would hear something back about Cozumel. He 
did call me last week and told me that he sent an email to the 
American Consulate, again this Anne Harris that I had dealt 
with a couple years ago, but he has not yet received anything 
back. So he actually did try, but there hasn't been anything 
else.
    I would like to see it continue if possible.
    Mr. Cummings. Ms. DiPiero?
    Ms. DiPiero. I attended the meeting in August in Miami. We 
all had great ideas. I gave them four pages of ideas. They 
seemed very receptive. They said, yes, you have great ideas.
    We left there. There were no proposals. There were no 
promises. As of yet, I have seen no written contract saying, we 
will do this, this and this.
    Like I said in my testimony, any change is going to require 
money and that is held in the purse strings of the companies. 
Until those people are the ones that come forward and say, 
okay, you have the money to do whatever you need to do, I don't 
think they are going to do it. They are going to be on a 
budget. There has to be things that have to be done, and they 
need to be told how to do them and they need to be given a 
timeframe to do them in.
    I think that the people we were with in Miami truly would 
like to go in and do all the changes in the world, but they 
don't have the money to do it. I think it is really going to be 
forced upon the industry.
    We forced it upon the automobile industry. There didn't 
used to be airbags in our cars. There didn't used to be 
seatbelts. There didn't used to be rollbars within the bodywork 
to protect our heads should a car roll over. I believe that the 
automobile industry has done those things because they were 
require to do it, and we need to require the cruise lines to 
make change.
    Mr. Cummings. Mr. Ruchelman?
    Mr. Ruchelman. Mr. Chairman, I didn't attend any meetings.
    Mr. Cummings. All right. I want to thank all of you.
    We are going to now go to the Ranking Member, but I just 
want to express our heartfelt thanks to all of you. I know it 
is kind of difficult.
    Ms. Hudson, I guess that is your sister back there. Is that 
your sister?
    Ms. Hudson. Yes, my sisters.
    Mr. Cummings. Is that your sister?
    Ms. Hudson. Two of them, yes.
    Mr. Cummings. Okay. I mean the one in the red. She looks 
just like you.
    Ms. Hudson. Oh, no, that is my niece. That is my niece.
    Mr. Cummings. Oh, okay.
    The thing I appreciate is that you all have taken a 
difficult circumstance that is so very, very painful and then 
tried to put the anger aside and try to make things better for 
other people. I have never been in that situation, but I 
imagine it is not always easy.
    I know the industry. I have talked to the industry many 
times. I know they are trying to do a lot of things, but we 
have to have this balance.
    I have said to the industry that they have to be reasonable 
and try to work with you all, but you all have to be reasonable 
too so that we can come up with a win-win because I think that 
when we are constantly battling, nothing comes out of it. I 
think we are aiming in that direction, but I just wanted to 
thank you all very much.
    Mr. LaTourette.
    Mr. Sullivan. Chairman Cummings? Oh, I am sorry, Mr. 
LaTourette.
    Mr. LaTourette. Do you want to say something before I 
start? Go ahead.
    Mr. Cummings. Very briefly.
    Mr. Sullivan. I just wanted to make one point before we 
leave. I think in light of the anguish suffered by the people 
in this panel and my client and where we are in terms of the 
lack of communication even though it was earnestly attempted, 
that this panel has an obligation to inquire as to whether the 
cruise industry is incentivized to believe that it is more 
effective on a cost basis to defend individual cases, 
especially where on those ships and in those cases evidence is 
intentionally not preserved, rather than to implement the broad 
base of security measures that have been out there in this 
industry since 1999 and that they have been generally aware of. 
That is the dynamic.
    What is more effective from a cost basis?
    Mr. Cummings. Mr. Sullivan, let me say this. I am hoping.
    Thank you, Mr. LaTourette. I just want to answer this real 
quick.
    You made some very strong statements, and I am hoping that 
the industry is listening to what you just said because I am 
very interested to hear what they have to say to what you have 
been saying, and I know they will respond. So let us hear from 
that group. Thank you.
    Mr. Sullivan. Thank you.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Just a housekeeping matter, I would ask unanimous consent 
that additional opening remarks by Mr. Mica, the Ranking Member 
of the Full Committee, be made part of the record.
    Mr. Cummings. Yes.
    Mr. LaTourette. Thank you very much.
    I want to thank all of you for your observations today. An 
editorial observation is one of the reasons I enjoy being a 
Ranking Member on the Subcommittee is working with just a fine 
man and gentleman like Chairman Cummings.
    Mr. Carver, I was heartened by your observations that you 
described the meetings that occurred as historic, and I think 
that we all recognize that they came about as a result of the 
attention that the Chairman has played to that. I know that he 
doesn't need plaudits from me, but he is going to get them 
anyway. I commend him for that and his continued diligence on 
this issue.
    I am interested in the line of questioning that you had. I 
don't know if I subscribe to your statement, Mr. Carver, that 
anybody that has ever been victimized needs to be invited to a 
meeting. I think that what needs to happen are the ideas.
    I jotted down that you presented the 10 things that your 
group wanted to see. Ms. DiPiero had a number of items in her 
observations such as raising railings and nets after dark. 
Somebody had--it might have you, Ms. DiPiero--had a little 
different slant. I think you wanted people with bracelets and 
GPS and yours is a pass with a GPS finder that is activated by 
salt water and, today, Mr. Sullivan's testimony about the pass 
keys and the peepholes and things of that nature.
    I think somewhere in the world there is a body of things 
that reasonable people could agree would make ships safer when 
it comes to crimes committed aboard ships. I guess it would be 
my hope that there be continued dialogue.
    Mr. Sullivan, maybe you can help me with this. You weren't 
at our March hearing. Were you at our March hearing?
    Mr. Sullivan. No, I was not.
    Mr. LaTourette. Okay. One of the things that we sort of got 
into was it is difficult. One, it is tough to pass a law, even 
if you have got a great idea. Two, this particular issue, when 
you are dealing with foreign-flagged vessels and you are 
dealing with treaties, we can pass a lot of rules and 
regulations about the structural integrity so that when they 
come into our harbors, they don't break apart and pollute our 
harbors and our bays, but these issues are a little bit 
tougher.
    I don't mean to suggest that you said that there is 
something simple that we could, but I think that it is more 
complicated. Do you have an observation on that?
    Mr. Sullivan. I would respectfully suggest that to the 
extent legislation proceeds on the basis of such foreign-
flagged ships using our harbors, the analogue would be such 
foreign-flagged ships sell tickets to our American citizens and 
that would provide a justifiable basis for the enhancements for 
security under legislation that I suggested a few moments ago.
    Mr. LaTourette. I don't know if I agree with you 100 
percent. I do know that when the Coast Guard was here, they 
made the observation on this reporting agreement, that if 
people don't report, you can deny entry to ports. I suppose 
there are things like that we could, but it is something to 
look at.
    This is my 13th year here and getting something through 
both houses, signed by the President of the United States is a 
difficult thing. I think that the path that the Chairman has 
put you on is one that has the opportunity, at least in the 
short run, to have some tangible results and success. We will 
hear from the industry in just a minute about what their 
thoughts are.
    But I guess the question would be in addition to the things 
that you have outlined, your 10 points, your group's 10 points 
and, Ms. DiPiero, you had made some observations and, Mr. 
Sullivan, you have made some observations.
    Are there any other ideas out there in terms of changes 
that aren't included in the 10 points, aren't included in the 
nets, the cameras, the peepholes, that you all have 
contemplated and thought about, rape kits--we are going to talk 
about rape kits with the industry--that you think would address 
the issues to bring us all together here today? Anybody?
    Mr. Carver. I will just comment. I want to go back to that 
earlier comment. Literally, I am not expecting the cruise lines 
to invite thousands of people. What I did resent was that they 
targeted only our members without telling us.
    Mr. LaTourette. I understand that, and language is tough, 
the use of ``target'' has kind of a sinister insinuation; that 
they targeted you because you are organized and they don't care 
about everybody else. I don't think I would accept that 
argument.
    I would make the argument that, for instance, if I was 
interested in accepting the views of people who like baseball, 
I would probably get a hold of some organized Major League 
Baseball organization.
    So I take it. I mean without ascribing a sinister motive to 
them, I might take it as a compliment that they reached out to 
you because you are organized and you know what you are doing 
and you actually have a plan.
    Mr. Carver. Right.
    Mr. LaTourette. You have 10 points that are reasonable and 
rational and everything else.
    Mr. Carver. But the dates here, your second question, there 
could be many, many items. Sue has got some items that we 
haven't used that we think are great. I am sure the gentleman 
at the end of the table has some ideas.
    But we have got to start some place, and we started with 10 
points which would dramatically change things and you add to 
that. You can take some of Sue's things. Our 10 points is a 
fluid document. We changed it in May or in June. We added. 
Where we had just rape kits, we added medical care. You know. 
So, sure, you have got to start some place.
    Mr. LaTourette. I think that would be my invitation. If you 
all want to get together and send the Subcommittee a list of 
those things. If the Chairman makes a further inquiry about 
this in terms of progress, we can talk about progress.
    I have your 10 points. Ms. DiPiero, I have raising 
railings, sensors to determine if something big goes overboard, 
the netting issue of after dark to make sure people don't hit 
the water, and the GPS chips.
    We also have yours, Mr. Sullivan.
    We are going to hear from the industry on the next panel, 
but the invitation would be that there needs to be a body of 
good ideas somehow memorialized in one place, and then that is 
a good starting point. Rather continuing to have hearings where 
we come in and we say the industry is good, the industry is 
bad, why don't we just solve the problem and solve the problem 
with good ideas?
    If you would be so kind as to do that, and Ms. Hudson also 
has some ideas on fire safety that she talked about. So there 
is a body of ideas.
    Do you want to say something?
    Ms. Hudson. I am sorry. I do. Just some of the things that 
the industry already does, in my situation, they have emergency 
escape breathing devices already on the ships. They are just 
for the use of crew members.
    The practice is or their protocol is if someone is stuck or 
trapped in a cabin, if they need the emergency escape breathing 
device, they are to call the 911 phone. In our situation, no 
one was manning the 911 phone.
    That little unit, emergency escape breathing device, holds 
at least 15 minutes of air. As you see in my written statement, 
I mentioned how long my father was left in the alleyway. So 
maybe if there was that unit in his cabin, I possibly wouldn't 
be sitting here today in front of you.
    Mr. LaTourette. I think those are the types of things that 
I am talking about. If you all could either individually or as 
a group get together and just submit that list of best 
practices.
    We have the same thing in all industries. In the railroad 
industry, I had the family of an engineer who passed away in 
Graniteville came in and said if he had had a self-contained 
breathing apparatus in the locomotive, he might be with us 
today.
    So any thoughts, we would appreciate. Under the Chairman's 
great diligence, we can then review progress about how these 
talks are going forward.
    Mr. Sullivan. Mr. LaTourette, very briefly.
    Mr. LaTourette. Yes.
    Mr. Sullivan. There has never been a dearth of great ideas. 
I referenced the consultant's reports back in 1999. The 
fundamental problem is there has never been devised a mechanism 
to compel the cruise industry to implement the good ideas that 
people have been coming up with for years and years. That is 
the issue.
    Mr. LaTourette. I appreciate that. I am also struck by the 
remarks that the meeting that the Chairman urged, the set of 
meetings are historic. I think that the industry gets it, and 
there are carrot and stick approaches. I understand exactly 
what you are saying.
    Mr. Sullivan. Thank you.
    Mr. Cummings. First of all, Mr. LaTourette, I want to thank 
you for your comments.
    I do think that the industry gets it, and we are going to 
keep trying to keep this train on the track.
    We all know it is a two-way street, and there has to be 
trust on both parts. The industry has to trust that it is 
dealing with people who are going to be reasonable with them 
and work through things, but the victims and the families have 
to feel trust with regard to the industry. Without trust, 
nothing works. No relationship works.
    Ms. Brown.
    Ms. Brown. Mr. Chairman, I don't have a question. I want to 
hear the last participant, and I think they just called a vote. 
So can you just tell me what the schedule is going to be?
    Mr. Cummings. What we are going to have to do is we are 
going to finish our rounds of questions. Then we are going to 
have to come back to hear the industry.
    Mr. Coble, I am sorry.
    Mr. Coble. Mr. Chairman, very briefly, as the Chairman and 
the Ranking Member said to the panel, we very much appreciate 
your all being here today.
    Mr. Carver, in your testimony, you included suggestions on 
how to enhance passenger safety and security aboard cruise 
vessels. Have you approached them or have they approached you 
to discuss the possibility of implementing some of those 
suggestions?
    Mr. Carver. That is exactly what we talked about in July, 
July 26th. We laid out fairly detailed documents. We probably 
have given the cruise line 100 pages of documents on how these 
things can be done. Their response was we like the idea, but in 
fact we want to do it another way.
    But one of the key items, the very first item was setting 
up a database of employees that are terminated. Their position 
was or the concern was it was not legal to set up such a type 
of database. In fact, we gave CLIA a legal document a week ago 
saying, in fact, it is legal to do that.
    So they agreed to that in that meeting. We agreed to that. 
We have given them a supporting legal memorandum concerning 
that subject. It would seem that the next step is to do it 
since they agreed to it and we agreed to it.
    That was our number one point. Since 80 percent of the 
crimes involve crew members, it makes sense that they are able 
to identify these people and they don't terminate them off one 
ship and go to another ship.
    So, in fact, it would appear that we might have reached an 
agreement on that. I have not gotten a response from the 
industry to the letter that was sent to them a week ago, but 
our legal counsel felt it was legal.
    So we agreed to it. They said it is a good idea. Here is 
the legal paper. Now they can disagree with it, but that is 
where we are with our number one.
    Mr. Coble. Let me ask you one final question, Mr. Carver. 
How many victims are represented by ICV?
    Mr. Carver. We have several hundred members, and I would 
say 60, 70 victims.
    Mr. Coble. I thank you, sir.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Ms. Matsui. Thank you, Mr. Chairman. I will just make it 
short.
    I just want to thank all of you for your courage and your 
commitment and your willingness to work on this. I believe if 
it weren't for you all and your concern that you do not want 
this to happen to anybody else, we would not be here today.
    I believe that you are making progress. I believe that the 
fact that we are having hearings has been very helpful. I also 
believe that there is a situation here where I think there is 
now going to be more, I hope, give and take on this. There are 
some very good suggestions at the bare minimum that could be 
done by the cruise industry to start the process of developing 
trust.
    I think about it. I brought up the subject of hotels and 
the fact that years ago people felt somewhat unsafe in hotels, 
and now I think most people feel fairly safe. There are 
peepholes. There are security cameras, security keys, all 
manner of things that can be done.
    I think these steps have to be made first. These 
suggestions have been made, and I think they have to be 
implemented.
    The trust factor is very, very important. I brought that up 
before. If this is to be voluntary, we have to trust that it 
will happen. I know that the victims here are going to keep 
with this, but their goal is not to let this happen to anybody 
else. I think we owe it to them to ensure that doesn't happen.
    So I thank you so very much, all of you, for being here 
today. Thank you.
    Mr. Cummings. With that, we thank you.
    We have one vote, and so we will be back in about 15 
minutes.
    We want to, again, thank all of you.
    I am going to back to what Mr. LaTourette said. I do not 
like doing this, this hearing stuff. I think it is a difficult 
way to get things done, but it is attention-grabbing and it 
puts it out to the universe, but I think there are other ways 
to get this done.
    We are going to hear from the industry in a moment to see 
where they are, and then it is quite possible that Mr. 
LaTourette and I will get together in an informal way sometime 
soon to see where we are progressing, but we will try to push 
this process along as best we can.
    Again, we want to thank all of you for taking the time out 
to make a difference. Again, I just thank you. I really do.
    We will be back in about 15 minutes to hear from the last 
panel. Thank you.
    [Recess.]
    Mr. Cummings. As we call the next witnesses, I hope these 
witnesses will concentrate. You had the opportunity to hear the 
testimony already.
    Let me see. How do I say this in a nice way? We don't want 
to hear a lot of syrupy stuff. We want to know what we have 
achieved, what can we expect to achieve and where do we go from 
here.
    I have read all the testimony. I know Mr. LaTourette and 
Ms. Matsui and others have. We are trying to figure out where 
do we go from here, what have we done, what have we 
accomplished and let us see what your testimony will be.
    Terry Dale, President and CEO of the Cruise Lines 
International Association; Gary Bald, Senior Vice President and 
Global Chief Security Officer with Royal Caribbean Cruises; Ms. 
Vicky Rey, Vice President of Reservations Administration with 
Carnival Cruise Lines; and Jeff Morgan, President and Co-
Founder of the Family Assistance Foundation.
    Mr. Dale.

   TESTIMONY OF TERRY DALE, PRESIDENT AND CEO, CRUISE LINES 
INTERNATIONAL ASSOCIATION; GARY BALD, SENIOR VICE PRESIDENT AND 
 GLOBAL CHIEF SECURITY OFFICER, ROYAL CARIBBEAN CRUISES, LTD.; 
    VICKY REY, VICE PRESIDENT, RESERVATIONS ADMINISTRATION, 
   CARNIVAL CRUISE LINES; AND JEFF MORGAN, PRESIDENT AND CO-
          FOUNDER, FAMILY ASSISTANCE FOUNDATION, INC.

    Mr. Dale. Good afternoon, Mr. Chairman and Members of the 
Subcommittee.
    My name is Terry Dale, and I am the President and Chief 
Executive Officer of Cruise Lines International Association, 
CLIA. CLIA is North America's largest cruise industry 
association with a membership of 24 cruise lines, 16,500 travel 
agencies and 100 executive partners.
    Mr. Chairman, I believe you have received written 
submissions from a number of our travel industry partners that 
work closely with the industry today. I respectfully ask that 
they be submitted for the record.
    Joining us today, and I would ask that they stand when I 
read their association name, are the American Society of Travel 
Agents, the National Association of Cruise-Oriented Agencies, 
Cruise Planners and Vacation.com. These groups, as well as the 
thousands of professionals they represent, can attest to the 
millions of satisfied passengers who cruise with us each year. 
They also know the great lengths our industry goes to protect 
its passengers and crew. I thank them for their support and for 
being here today.
    On a personal note, I would be remiss if I did not express 
the industry's profound sympathy to the victims whose stories 
we have now heard in four congressional hearings on this topic. 
To Ken Carver, Son Michael Pham, Sue and Ron DiPiero, Angela 
Orlich, Lynnette Hudson and others who I personally met and 
learned from over the past five months, I thank you for the 
opportunity. As we have heard today from the Chairman and 
Congresswoman Matsui, trust is critical, and I believe we can 
trust and continue the positive foundation that we have laid.
    To all of you, I take this opportunity to say we have heard 
your concerns. Our industry is working hard to ensure that in 
the future, if such incidents do occur, each passenger is 
treated with the necessary compassion, respect and care.
    Mr. Chairman, the cruise industry is committed to ensuring 
the safety and security of all of our passengers and crew. I 
know you share this commitment, and your directive to us to 
work together has strongly been embraced by this industry and I 
believe by the survivors as well.
    CLIA and senior executives from our member lines have 
worked tirelessly over the past six months in a collaborative 
effort with our partners including the Federal agencies we have 
heard from today as well as the International Cruise Victims 
Association, other survivors, families and resources like the 
Family Assistance Foundation.
    Shortly after the last hearing, our industry members co-
sponsored the Family Assistance Foundation's symposium in 
Atlanta in May at which I participated. Following this 
important symposium, I flew to Phoenix to personally meet with 
Ken Carver and Son Michael Pham. CLIA then met with the ICVA in 
July here in Washington, D.C., to discuss their 10-point plan, 
and this was followed by a CLIA-hosted meeting with the Family 
Assistance Foundation, ICVA members and 13 survivors in Miami 
on August 14th. Significant information has been shared, and 
significant lessons learned.
    The list of these meetings is illustrative of our 
commitment to hear the concerns of survivors, to develop 
programs that are responsive to their concerns and to deploy 
these programs to the ships that operate throughout the world. 
We have all embraced your challenge to get the industry and 
partners working together for solutions.
    There has been past debate whether reports of unlawful acts 
onboard non-U.S.-flagged vessels are required to be reported. 
We are grateful to the Federal Government for clarifying once 
and for all that reporting of crimes in the cruise industry 
under existing Federal law is mandatory, not voluntary.
    On August 7th, 2007, CLIA received the following written 
statement from the Coast Guard: The Departments of Justice and 
State, FBI and U.S. Coast Guard have developed the following 
consensus position: An offense committed against at U.S. 
national on the high seas or in foreign territorial waters 
aboard a foreign-flagged cruise ship that embarked from or 
intended to call on a U.S. port would be subject to the 
reporting requirements as a de facto condition of port entry.
    This policy clarification was laid out in the Coast Guard's 
testimony and is the formal position of the U.S. Government.
    Mr. Chairman, I began my testimony talking about the strong 
collaboration this industry has had since it received your 
charge six months ago to work with the survivors of cruise ship 
tragedies. Today I would like to announce that CLIA is creating 
a survivor working group that will be comprised of survivors of 
accidents and crime, families, CLIA staff members and senior 
level cruise line executives.
    This group will meet quarterly either in person or by 
conference call. As in past meetings, the industry will 
reimburse all travel and participation expenses incurred by 
working group members. Our common goal will be continued open 
dialogue and creating ways to achieving the best possible 
safety record in the vacation industry.
    Before I close, I would like to reiterate from the FBI's 
written testimony that a passenger as .01 percent chance of 
something bad happening during a cruise. While one incident is 
one too many, that percentage speaks highly of the cruise 
industry's record on passenger safety.
    Let me just reemphasize that the cruise industry has as its 
highest priority the protection of our most precious cargo, our 
passengers.
    Thank you for this opportunity.
    Mr. Cummings. As we go forward, again, I want to emphasize 
that I want to know what the industry is prepared to do and, 
Mr. Bald, I think you are my next best hope of getting that. I 
am not trying to be smart, but I think we have heard a lot here 
today, and I just want to know where we are. That is what the 
hearing was originally about.
    And so, I am satisfied that we got the reporting thing. The 
only question is whether or not it would go public. I think we 
are there. It is the reporting piece that we are pretty 
straight on.
    I usually don't do this, but I want to make sure we use our 
time wisely. The question is where do we go from here, what 
have we been able to agree upon and what have we accomplished?
    I use a term. Muhammad Ali, when he used to fight, he had 
something. He did something called the rope-a-dope, and he 
would lay it on the ring, on the ropes, and he would take all 
the punches. Eventually, he would come out of the rope-a-dope, 
have saved his energy and beat his opponent.
    I don't want any rope-a-dopes here. I don't want to be 
meeting to be meeting to be meeting to be meeting, and I know 
Mr. LaTourette doesn't either.
    So, Mr. Bald, as you begin to address us, so you can use 
your time wisely, I want to know about what you all are willing 
to do with the things that I have asked about with regard to 
protocol, say, to protect against sexual assaults. What are you 
all prepared to do with regard to that?
    You heard about the DVD. I know you haven't gotten it 
because the FBI hasn't released it yet, but I just want to have 
some testimony on that and anything else you might have to say.
    Ms. Brown. Mr. Chairman, before they move forward, let me 
ask you a question because as they form their testimony and let 
me just say, since I hadn't said it, I wanted to thank the 
witnesses that have come forward. I am very sensitive to the 
problems that we are addressing.
    But we have been dealing with homeland security and in 
transportation, when there is a list of names that may be on a 
list and those names should not be on the list and some names 
sound alike, we could be putting people's names out there that 
is not the person. When you get that person's name on a list, 
how does that person get their name off the list? You know we 
are having that problem in aviation. We are having it in 
transportation, period.
    So I think as they develop whatever procedure and whatever 
recommendations, they need to make sure that everybody is 
protected.
    Mr. Cummings. I understand. Thank you. Thank you very much.
    Mr. Bald.
    Mr. Bald. Good afternoon, Mr. Chairman, Congressman 
LaTourette and Members of the Subcommittee. I would like to 
take this opportunity to thank you again for holding these 
hearings.
    After 29 years in the FBI, I have come to appreciate the 
oversight you provide and the reform it can bring about when 
conducted in a fair and productive manner. I have been 
particularly impressed with your recommendation, Mr. Chairman, 
in support of our industry partnership with cruise incident 
survivors. I thank for your encouragement and collegial 
inclinations in this important area.
    I would like to begin by expressing my deepest sympathies 
to the incident survivors who appeared before you today. 
Lynnette Hudson, Ken Carver, Sue DiPiero, Angela Orlich and 
Harold Ruchelman are good people who have suffered as a result 
of events that occurred while they or their family members were 
on a cruise. They have also devoted time to assisting us with 
our improvement efforts, and for this I am grateful.
    Mr. Chairman, a variety of issues were raised by these 
witnesses earlier today as well as by Mr. Sullivan, and I am 
certainly prepared to comment on their concerns. However, I do 
not want to risk responding to aspects of their testimony in a 
way that may cause further pain for these fine people or 
perhaps undermine the important relationships we have begun to 
form with them.
    Instead, I intend to focus my testimony on the positive 
steps we are taking and my strategy for future shipboard 
security. I will, of course, be happy to answer any questions 
that you have about their concerns. However, in the few minutes 
that I have I would like to address several important areas, 
first, my guest security strategy onboard our ships.
    At Royal Caribbean, my guest security strategy is to 
implement processes that prevent and effectively respond to 
security incidents. Prevention is being pursued through a dual 
effort of effective deterrence and understanding and 
eliminating the factors that contribute to incidents.
    In those situations where an incident does occur, our goal 
is to effectively respond in a manner that restores safety and 
security, treats and cares for our guests appropriately and 
with compassion, identifies those responsible, preserves 
evidence, and facilitates and supports Government investigation 
of the incident and prosecution of those responsible.
    It is important to note that although I believe we have 
come a long way in our security efforts, we still have much 
more to accomplish. Ultimately, this process is not about 
statistics or even about past incidents although both are 
important. It is about preventing even a single incident like 
those you have heard about today. This is no small task but one 
that I am confident our efforts will have a positive impact on 
and a positive impact on the cruise experiences of our future 
guests.
    Since the March hearing before this Committee, I have 
benefitted from both direct and indirect input from cruise 
incident survivors. Their unique perspectives have afforded me 
an excellent compass check to ensure that my efforts are on a 
course that will prevent future incidents and are in keeping 
with the needs of our guests and crew that I am dedicated to 
protect.
    I would like to focus my comments this afternoon on only a 
few of the two dozen steps that we have taken in the six months 
since we first met. You will find details of all of these 
initiatives in my written testimony, the majority of which 
speak to issues raised by incident survivors.
    For example, in April, we implemented a formal quarterly 
review of shipboard incidents as an oversight process that 
helps us ensure incidents are properly reported, properly 
addressed and offer opportunities for improvement. This month, 
we added the FBI to this quarterly review process.
    In June, we entered into an agreement with an outside 
contractor to supply investigative experts who are on call to 
respond to shipboard incidents such as a man overboard or 
certain sexual assault situations. This team provides a 
resource we can dispatch with strong investigative credentials 
to assist in supporting the needs of Government investigators, 
understanding how an incident occurred and what steps we can 
take to prevent a recurrence.
    Given the input that we have received from the Subcommittee 
and our incident survivors, we have required this team to 
include highly skilled female investigators who will greatly 
add to our efforts to understand and prevent sexual assault 
incidents.
    In July, we contracted with a separate outside expert for 
the development of incident metrics to facilitate the 
preventive approach to shipboard security I spoke of a moment 
ago. If we can better understand the underlying causes of 
incidents, we will be better able to target them for 
elimination.
    In July and August of this year, we hired three additional 
experienced investigators, including two women, as full time 
members of my global security department's investigative team. 
These career professionals along with their director bring more 
than 80 years of investigative experience to the company and 
form a team whose past assignments include the handling of 
sexual assault investigations and strong experience working 
with international law enforcement partners.
    Finally, next week, we will complete our annual security 
officers training seminar. This year, we will include 
presentations by the Family Assistance Foundation in addition 
to instruction from the FBI that they normally receive. During 
this session, security officers will receive training on topics 
such as incident reporting requirements, incident prevention, 
incident response, evidence preservation, conflict resolution, 
guest care, victim concerns, intelligence, terrorism and 
security countermeasures. They will also become the first 
Government-licensed security officials in the cruise industry.
    In conclusion, Mr. Chairman, these are only 5 examples of 
the 24 initiatives that we have implemented since the last 
hearing and which are further detailed in my written testimony.
    At Royal Caribbean, we strive to provide an exceptional and 
safe vacation experience for our guests. We succeed in the vast 
majority of our guest experiences. However, in those instances 
when a crime does occur, we want to ensure that our guests and 
their families are appropriately cared for and that persons 
responsible are effectively investigated and that steps are 
taken to learn from and hopefully prevent the incident from 
happening again.
    I look forward to our continuing partnership with incident 
survivors, corporate and industry partners, and Government 
agencies and to providing updates to you, Mr. Chairman and 
other Members of the Subcommittee as desired.
    Thank you again for the opportunity to be here today, and I 
am happy to respond to any questions you may have.
    Mr. Cummings. Thank you very much.
    Ms. Rey.
    Ms. Rey. Chairman Cummings and Members of the Committee, 
good afternoon.
    Mr. Cummings. Good afternoon.
    Ms. Rey. My name is Vicky Rey, and I am the Vice President 
of Reservations Administration for Carnival Cruise Lines. I am 
also the Lead Executive for the Carnival Care Team.
    Before I go on, Mr. Chairman, I want to take a moment to 
acknowledge the losses and experiences of the families here 
today. My thoughts are with you.
    Thank you for allowing me to participate today. We value 
your concern over the level of care that is given to guests and 
families when they unexpectedly find their vacation disrupted 
by an unfortunate event. We share your concern and appreciate 
the opportunity to inform you of what Carnival does to take 
care of our guests when this occurs.
    This is my first congressional hearing, and I am honored to 
be here, representing the 500 men and women that represent the 
Carnival Care Team. During the past 26 years, I have held 
various passenger traffic management positions and have served 
in my present capacity for 17 years. I have led Carnival's Care 
Team since 1999, since its genesis in 1999.
    The Care Team was originally organized to handle critical 
incidents of mass guest displacement primarily caused from a 
cancellation or alteration of a cruise as a result of a 
mechanical or weather-related factor. Since then, it has 
evolved into a team of broadly trained individuals who respond 
on a regular basis to incidents involving medical or 
bereavement debarks or some other form of unexpected tragedy.
    Our mission is to provide compassionate care and practical 
support to guests who find themselves at a time of significant 
trauma or crisis. Our goal is to provide them with an 
environment where they can begin the healing process while they 
complete their business with us and move on with their lives.
    As a corporation, we have learned that we have great power 
to help individuals succeed in their ability to transcend a 
tragedy by the care and compassion we show them in the 
aftermath of a crisis. We have made a conscious effort to 
provide this kind of care not only because it is the right 
thing to do but because we feel it is a privilege to help 
someone who may be going through a life-altering situation 
while vacationing with us.
    Our Care Team training program is ongoing, aggressive and 
comprehensive. Since last summer, we have trained 1,470 
employees over the course of 368 hours. This includes our large 
core group of family escorts and support services personnel, 
most of the shoreside management, our captains, staff captains, 
chief engineers, hotel directors, chief pursers and chief 
security officers.
    Furthermore, several hundred of our call center employees 
were trained on how to empathically communicate with affected 
guests or relatives who may be trying to reach us 
telephonically. An additional group received training on next 
of kin notification skills in the event that we need to inform 
relatives of a critical event.
    Finally, we are now adding greater focus to the training of 
port agents and ground services personnel who often act as an 
extension of us when time and distance are factors. An 
additional 80 training hours are planned for the balance of 
this year, bringing our total number of trained staff to 1,760. 
Our goal remains to partner with other lines in expanding 
awareness and training to all of our crew and to our vast 
network of port agents.
    Our training is based on core Care Team principles that 
identify the basic needs of an individual when they are in the 
acute phase of trauma, usually occurring within the first 72 
hours. Research has indicated that despite our personal and 
cultural differences, at the onset of trauma, we all have very 
similar needs when we grieve or hurt. We have learned that the 
sharing of sorrow makes for a very powerful bond and that our 
own personal losses and experiences make us well equipped to be 
able to help others who may be hurting in a similar way.
    Since May of last year, our Care Team has assisted 163 
families. The majority of these involved medical emergencies. 
During this same period, Carnival has served 4.7 million 
guests.
    When our Care Team is activated, we travel to different 
destinations wherever we needed to assist in providing 
emotional support, basic needs like clothing and food, 
connections with loved ones, lodging and transportation 
arrangements. In general, we run interference and provide 
guidance when others' coping mechanisms may be compromised.
    Lastly, I want to share with you that we are passionate 
about our level of commitment to this program, and we want to 
do everything possible to continue increasing awareness in our 
own company but within the industry as well. This year, we have 
partnered with the Family Assistance Foundation and just last 
May were co-sponsors of their annual symposium that brought 
together survivors and members of the industry in a forum that 
encouraged education and understanding.
    In August, we participated in a CLIA-hosted meeting where 
we once again met with survivors in order to learn from their 
experiences. Carnival is an active participant in CLIA's 
working group with families and with CLIA's guest assistance 
committee to determine industry best practices.
    In closing, let me just say that I am extremely proud of 
Carnival's progress in the Care Team area as well as in the 
industry. Let me assure you that we are firmly committed to 
continuing to do the right thing.
    Thank you.
    Mr. Cummings. Thank you very much.
    Mr. Morgan.
    Mr. Morgan. Mr. Chairman and distinguished Members of the 
Committee, my name is Jeff Morgan and I am President and Co-
Founder of the Family Assistance Foundation. My colleague, 
another co-founder, Dr. Carolyn Coarsey, was unable to be here 
with you today, so she has provided her statement both written 
and on DVD which I believe is available to the Committee.
    In 2000, Dr. Carolyn Coarsey and I co-founded the Family 
Assistance Foundation for the purpose of helping organizations 
provide a higher level of response to survivors during 
tragedies. The purpose of the Foundation is to provide 
education, training and organized mutual aid at a time of 
tragedy.
    The cornerstone of the Foundation is to promote open 
dialogue between survivors and employee helpers. We encourage 
family and passenger survivors to tell the stories in an 
educational format so that they themselves can train employees 
on what is needed by survivors during these vulnerable times.
    I am here today to tell you about our work with the cruise 
industry over the past two years. At the Foundation, our 
interviews conducted by my colleague, Dr. Coarsey, continue to 
show that when employees are empowered to help survivors, they 
have a tremendous opportunity to influence how survivors heal 
from their losses. These interviews form the basis of all the 
training that we offer as we believe the true experts on the 
subject of how best to assist survivors are the survivors 
themselves.
    In 2005, Dr. Coarsey began interviewing survivors of cruise 
line tragedies. Shortly thereafter, she began developing 
specific training materials for the cruise line industry such 
as those that Vicky mentioned just a moment ago. These 
materials incorporate lessons learned from survivors including 
the family members of persons who were missing overboard, 
family members of deceased passengers and guests who become 
involved in various tragedies while on a cruise ship.
    Here, at the Foundation, we have seen a very aggressive 
response by the cruise line industry to the problem of 
empowering employees to assist survivors by offering many 
different training programs, using the video interviews and 
written materials incorporating all these lessons learned.
    Dr. Coarsey has personally provided awareness education to 
more than 4,000 employees in the cruise line industry. She has 
trained a wide range of personnel, and one of the reasons that 
she is unable to be with us is we have an aggressive schedule 
really for the remainder of the year with Royal Caribbean, 
Celebrity, Carnival, Princess, Holland America and P&O Cruises.
    The personnel that we train include executives, care team 
employees, telephone responders, employees who will notify the 
next of kin of guests who experience a tragedy while on the 
ship. It also includes security personnel, safety officers, 
captains and other onboard staff. The goal is to provide some 
level of awareness to every single employer who might interface 
with a survivor during any crisis.
    In addition to the training that we have conducted earlier 
this year, the Foundation's annual symposium featured two 
educational panels on cruise line-related issues. The first 
panel involved family members and guests who had survived 
cruise line tragedies prior to this training. The second panel 
involved survivors of tragedies following the newer programs 
that have been implemented.
    We observed a significant difference in outcomes between 
the two groups. Survivors who were empowered by trained 
employees and offered every form of assistance possible were 
still healing from the losses of loved ones, but they did not 
have to cope with the anger and hostility generated by a lack 
of understanding.
    We believe that it is important to listen to every single 
survivor. We encourage the industry to listen and learn from 
each person who has experienced tragedy, those who had negative 
experiences with employees before the education as well as the 
positive ones.
    The Family Assistance Foundation continues to support the 
continuing dialogue between the cruise line industry and 
survivors. We know the industry is listening and learning from 
survivors. We were part of the meeting in August and were 
honored to facilitate that meeting, and we know most of the 
comments were negative. However, the cruise line industry sat 
and listened.
    In closing, I can assure you that the Family Assistance 
Foundation will continue to do all that we can to support our 
cruise industry members and the cruise industry overall in 
improving how guests and their families are supported following 
these tragic events that occur in conjunction with cruises.
    Thank you for the opportunity to present this testimony, 
and I will be glad to answer any questions that you might have.
    Mr. Cummings. Thank you very much.
    Let me, first of all, go to you, Mr. Bald. I was looking at 
your testimony. You talked about things that you all are doing, 
and it looks like you are doing some pretty good things.
    This formally establishing a security career path and 
related job descriptions for our shipboard security teams, can 
you talk about that?
    Mr. Bald. Thank you, Mr. Chairman.
    Yes, sir. What we have done is we have taken a look at what 
we have been doing onboard the ship in the way of security 
processes, and we have taken a look at where we need to be. We 
have adjusted our requirements for the positions of security 
guard and security supervisor and for the deputy position 
onboard our ships and the security officer himself.
    What we intend to do is make sure that we change the 
processes onboard the ship and then be able to hold people 
accountable, and we needed to make sure we defined what those 
responsibilities were before we could move forward in making 
sure that they implement the things that we are asking them to 
implement.
    I would be more than happy to provide you copies of what we 
put together in the way of job descriptions for the folks 
onboard our ships if that would be informative for you.
    Mr. Cummings. I want to go back to this whole idea of 
evidence preservation. I am hoping that the industry, if it has 
not already, will. It sounds like this FBI DVD, I think Ms. 
Matsui talked about it a bit and I talked about it. I am not 
sure that that is sufficient.
    I am asking you all since you are a former FBI agent. It 
seems like you ought to be able, if you haven't already, 
develop a protocol with regard to evidence. I am assuming there 
may be at least two different types of protocol, one for 
certain kinds of crimes and then one for sexual crimes because 
I think the sexual assaults and probably other types of 
assaults maybe have certain elements that other crimes don't 
have. Going to the person, that is.
    So I am just wondering. Is that a part of this training 
that you talked about a little earlier? If it is not, are you 
all willing to do that?
    Mr. Bald. Yes.
    Mr. Cummings. I see Mr. Dale shaking his head. Since I see 
a nod in the affirmative, I don't want you to be quiet. Do you 
want to say something?
    Mr. Dale. Absolutely. First, let me say that when it comes 
to safety and security, our 24 cruise line members do not 
compete. It is in our best interest to make sure that we are 
providing the safest vacation possible. So I have personally 
experienced the training by one of our cruise line members, and 
we spent an entire day with FBI representatives and Coast Guard 
representatives, going through the protocol that you just 
talked about.
    So, yes, the DVD is a good step, but there needs to be 
additional processes when it comes to our training, and we are 
taking those next steps. Our cruise line members do have 
protocols in their security training manuals, and we place just 
a huge emphasis and priority on this.
    Mr. Bald. Mr. Chairman, if I may, to respond to your 
question, on our training protocols, we actually have involved 
the FBI in our training for a period of years. This year's 
training for our security officers begins next week. There is a 
one day block, one full day block by the FBI.
    It includes not only experts who respond to the ship, 
actually the ones responsible for overseeing the FBI agents who 
go to the ships on how they respond and what they expect when 
they get there. It also includes a half-day presentation by the 
FBI's evidence response teams over what constitutes evidence, 
where it may be found and what condition they want to see it in 
when they arrive at the ship.
    To your question on the differing evidence handling 
processes depending on whether it is a sexual assault or not, 
what I have attempted to do is to find a process for our 
security officers that I expect them to adhere to for how they 
respond to any incident.
    In the situation of sexual assault, there is an adjunct to 
that, and that involves the responsibilities of the medical 
staff. Certainly, the collection of evidence, the only area 
that I am expecting our ships to play a role in for collection 
purposes is in the medical facility when they are actually 
examining a woman who has been the victim of a sexual assault. 
The rest of my instruction policies and training are geared 
towards the effective preservation of evidence.
    However, having the FBI explain the collection processes 
allows my team onboard the ships to be able to respond if, for 
example, the evidence that needs to be collected is in an area 
that is perishable, for example, outdoors. Then what I want is 
for the FBI to actually directly provide the guidance to our 
security officer as to exactly what they want done, but I want 
them to have a framework of understanding before that 
instruction comes.
    So this is the backbone of what we are providing in next 
week's training.
    Mr. Cummings. On my way over here when we were coming back 
from the vote, I was telling Ms. Matsui that if I were to 
guess, if I were to guess, I would imagine that women make the 
decisions with regard to a family on this cruise. Now we men 
think we make the decisions, but they probably make the 
decisions.
    It seems to me that the industry would want women to feel 
very comfortable about whatever goes on, on a ship. To me, it 
is just logical, and so I think some of the steps that you are 
taking are very important.
    Mr. Dale, going back to you, now you announced in your 
testimony that CLIA will be establishing a survivor working 
group that will meet quarterly and will be comprised of 
survivors of cruise incidents, senior level cruise line 
executives and CLIA executives. Can you describe the goal of 
that group and what kind of specific agenda items?
    Are you all going to be just rehashing the same things over 
and over again? Because what happens is that people get tired 
of that. People, all of us, like to feel that we are making 
progress or we lose hope. When we lose hope, trust goes along 
with it, by the way, so then you have nothing.
    Go ahead.
    Mr. Dale. Exactly. Yes, let me shed some light on our 
working group. The goal is really going to be solution-focused, 
and we want to engage and hear from as many victims as 
possible. We have done that throughout the course of this 
summer.
    As you have heard, we have had an opportunity to review the 
ICVA 10-point plan. The DiPieros have submitted some very valid 
ideas for consideration.
    Mr. Cummings. Are you in agreement with any of that 10-
point plan?
    Mr. Dale. We agree from a conceptual standpoint, but how we 
get to the end result is where we need to continue this 
dialogue. So that is the purpose of this working group is to 
focus on how do we get the solutions to provide the safest 
vacation in the industry today.
    Mr. Cummings. I am going to come back, but I want to ask 
you this one last thing.
    If you really listened to the witnesses, they were feeling 
pretty good. They were feeling pretty good. They went to the 
meeting. They were probably a little skeptical. It seemed like 
everything was coming along real good. Ms. Hudson said she felt 
real nice about it, like things were moving. Then it seemed 
like the bottom just dropped out.
    One of the problems that happens, and you can explain to me 
what happened, but one of the things that happens is that 
whenever something like that happens, it is almost like you are 
at level ground as far as trust, but then the person goes 
underground. So to get that trust back up, they have got to 
fight to get back up.
    Basically, what you are doing is you are wasting time 
because they have got to get back up here just to be on level 
ground to even be able to trust.
    I am thinking that you have got the victims and their 
families who have said, we really want to work this thing out. 
We were really feeling good about these folks, the industry, 
and then it seemed like we were left kind of hanging.
    Can you talk about that because, to me, that is key?
    Mr. Dale. Absolutely.
    Mr. Cummings. This is not legislative stuff. This is basic 
human relationship stuff.
    Mr. Dale. Exactly. I agree.
    At the August 14th meeting, at the end, we decided that it 
makes all the sense in the world to establish this working 
group. I indicated then it would take us 30 days. We needed to 
go out, identify who would like to be a part of the group. So 
we said, in two weeks, please let us know if you would like to.
    Two weeks came. We had a lot of people raise their hand, 
many of them ICVA members, but we hadn't heard from Ken Carver 
and Son Michael Pham. So I contacted them again and said, we 
are going to extend it another week. Hopefully, you can 
determine that this is a good use of your time.
    That was last Friday. I did get an email this Monday, 
saying that their Subcommittee that they established hadn't 
decided yet whether or not to participate.
    So we are ready to move forward. The invitation to Ken and 
Son Michael Pham and anybody is open, and we would ask that 
they consider to join this group because we are ready to move.
    Mr. Cummings. Mr. LaTourette.
    Mr. Bald. Mr. Chairman, may I just add one comment to this? 
I am sorry to interrupt you.
    Mr. Cummings. Yes.
    Mr. Bald. The perception that we have done nothing since 
the last meeting is really not correct, but it is 
understandable from the folks who attended that meeting because 
we haven't articulated the progress that we have made and we 
look forward to being able to do that.
    Mr. Cummings. Give me right now. Why don't you do this?
    Mr. Bald. Yes, sir.
    Mr. Cummings. I know you have done it to a degree in your 
testimony. Just give me, like rattle off the top of your head, 
if you can what you consider to have been accomplished.
    Mr. Bald. I can.
    Mr. Cummings. Another one of these human things, a lot of 
times we are not communicating. One person hears one thing, and 
another person hears another thing. Somehow there is a 
disconnect.
    Mr. Bald. Yes, sir.
    Mr. Cummings. So can you just tell us off the top of your 
head what you feel has been accomplished since our last 
hearing.
    Mr. Bald. Yes, sir. What I would like to do, if you don't 
mind, is to use an example from Ms. Laurie Dishman if that is 
okay with Ms. Dishman. I know that she is here.
    It is a great example of the importance of our interaction 
with individual incident survivors. Ms. Dishman has provided me 
a list of 12 recommendations, and I am prepared to go through 
each one of them if that is what you would like me to do. I 
have actually accepted and moved forward on seven of those 
twelve. They are exceptional recommendations. They were well 
thought out. They are definable, and I can put them into 
effect.
    For example, the one thing that has been most important I 
think, perhaps in my view, from Ms. Dishman is Royal Caribbean 
ships up to this point do not have peepholes in the doors of 
their ships. It is something that it seems perhaps common sense 
that we do that. It is something that hasn't been to the 
attention of the company.
    Ms. Dishman made that recommendation. I had the discussion 
with our executive committee. There was overwhelming agreement. 
In fact, the comment from our Chairman was, you know hotels do 
this. We have got to do it.
    So we have actually made the decision to install peepholes 
on our ships. We are starting with the two ships that are in 
new build.
    We are continuing with another one in October. That one is 
a bit more of a challenge. It is the first of our existing 
fleet that we will be installing peepholes on. There is a very 
rigid process we have to go through when we are drilling into a 
door on a ship because it is a fire-rated door.
    Mr. Cummings. Okay. Take me to number two.
    Mr. Bald. Yes, sir.
    Mr. Cummings. So you are working on that one?
    Mr. Bald. Yes, sir.
    Mr. Cummings. You are doing it?
    Mr. Bald. Yes, sir.
    CCTV installation, I testified in March of our expansion 
process, a $25 million expansion. That process will also 
include cameras in the corridors for guest staterooms.
    Mr. Cummings. That are monitored?
    Mr. Bald. The monitoring is a different challenge. That is 
one of the ones on Ms. Dishman's list that I can't tell you I 
am moving forward on right now. The challenge there is we have 
over 650 cameras on some of our ships. To monitor all of those 
full time is a monstrous task, plus you bring into 
consideration the attention span of the people that are 
actually sitting at the monitor.
    What I need to do first, this goes back to my metrics 
discussion that I mentioned earlier. I need to understand, are 
there certain cameras that I need to monitor that are more 
important than others and then look at whether or not we can 
effectively deliver that capability. So I have not rejected 
that by any means. I just don't simply have enough internal 
information to be able to commit to doing it today.
    Mr. Cummings. Three?
    Mr. Bald. Increased number of security guards on our ships, 
for example.
    Mr. Cummings. Tell me, these are Ms. Dishman's?
    Mr. Bald. These are Ms. Dishman's, yes.
    Mr. Cummings. Okay, go ahead. Number three?
    Mr. Bald. Increased number of security guards on our ships. 
In Ms. Dishman's situation, a very unfortunate set of 
circumstances, an absolutely tragic situation and an 
unfortunate perfect storm type set of circumstances.
    But we ended up, on our ships we have a set number of 
positions in every component including security. There are 
certain functions that are more of a regulatory function, my 
word, that don't require a high level of security experience, 
for example, checking IDs at the door of the discos to make 
sure people are old enough to go in and consume alcohol. It is 
a bouncer type of a service that we wouldn't put a police 
officer on necessarily in a bar here on the shore.
    Unfortunately, the processes in place at the time, in my 
view, didn't adequately vet the people that we were using in 
that situation. We also, in that particular situation, I 
understand, provided a security badge for them to wear because 
they were performing in that function.
    I have changed that. No longer do we give badges to these 
part time security search people.
    We also require security officers to do a background 
investigation on them which is rather easy. It is a review of 
personnel files, looking at any issues that are in their 
personnel file or any reason why they would not be the right 
person to be able to stand in front of a disco, for example, 
and check identification.
    Mr. Cummings. Four?
    Mr. Bald. I combined two. One of those was security badges. 
It was a separate recommendation from her which we have 
implemented.
    Mr. Cummings. All right. Five?
    Mr. Bald. I will go through hers in order rather than skip 
around if you don't mind. We talked about number four which was 
monitoring the CCTV. Still more work that I have to do in order 
to be able to make decisions on that. It is a fair 
recommendation.
    The fifth one is peepholes.
    The sixth one is background checks. This one is another 
example of where her input is tremendously helpful.
    The recommendation from the ICVA is to form what I think 
the law would describe as a black list. A black list is 
traditionally illegal in most States. Federal law has 
incorporated that in a variety of areas. The concept, we agree 
with.
    What we don't want, I don't want to hire somebody that was 
dismissed by Carnival. Carnival doesn't want to hire somebody 
that was dismissed from me. But putting together a common 
database presents problems, and so we have looked at that 
internally from a legal standpoint. We have also had our 
attorneys look at the legal perspective that was provided to us 
by the ICVA.
    The decision was that their legal research was legally 
deficient. I am not being critical, but it did not bridge the 
gap sufficiently for us to move in the direction of a database.
    However, in Ms. Dishman's situation, she has provided an 
opportunity for us to perhaps close this gap that our lawyers 
are looking at, and that suggests we build in another 
background step in the application process for our crew members 
to check the other cruise lines to see if they have been 
employed before. We certainly have to make sure what we are 
doing is legal, but to me that seems a very reasonable 
recommendation and one that came from Ms. Dishman.
    Mr. Cummings. Seven?
    Mr. Bald. Seven is the presence of United States marshals 
onboard cruise ships. I would like to come back to that at the 
end if I can. If you would like me to go through the detail, 
that is a very important one, and I have a lot of, I think, 
relevant information for the Committee that I can add.
    Mr. Cummings. Thank you very much.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman, and 
thank all of you for being here.
    This being our second hearing on this subject, I come away 
from these hearings that the cruise experience is a nice way to 
have a vacation, but sometimes things happen. I think again, 
for me, the crux of it and perhaps why you find yourselves with 
some difficulties.
    I was glad, Mr. Bald, you ended on employees because I was 
going to ask you. This Committee and the Homeland Security 
Committee have the idea of this Transportation Worker 
Identification card, the TWIC. Not only not hiring somebody 
that has been a problem on another cruise line but I would 
imagine just simple background checks. You don't want to hire 
people with criminal histories that would suggest that they 
might engage in criminal conduct.
    If Mr. Carver was right and 80 percent of the reported 
criminal activities are committed by employees, it seems to me 
that you have it within your power to at least reduce that 
based upon background checks and other employment techniques.
    The second are safety and training things that are ongoing, 
and I commend you for undertaking those. I will come back to 
that in a minute.
    But the third one is basically the way people are treated. 
I don't think that we would be having as many complaints as 
have been evidenced at these hearings if people felt that they 
weren't being victimized a second time. That is why I am glad 
you brought in some victim's assistance people.
    Mr. Ruchelman's story was horrible, to lose his wife in an 
accident, but if everybody was treated the way Mr. Ruchelman 
was treated, we wouldn't be having this conversation probably. 
We would still be talking about peepholes and keys and things 
like that, but we wouldn't be talking about other things.
    So I really, truly hope that there is nothing that the 
cruise line industry can do to keep a bad person that happens 
to be on a ship, not an employee, that chooses to do a bad 
thing. But how you treat that person after that bad thing has 
happened, I really think pays big dividends and then stops from 
having some of the stories that we have listened to in the last 
hearings.
    Mr. Dale, I do want to ask you. The Chairman asked you 
about the 10 points. I am familiar with the 10 points that Mr. 
Carver has.
    I am familiar with Ms. DiPiero's observations. We started 
going through some of those with netting and sensors and 
raising the railings and things like that.
    We heard from Mr. Sullivan about apparently his peephole 
concern is being taken care of at least on one line but the 
issue of having people have pass keys when they are not on 
duty, that can come into somebody's room when they are 
sleeping.
    So there is a body, a list out there. I commend the 
industry for working on it, but I guess I also would 
acknowledge that Mr. Sullivan does have a point, that there 
have been a lot of good ideas around for a long time and how 
come we are just now getting to the point where we are adopting 
some of them.
    The Chairman has schooled me here pretty well.
    So Mr. Carver and these other folks get back to you and say 
we want to participate in your working group. Is it your 
intention to look at all these good ideas and, as Mr. Bald has 
just indicated, accept things and move forward and get them off 
the table, to move these complaints?
    If you can't, you haven't reached a conclusion you can't 
but on the camera issue where there are 650 cameras and maybe 
you just can't logistically do what the idea is. I would say 
just because something bad has happened to somebody and they 
have an idea doesn't mean it is a good idea, but the ability to 
listen to all those ideas, sort them out.
    Is the industry committed to adopting the ideas that are 
generated by this working group and implementing those that 
make sense, improve the safety of the ship, improve the 
cruising experience, make people feel like they are being 
treated better, help to hopefully solve crimes if they are 
unfortunately committed on the ships and, if you can't, please 
come back and tell folks why you can't do it?
    Mr. Dale. Absolutely. Our commitment is to work with the 
ICVA and our working group on their recommendations as well as 
others that we have heard.
    I think a prime example of this is undertraining. In ICVA's 
proposal, they list parts of crime scene management and 
protocols. Those steps, we are presently using, and the FBI is 
training our security officials on those steps. So we are doing 
that and we intend to, through Ken and the others who 
participate with us, make progress and get solutions on these.
    Another area, Lynnette Hudson, a tragedy at sea, and our 
heart goes out to her and everyone. But after all of the four 
investigations, the recommendation that came back was to 
replace the combustible dividers on the decks of our ships. We 
are almost 100 percent there in having all of these replaced. 
The deadline for this is July of 2008, and we will be there 
very soon.
    So this working group is an opportunity for us to talk 
about the progress we are making and to determine what is the 
workable solution for all of us.
    Mr. LaTourette. I think she is a good example of not only 
was it the combustible things and then she talked a little bit 
about self-contained breathing devices, but to have a 911 room 
where nobody is answering the telephone is like having a fire 
station with no firemen and nobody on the telephone.
    I think that there are things within reach that address 
some of the concerns that have been raised at this hearing and 
at the March hearing that are within your power to do it, and I 
would just hope that you continue to move in what I consider, 
and I give Chairman Cummings all the credit in this for getting 
the ball rolling on this.
    I know some people may not think it is moving fast enough 
or should have been done a long time ago, but I am encouraged 
by what you are doing. I would hope that it continues to move 
in a positive direction and those things that are within your 
ability to do to make it safer.
    I don't know how it benefits. I don't subscribe to the 
testimony that somehow it is in your corporate best interest to 
have crimes go unsolved on your boats. So I hope you continue 
to do that.
    Ms. Rey, this being your first hearing, you did a swell 
job. So thank you very much.
    Mr. Cummings. Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman. I have a couple of 
questions.
    I also listened to Ms. Hudson's testimony about the fire. 
As we get on the plane, they go through these procedures. Can 
you tell us, have you all done some additional procedures as 
far as explaining to people when they come on the ships in case 
of it may not be a fire?
    It could be a terrorist attack. It could be anything. What 
are the procedures? I know that you do have some as far as if 
the ship goes down, what things to do, but as far as a fire is 
concerned.
    Also on notification, she indicated that she was not 
notified until nine hours afterwards, and I know you must have 
a procedure in place. She was listed as the next of kin, and 
she did not receive that information.
    Even following that up, someone needs to have contacted her 
and gone over what had happened and provided that grief 
information that you talked about.
    Ms. Rey. I can speak to the notification piece. I am very 
sorry to Ms. Hudson and the rest of her family because she did 
not receive the call that she should have gotten from Princess 
Cruise Lines. I can't speak for them.
    I can tell you that at Carnival Cruise Lines, we offer any 
assistance possible in assisting the family and making those 
notifications. I can tell you, however, because the wife was 
present, that we would have relied on her being the one to 
initiate the contact with the family, make the initial 
notification. Following that, we offer assistance in notifying 
anybody else, but that initial contact generally comes from the 
person who is accompanying the individual on the ship.
    Ms. Brown. Okay. So I guess CLIA should have overall 
procedures for everybody.
    Ms. Rey. Well, that is one of the things that we are 
working on now is partnering with each other, and it is part of 
this working group so that we can all come together and 
establish a template that we can all work from, establishing 
those best practices.
    Ms. Brown. Okay.
    Mr. Dale. Actually, we have established a committee at CLIA 
on aftercare and guest care. So we expect some very positive 
results from that.
    To get to your issue about what process is in place on 
board our ships, there is a mandatory muster drill that every 
passenger must be a participant and present at. At that drill, 
we go through safety and security procedures in the case of 
emergencies.
    In the cabins, there is a video that is played 24 hours 
after departure, that again reiterates those messages. There is 
written collateral materials in the rooms as well. So we work 
very hard to make sure that our customers are familiar with 
what they have as their resources.
    Ms. Brown. There used to be a drill. Do you all still have 
that drill?
    Mr. Dale. Yes, absolutely.
    Ms. Brown. So you still have that drill.
    Another thing, we were talking about the cameras. I just 
returned from London where they have cameras all over the 
place, and one of the things I found very interesting was that 
they destroy the film within 14 days because of the privacy 
unless there is an incident. They can get some extensions.
    Part of being on a cruise is maybe you don't want everybody 
to know that you are on the cruise.
    [Laughter.]
    Ms. Brown. How are you planning on handling the film is my 
question because, as I said, after a certain period of time, by 
law, they have to destroy that film.
    Mr. Bald. The retention of----
    Ms. Brown. I am sorry. I think that was true not just in 
London. It was true in Europe in talking about how they handle 
these cameras and the film that they receive from the cameras. 
They do have monitors, and it is a big process in monitoring 
these situations.
    Mr. Bald. Yes, the retention process is a challenging one 
for us from a technical standpoint. It is not a problem for us 
at all if we know that there is an incident that has occurred. 
Our process, let me qualify that. We do retain the video, but 
our new CCTV process is going to put us completely into a 
digital retention arena.
    We don't have that today. We have a mix of analog and 
digital cameras with digital recorders now. The cameras we are 
adding are digital, but the volume of material that is captured 
in a digital recording is very, very large. And so, there is a 
limit to how much storage capability we have onboard.
    Where we will be challenged is if someone comes forward 
perhaps, say, six months later and says that I had an incident 
onboard. I, frankly, think we will not find video that will 
have captured that.
    However, for the immediately reported incidents, that is 
not going to be a problem, and we actually have storage devices 
that are available for our teams that will respond to the ship. 
They will literally go with a portable storage device, download 
the appropriate video, the video that relates to the incident, 
and they will literally bring it back to Miami for us, and we 
will retain it.
    Ms. Brown. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I think the industry is headed in the right direction, and 
I want to thank the participants for their participation.
    Mr. Cummings. Thank you, Ms. Brown.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you all with us today. Good to have had all 
the witnesses with us today.
    I will put this question to any member of the panel. Much 
has been said today regarding how crimes are reported and the 
jurisdiction extended to the FBI to prosecute said crimes. I 
assume the answer to this question is yes. Do victims of crimes 
have recourse under the civil justice system as well?
    I assume that is in the affirmative.
    Mr. Dale. Absolutely, they do have recourse.
    Mr. Coble. I will put this question to any of the panelists 
as well. It is my understanding, Mr. Chairman, that the 
industry is currently working to develop a sensor for rails 
that will activate or detect through the sound of an alarm or 
whatever when a person goes overboard.
    Number one, is that accurate and, number two, how far 
advanced is it?
    Mr. Bald. Congressman Coble, that is an excellent question. 
It is fraught with challenges for today's technology, but it 
holds promise for us in the future. The technology, as it 
currently exists, in particular, radio frequency 
identification, does not permit the kinds of applications that 
you are referring to.
    Where you have a rail alarm, for example, and you want to 
detect somebody going overboard who is on the ship, there are a 
couple of possible solutions that don't involve an electronic 
sensor, for example, on the railing of the ship. Virtual 
perimeters from cameras that are located on the outside areas, 
for example, the bridge wings of the ship, provide us a vantage 
point to be able to look down the sides of the ship and be able 
to determine if somebody goes overboard.
    There are some limitations and there are some challenges 
because unfortunately you can't get outside the ship and look 
in and ships are often curved. So we have got to make sure that 
our camera locations will work. We are in the process of 
testing that technology to see if it is viable for us to 
install onboard the ships.
    From the standpoint of other technical possibilities, radio 
frequency identification is possible down the road. Today, you 
have an active or a passive solution. Passive requires you to 
be very close to a sensor. Active requires you to be farther 
away, but you are talking about carrying a garage door opener 
in your pocket, and it is much more challenging for us to 
deliver that technology.
    However, your point is well taken. We absolutely want to do 
as much as we can to detect quickly if somebody goes overboard 
on our ships, and we are looking at a number of technical 
solutions that we think may prove fruitful.
    Mr. Coble. These are works in progress, I take it.
    Mr. Bald. Yes, sir.
    Mr. Coble. Thank you.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman.
    I read very carefully both Mr. Bald's and Mr. Dale's 
testimony, and something kind of strikes me in that, Mr. Bald, 
you mentioned that you are making some changes based upon some 
of the conversations or emails you received from Laurie 
Dishman. I commend you for that.
    Some of these measures are pretty common sense--peepholes 
and closed circuit televisions and background checks and things 
of that nature--and I believe those were things that we could 
have done quite some time ago. I believe that they are measures 
that people had discussed, I guess, in 1999.
    I wonder if you would be putting in these common sense 
measures today if Laurie Dishman hadn't come along and 
courageously spoke up and we had the hearings.
    Now I am glad that we are moving forward on this, and you 
are moving in the right direction. I am pleased with that. But 
I must say that I think it is obviously a situation where some 
of these things take a while, I suppose. There have been quite 
a lot of recommendations and listening and lists and things of 
that nature, but I think what we are interested in is results.
    I also have to say too that my constituent, Laurie Dishman, 
has written to me about the last six months she has been going 
through. I would like unanimous consent to submit her letter 
into the record.
    Mr. Cummings. So ordered.
    Mr. Bald. Thank you, Ms. Matsui. Oh, I am sorry. I 
apologize.
    Ms. Matsui. I would like to share something from this 
letter because it appears that the same people responsible for 
mishandling Laurie's case are still employed at Royal 
Caribbean. Most disturbingly, when they were deposed, they 
indicated that they still have not received adequate 
instruction as to what they did wrong and how to properly 
handle this situation in the future.
    I would say that a common theme of the victims panel was 
the concern that you still didn't get it. Would you please 
respond to this issue?
    Mr. Bald. Certainly. First of all, I believe that if you 
ask that purser that question today, I hope that the answer 
would be different.
    That purser today has been required, and I will be 
disappointed if you come back to me and tell me this didn't 
happen, but I provided a DVD of Ms. Dishman's testimony with 
mandatory viewing by the captain of every ship, the staff 
captain of every ship, the security officer of every ship, the 
medical department of every ship and the guest relations desk 
personnel which includes the pursers to understand the trauma 
that Ms. Dishman went through.
    As an adjunct to that, on the training piece, the training 
will be delivered to the security officers on Monday. The 
policy changes are in place that I think will correct the 
preservation of evidence issues that occurred in that 
situation.
    We have provided a DVD to the medical staff of every ship 
for required viewing for the proper way to do the pelvic 
examination kit. It is required training every two years. We 
just implemented that with the DVD that was sent out to make 
sure that they understand the problem there.
    In the situation with Ms. Dishman, there were mistakes made 
as I testified last time. One of the biggest ones was, in my 
view, the security officer inadequately secured the cabin.
    The mistake made by the doctor to misinterpret the 
collection requirements for the pelvic examination kit is not 
something I want to see happen, but I believe there is a way to 
make sure it doesn't from the security officer's standpoint.
    The pelvic examination kit gives instructions to collect 
evidence from the victim that would be logically, in my 
interpretation, logically being worn by the victim. In this 
case, the doctor, for whatever reason, chose to ask her to go 
back and collect some things that were not being worn.
    It is absolutely wrong. It is not consistent with our 
policy, and our security officer should have known better.
    Our security officer will be coming in. Let me qualify 
this, will be coming in one of two sessions either next week or 
the one in December because we train the ones that are off the 
ship, and then when there is a switch we get the ones that are 
currently on the ship.
    Every one of them will hear the kinds of points that you 
are making today and very clearly understand what is expected 
of them, and I expect that we won't have a recurrence. If we 
do, I will take action accordingly.
    One final point if you would permit me, you referenced and 
it has been referenced earlier today in testimony, some 
longstanding guidance that was provided to Royal Caribbean in 
1999 by two reports that were commissioned by Royal Caribbean 
to take a look at onboard sexual assault and sexual harassment 
situations and to provide us recommendations for how we can get 
ahead of that curve and resolve some of those problems.
    I would like to read to you. I have a very short list of 
the recommendations, and I will tell you on each one of them 
what we have done.
    The shoreside hotline is in place. Anybody onboard our 
ships can pick up the phone and call a particular number and 
report directly to Miami if there is an issue onboard the ship.
    Remind management to report, that has been done personally 
by me in conference calls to every captain, also present were 
the staff captain and the security officer. It is a part of our 
policies, and I will continue to reinforce it.
    Mandatory sexual harassment training, the company, in my 
view, before I got here had done an exceptional job of putting 
together videos. These are professional productions. These are 
not just a couple of folks like me standing in front of a video 
camera on how to recognize situations and avoid situations that 
could lead to sexual assault or sexual harassment.
    The response checklist will be a mainstay of the security 
department's policies onboard the ship.
    Counselor and advocate for the victim, absolutely a 
requirement that we have. You heard testimony earlier today 
from Mr. Sullivan that no counselor was provided to his client. 
That is untrue. It is untrue, and Mr. Sullivan knows it is 
untrue because the counselor that was provided was the doctor 
who is a female, who spent almost every moment with that victim 
from the time she was reported to have been the victim until 
she left the ship, including responding to her cabin within two 
minutes of the recording or the documentation of the call to 
the bridge.
    The after-action teams in Miami was a recommendation by 
that report as well. You saw in my testimony that that is 
something we are implementing.
    Notifying guests about socializing with the crew is a 
change we are making in our guest conduct policy which will be 
published for January, and we will make sure that our guests 
understand the policy. We have gone overboard to make sure our 
crew understands. We have not done that with our guests, and it 
is something we will do very quickly.
    On the Swailes report, stronger policy regarding crew-guest 
sexual contact, we have taken that head-on, and I don't think 
there is a crew member that doesn't understand that they can't 
fraternize with our guests.
    Train those who will respond. You have heard me testify and 
you have seen in my testimony, that is an aggressive effort 
that we are taking. We have been doing that for several years.
    Train crew to prevent sexual encounters. That is exactly 
what the prevention concept that I am putting in place is built 
around. We have also been doing that in the videos that I 
referred to earlier.
    Post signs inside restricted areas on our ships. We have 
done that on every single ship. You walk into any off-limits 
crew area, and you will see a sign that tells a guest they are 
not allowed to be there.
    Additional CCTV cameras, you have heard me testify to that 
is an aggressive process.
    Increasing the number of guards is something that we have 
done. I talked to your staff yesterday about this. My first 
assessment is going to be quality, and I want to make sure the 
quality is there. Then I am in a better position to decide if 
the numbers are there.
    Then finally, hotline to Miami for guidance in response is 
also picked up from the Krohne report.
    I would like to add one other comment on the Swailes 
report. The findings that they had in their report said that 
the incident rate for sexual assaults onboard ships is lower 
than shoreside. This is a 1999 assessment, independent, from 
outside of our company.
    Common threats, consensual intimacy was preceded by 
assault. I am sorry. Consensual intimacy preceded the assault 
and intoxication by the victim was a challenge. By the way, I 
am making no connections to any of this.
    But to give you an idea, we have had this kind of input. We 
have taken measures to respond to it, contrary to what you 
heard in testimony earlier today.
    Thank you for allowing me to go to that extent.
    Ms. Matsui. Mr. Bald, that all sound very good, and you say 
you have instituted those policies now. I really feel that it 
is like a manual to a great degree. You can read it, but the 
proof is in the pudding. The individuals who have been affected 
so critically have to feel the same way too.
    Comparisons, as far as sexual assaults on land versus sea, 
I really don't believe they are really good comparisons, for 
example, because on the sea you are in a huge cruise ship. You 
can't get off. It is a little bit different. You don't have a 
police force really.
    My concern is I do not want this to be brushed aside at 
all. I don't want to request from Chairman Cummings another 
hearing because we have been hearing that things aren't 
happening.
    You relied on the input on victims. I am happy about that, 
but I want to make sure it doesn't happen. The prevention 
aspects of it have to be taken care of.
    It so concerns me I almost want to feel like we need 
another benchmark as to when we can have a report or whatever 
we want to do that the industry, the unified industry itself is 
going to, for instance, can you adopt unified reporting 
requirements that you can release numbers to the public. That 
would be reassuring to know that there is transparency there.
    Mr. Cummings. Would the gentlelady yield?
    Ms. Matsui. A lot of this happens to be transparency.
    Mr. Cummings. Would the gentlelady yield?
    Ms. Matsui. Yes.
    Mr. Cummings. When we finish, I am going to lay out some 
timetables not necessarily for a hearing. If a hearing is 
required, we will go to a hearing but some timetables so that 
we can get some things done and they will report back to us. I 
just wanted to make sure you know.
    Ms. Matsui. Thank you, Mr. Chairman. I appreciate that.
    But you understand that there is a value to this hearing. 
We talked about peepholes and closed circuit televisions, and 
the Chairman also talked about monitoring them, the different 
aspects. We want to keep this progress moving, and we want to 
have certain benchmarks because I truly feel this is an 
industry that is certainly something we want to promote, but 
right now I am really feeling that we need to take care of a 
few things.
    I think it is to your benefit to do this. I think that 
anytime we have some scrutiny like this and we find out that 
there have been mistakes and you go ahead and fix it, certainly 
you are going to be getting the support of many people here.
    I am looking to the victims because they are the ones who 
probably keep you pretty honest about this. So I thank you very 
much for working with the victims, but remember this is not a 
one or two step process. It is going to be ongoing. I 
appreciate what you have been doing.
    I thank you, Mr. Chairman, for your commitment.
    Mr. Cummings. I want to thank you, Ms. Matsui.
    Let me say this to you, Ms. Matsui. This is the first time 
in my almost 12 years in Congress that I have seen a Member sit 
for an entire hearing on a Subcommittee that they weren't on, 
and I think that shows a lot, particularly for a hearing that 
has lasted this long. So I want to thank you for your advocacy.
    I want to say to our witnesses. One question for you, Mr. 
Dale. Who is invited to these meetings? Because Ms. Hudson, I 
think. Was it you, Ms. Hudson who said you weren't invited 
again, and I am sure some others.
    Tell me who is invited to these meetings.
    Mr. Dale. The invitation is to go to and has, I believe, to 
all ICVA members. The Family Assistance Foundation has sent the 
invitation to survivors that they have worked with, and our 
cruise line members have also issued the invitation to 
survivors that they work with as well.
    Mr. Cummings. About how many people is that, victims? Do 
you know?
    Mr. Dale. Well, we have received word back from somewhere 
around 10 saying that they would like to participate in this.
    Mr. Cummings. Out of how many, would you say?
    Mr. Dale. I don't know what that number is as far as what 
the cruise lines issued themselves.
    Mr. Cummings. How would somebody like Ms. Hudson not be on 
the list? She said she didn't want to be, in other words, if 
she came to one meeting and then wasn't invited back?
    Mr. Dale. She was to be on the list.
    Mr. Cummings. She was what?
    Mr. Dale. She was to be on the list, and I apologize if she 
did not get the invitation.
    Mr. Cummings. All right, so you are going to be invited, 
Ms. Hudson, is what he is trying to tell you.
    When I walked, when I was on my way to vote, I looked to my 
left and there is a board out there. I guess it is your father 
with a Mason's cap on.
    I just thought about something that I teach my kids. 
Whenever they have disappointments because somebody let them 
down, I tell them to think about how they feel at that moment. 
I want them to feel it, so if they ever let somebody down, that 
they will know how they feel.
    These folks who have come here, I have got to tell you. I 
think that the victims folks have been very reasonable. I 
really do. I think that they have reached out and tried. I mean 
they are just reaching and reaching and reaching and reaching, 
and I think they are getting the feeling at times that there 
are some reaching going on by the industry but maybe you are 
not reaching far enough.
    This is just my assessment of listening to everything that 
I have heard. I think that the industry has reached, but I 
think we have a little bit further to go.
    I agree with Ms. Matsui that more needs to be done, but I 
don't want us to underestimate--I want to say this to the 
victims groups--that a lot has already been done. I don't want 
that to go by because it has. I mean Mr. Bald and Mr. Dale, the 
things that you all testified to and then in your written 
piece.
    There is one thing you may have mentioned, but I didn't 
hear you. You may have. It said to ensure that shipboard 
medical staff are familiar with the proper procedures for 
administering the pelvic exam and that kind of thing. You may 
have mentioned it, but I didn't hear it in the seven things. I 
don't know whether that was one of Ms. Dishman's 
recommendations or not.
    What I am saying to you is that I think sometimes we have a 
tendency to think lack when we ought to think abundance, to 
think negative when we ought to think positive. So I think I 
want to see us as moving forward. We are a lot further, victims 
groups, than we were before.
    I think the industry, going back to what Ms. Matsui said, I 
am going to tell you. I just think it is good business to say 
we are doing these good things to make sure. I mean saying to 
the public, we don't want things to happen. We are doing 
everything in our power to make sure you have got the safest 
possible opportunity. But if something happens, we guarantee 
you that we are doing X, Y and Z.
    To me, it just makes sense because the American people and 
people all over, people have common sense. They know things are 
going to happen. They know it. They don't want it to happen. 
They don't want things to happen to them, but they know it.
    And it goes back to this thing that Mr. LaTourette said. It 
is about how you treat people. This is not rocket scientist 
stuff. The Bible says, and I hate to quote the Bible but I have 
got to, do unto others as you would have them do unto you. This 
is basic, how you treat other people.
    I think maybe, even with all of this that we are doing, 
when personnel is insensitive to those kinds of things, that is 
a problem. One thing we need to do is make sure personnel is 
very sensitive. Look, I know the industry is concerned about 
its reputation, but one of the best ways to have a great 
reputation is when you treat people like you like to be 
treated. I am telling you.
    Maybe that is part of the problem, maybe, but I hope you 
will keep that in mind.
    Now we have had a lot of discussion here. What I want to do 
is take a look and see where we are in 90 days. I don't plan to 
call a hearing, but I would like to have some type of report so 
that we can see where and how we have progressed and what we 
have accomplished.
    It is my understanding, again, that we have had more 
Members of Congress, so that you don't underestimate how 
serious this is, who wanted people in their districts to 
testify in this hearing than anything I have been involved in. 
So it is serious business.
    I think the Members of Congress are looking at it. When I 
went back to vote, I had at least 12 or 13 Members just ask me 
how is the hearing going. I mean this is the Subcommittee on 
the Coast Guard. They know it.
    Again, we want the industry to do well, and I think the 
industry is doing extremely well. I think that when you look at 
the statistics, they are, Mr. Dale, a small number, but in your 
own words, one criminal act, one person harmed is one too many. 
Then if it happens, we want to make sure that they are treated 
right, as simple as that.
    The same thing that I would want for my wife, I want for 
any other woman. The same thing I would want for my dad, I want 
for anybody else's dad. I think if we think about it like that, 
then we can get much further along.
    To Ms. Dishman, I want to thank you.
    I think if we listen to what Mr. Bald said, he said that he 
listened to her. Maybe he didn't accept everything, but there 
are things that did come forth that he did use and is using.
    I just want to make sure that the things we are in the 
process of doing, that we get done. In other words, we bring 
closure and say, this is done. Now let us move on to the next 
thing. Done. Done. Done. Done.
    Not just well, let us meet. Let us hurry up and meet. Meet. 
Meet. Meet. Then the next thing you know, you look three years 
later, and you are still meeting.
    I want to make sure we get to some points where we have 
done because in the time when things are not done, then other 
problems may arise. When we talk about the image of the 
industry, the last thing we want is to have more people banging 
on my door, more Members of Congress saying, we want people to 
testify because they have gone through some difficulties.
    All I am saying is I think it is good business for us to 
be, for the industry to be the best that it can be. Again, I 
think that I do believe if we look at victims groups and say to 
ourselves that they are trying to make things better, then with 
that attitude I think we will accomplish a lot.
    To all of you, I want to thank every single one of you for 
going through this very, very, very long hearing.
    I will look forward to, I guess from you, Mr. Dale, a 
report. Don't forget Ms. Hudson, and there may be a few other 
people that may have some things to contribute that may not 
have been invited. I am sure they will let you know. You will 
not get out of that door unless they tell you. I know they 
will.
    Thank you very much.
    [Whereupon, at 5:22 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 37916.007
    
    [GRAPHIC] [TIFF OMITTED] 37916.008
    
    [GRAPHIC] [TIFF OMITTED] 37916.009
    
    [GRAPHIC] [TIFF OMITTED] 37916.010
    
    [GRAPHIC] [TIFF OMITTED] 37916.011
    
    [GRAPHIC] [TIFF OMITTED] 37916.013
    
    [GRAPHIC] [TIFF OMITTED] 37916.014
    
    [GRAPHIC] [TIFF OMITTED] 37916.015
    
    [GRAPHIC] [TIFF OMITTED] 37916.016
    
    [GRAPHIC] [TIFF OMITTED] 37916.017
    
    [GRAPHIC] [TIFF OMITTED] 37916.018
    
    [GRAPHIC] [TIFF OMITTED] 37916.019
    
    [GRAPHIC] [TIFF OMITTED] 37916.020
    
    [GRAPHIC] [TIFF OMITTED] 37916.021
    
    [GRAPHIC] [TIFF OMITTED] 37916.022
    
    [GRAPHIC] [TIFF OMITTED] 37916.023
    
    [GRAPHIC] [TIFF OMITTED] 37916.024
    
    [GRAPHIC] [TIFF OMITTED] 37916.025
    
    [GRAPHIC] [TIFF OMITTED] 37916.026
    
    [GRAPHIC] [TIFF OMITTED] 37916.027
    
    [GRAPHIC] [TIFF OMITTED] 37916.028
    
    [GRAPHIC] [TIFF OMITTED] 37916.029
    
    [GRAPHIC] [TIFF OMITTED] 37916.030
    
    [GRAPHIC] [TIFF OMITTED] 37916.031
    
    [GRAPHIC] [TIFF OMITTED] 37916.032
    
    [GRAPHIC] [TIFF OMITTED] 37916.033
    
    [GRAPHIC] [TIFF OMITTED] 37916.034
    
    [GRAPHIC] [TIFF OMITTED] 37916.035
    
    [GRAPHIC] [TIFF OMITTED] 37916.036
    
    [GRAPHIC] [TIFF OMITTED] 37916.037
    
    [GRAPHIC] [TIFF OMITTED] 37916.038
    
    [GRAPHIC] [TIFF OMITTED] 37916.039
    
    [GRAPHIC] [TIFF OMITTED] 37916.040
    
    [GRAPHIC] [TIFF OMITTED] 37916.041
    
    [GRAPHIC] [TIFF OMITTED] 37916.042
    
    [GRAPHIC] [TIFF OMITTED] 37916.043
    
    [GRAPHIC] [TIFF OMITTED] 37916.044
    
    [GRAPHIC] [TIFF OMITTED] 37916.045
    
    [GRAPHIC] [TIFF OMITTED] 37916.046
    
    [GRAPHIC] [TIFF OMITTED] 37916.047
    
    [GRAPHIC] [TIFF OMITTED] 37916.048
    
    [GRAPHIC] [TIFF OMITTED] 37916.049
    
    [GRAPHIC] [TIFF OMITTED] 37916.050
    
    [GRAPHIC] [TIFF OMITTED] 37916.051
    
    [GRAPHIC] [TIFF OMITTED] 37916.052
    
    [GRAPHIC] [TIFF OMITTED] 37916.053
    
    [GRAPHIC] [TIFF OMITTED] 37916.054
    
    [GRAPHIC] [TIFF OMITTED] 37916.055
    
    [GRAPHIC] [TIFF OMITTED] 37916.056
    
    [GRAPHIC] [TIFF OMITTED] 37916.057
    
    [GRAPHIC] [TIFF OMITTED] 37916.058
    
    [GRAPHIC] [TIFF OMITTED] 37916.059
    
    [GRAPHIC] [TIFF OMITTED] 37916.060
    
    [GRAPHIC] [TIFF OMITTED] 37916.061
    
    [GRAPHIC] [TIFF OMITTED] 37916.062
    
    [GRAPHIC] [TIFF OMITTED] 37916.063
    
    [GRAPHIC] [TIFF OMITTED] 37916.064
    
    [GRAPHIC] [TIFF OMITTED] 37916.065
    
    [GRAPHIC] [TIFF OMITTED] 37916.066
    
    [GRAPHIC] [TIFF OMITTED] 37916.067
    
    [GRAPHIC] [TIFF OMITTED] 37916.068
    
    [GRAPHIC] [TIFF OMITTED] 37916.069
    
    [GRAPHIC] [TIFF OMITTED] 37916.070
    
    [GRAPHIC] [TIFF OMITTED] 37916.071
    
    [GRAPHIC] [TIFF OMITTED] 37916.072
    
    [GRAPHIC] [TIFF OMITTED] 37916.073
    
    [GRAPHIC] [TIFF OMITTED] 37916.074
    
    [GRAPHIC] [TIFF OMITTED] 37916.075
    
    [GRAPHIC] [TIFF OMITTED] 37916.076
    
    [GRAPHIC] [TIFF OMITTED] 37916.077
    
    [GRAPHIC] [TIFF OMITTED] 37916.078
    
    [GRAPHIC] [TIFF OMITTED] 37916.079
    
    [GRAPHIC] [TIFF OMITTED] 37916.080
    
    [GRAPHIC] [TIFF OMITTED] 37916.081
    
    [GRAPHIC] [TIFF OMITTED] 37916.082
    
    [GRAPHIC] [TIFF OMITTED] 37916.083
    
    [GRAPHIC] [TIFF OMITTED] 37916.084
    
    [GRAPHIC] [TIFF OMITTED] 37916.085
    
    [GRAPHIC] [TIFF OMITTED] 37916.086
    
    [GRAPHIC] [TIFF OMITTED] 37916.087
    
    [GRAPHIC] [TIFF OMITTED] 37916.088
    
    [GRAPHIC] [TIFF OMITTED] 37916.089
    
    [GRAPHIC] [TIFF OMITTED] 37916.090
    
    [GRAPHIC] [TIFF OMITTED] 37916.091
    
    [GRAPHIC] [TIFF OMITTED] 37916.092
    
    [GRAPHIC] [TIFF OMITTED] 37916.093
    
    [GRAPHIC] [TIFF OMITTED] 37916.094
    
    [GRAPHIC] [TIFF OMITTED] 37916.095
    
    [GRAPHIC] [TIFF OMITTED] 37916.096
    
    [GRAPHIC] [TIFF OMITTED] 37916.097
    
    [GRAPHIC] [TIFF OMITTED] 37916.098
    
    [GRAPHIC] [TIFF OMITTED] 37916.099
    
    [GRAPHIC] [TIFF OMITTED] 37916.100
    
    [GRAPHIC] [TIFF OMITTED] 37916.101
    
    [GRAPHIC] [TIFF OMITTED] 37916.102
    
    [GRAPHIC] [TIFF OMITTED] 37916.103
    
    [GRAPHIC] [TIFF OMITTED] 37916.104
    
    [GRAPHIC] [TIFF OMITTED] 37916.105
    
    [GRAPHIC] [TIFF OMITTED] 37916.106
    
    [GRAPHIC] [TIFF OMITTED] 37916.107
    
    [GRAPHIC] [TIFF OMITTED] 37916.108
    
    [GRAPHIC] [TIFF OMITTED] 37916.109
    
    [GRAPHIC] [TIFF OMITTED] 37916.110
    
    [GRAPHIC] [TIFF OMITTED] 37916.111
    
    [GRAPHIC] [TIFF OMITTED] 37916.112
    
    [GRAPHIC] [TIFF OMITTED] 37916.113
    
    [GRAPHIC] [TIFF OMITTED] 37916.114
    
    [GRAPHIC] [TIFF OMITTED] 37916.115
    
    [GRAPHIC] [TIFF OMITTED] 37916.116
    
    [GRAPHIC] [TIFF OMITTED] 37916.117
    
    [GRAPHIC] [TIFF OMITTED] 37916.118
    
    [GRAPHIC] [TIFF OMITTED] 37916.119
    
    [GRAPHIC] [TIFF OMITTED] 37916.120
    
    [GRAPHIC] [TIFF OMITTED] 37916.121
    
    [GRAPHIC] [TIFF OMITTED] 37916.122
    
    [GRAPHIC] [TIFF OMITTED] 37916.123
    
    [GRAPHIC] [TIFF OMITTED] 37916.124
    
    [GRAPHIC] [TIFF OMITTED] 37916.125
    
    [GRAPHIC] [TIFF OMITTED] 37916.126
    
    [GRAPHIC] [TIFF OMITTED] 37916.127
    
    [GRAPHIC] [TIFF OMITTED] 37916.128
    
    [GRAPHIC] [TIFF OMITTED] 37916.129
    
    [GRAPHIC] [TIFF OMITTED] 37916.130
    
    [GRAPHIC] [TIFF OMITTED] 37916.131
    
    [GRAPHIC] [TIFF OMITTED] 37916.132
    
    [GRAPHIC] [TIFF OMITTED] 37916.133
    
    [GRAPHIC] [TIFF OMITTED] 37916.134
    
    [GRAPHIC] [TIFF OMITTED] 37916.135
    
    [GRAPHIC] [TIFF OMITTED] 37916.136
    
    [GRAPHIC] [TIFF OMITTED] 37916.137
    
    [GRAPHIC] [TIFF OMITTED] 37916.138
    
    [GRAPHIC] [TIFF OMITTED] 37916.139
    
    [GRAPHIC] [TIFF OMITTED] 37916.140
    
    [GRAPHIC] [TIFF OMITTED] 37916.141
    
    [GRAPHIC] [TIFF OMITTED] 37916.142
    
    [GRAPHIC] [TIFF OMITTED] 37916.143
    
    [GRAPHIC] [TIFF OMITTED] 37916.144
    
    [GRAPHIC] [TIFF OMITTED] 37916.145
    
    [GRAPHIC] [TIFF OMITTED] 37916.146
    
    [GRAPHIC] [TIFF OMITTED] 37916.147
    
    [GRAPHIC] [TIFF OMITTED] 37916.148
    
    [GRAPHIC] [TIFF OMITTED] 37916.149
    
    [GRAPHIC] [TIFF OMITTED] 37916.150
    
    [GRAPHIC] [TIFF OMITTED] 37916.151
    
    [GRAPHIC] [TIFF OMITTED] 37916.152
    
    [GRAPHIC] [TIFF OMITTED] 37916.153
    
    [GRAPHIC] [TIFF OMITTED] 37916.154
    
    [GRAPHIC] [TIFF OMITTED] 37916.155
    
    [GRAPHIC] [TIFF OMITTED] 37916.156
    
    [GRAPHIC] [TIFF OMITTED] 37916.157
    
    [GRAPHIC] [TIFF OMITTED] 37916.158
    
    [GRAPHIC] [TIFF OMITTED] 37916.159
    
    [GRAPHIC] [TIFF OMITTED] 37916.160
    
    [GRAPHIC] [TIFF OMITTED] 37916.161
    
    [GRAPHIC] [TIFF OMITTED] 37916.162
    
    [GRAPHIC] [TIFF OMITTED] 37916.163
    
    [GRAPHIC] [TIFF OMITTED] 37916.164
    
    [GRAPHIC] [TIFF OMITTED] 37916.165
    
    [GRAPHIC] [TIFF OMITTED] 37916.166
    
    [GRAPHIC] [TIFF OMITTED] 37916.167
    
    [GRAPHIC] [TIFF OMITTED] 37916.168
    
    [GRAPHIC] [TIFF OMITTED] 37916.169
    
    [GRAPHIC] [TIFF OMITTED] 37916.170
    
    [GRAPHIC] [TIFF OMITTED] 37916.171
    
    [GRAPHIC] [TIFF OMITTED] 37916.172
    
    [GRAPHIC] [TIFF OMITTED] 37916.173
    
    [GRAPHIC] [TIFF OMITTED] 37916.174
    
    [GRAPHIC] [TIFF OMITTED] 37916.175
    
    [GRAPHIC] [TIFF OMITTED] 37916.176
    
    [GRAPHIC] [TIFF OMITTED] 37916.177
    
    [GRAPHIC] [TIFF OMITTED] 37916.178
    
    [GRAPHIC] [TIFF OMITTED] 37916.179
    
    [GRAPHIC] [TIFF OMITTED] 37916.180
    
    [GRAPHIC] [TIFF OMITTED] 37916.181
    
    [GRAPHIC] [TIFF OMITTED] 37916.182
    
    [GRAPHIC] [TIFF OMITTED] 37916.183
    
    [GRAPHIC] [TIFF OMITTED] 37916.184
    
    [GRAPHIC] [TIFF OMITTED] 37916.185
    
    [GRAPHIC] [TIFF OMITTED] 37916.186
    
    [GRAPHIC] [TIFF OMITTED] 37916.187
    
    [GRAPHIC] [TIFF OMITTED] 37916.188
    
    [GRAPHIC] [TIFF OMITTED] 37916.189
    
    [GRAPHIC] [TIFF OMITTED] 37916.190
    
    [GRAPHIC] [TIFF OMITTED] 37916.191
    
    [GRAPHIC] [TIFF OMITTED] 37916.192
    
    [GRAPHIC] [TIFF OMITTED] 37916.193
    
    [GRAPHIC] [TIFF OMITTED] 37916.194
    
    [GRAPHIC] [TIFF OMITTED] 37916.195
    
    [GRAPHIC] [TIFF OMITTED] 37916.196
    
    [GRAPHIC] [TIFF OMITTED] 37916.197
    
    [GRAPHIC] [TIFF OMITTED] 37916.198
    
    [GRAPHIC] [TIFF OMITTED] 37916.199
    
    [GRAPHIC] [TIFF OMITTED] 37916.200
    
    [GRAPHIC] [TIFF OMITTED] 37916.201
    
    [GRAPHIC] [TIFF OMITTED] 37916.202
    
    [GRAPHIC] [TIFF OMITTED] 37916.203
    
    [GRAPHIC] [TIFF OMITTED] 37916.204
    
    [GRAPHIC] [TIFF OMITTED] 37916.205
    
    [GRAPHIC] [TIFF OMITTED] 37916.206
    
    [GRAPHIC] [TIFF OMITTED] 37916.207
    
    [GRAPHIC] [TIFF OMITTED] 37916.208
    
    [GRAPHIC] [TIFF OMITTED] 37916.209
    
    [GRAPHIC] [TIFF OMITTED] 37916.210
    
    [GRAPHIC] [TIFF OMITTED] 37916.211
    
    [GRAPHIC] [TIFF OMITTED] 37916.212
    
    [GRAPHIC] [TIFF OMITTED] 37916.213
    
    [GRAPHIC] [TIFF OMITTED] 37916.214
    
    [GRAPHIC] [TIFF OMITTED] 37916.215
    
    [GRAPHIC] [TIFF OMITTED] 37916.216
    
    [GRAPHIC] [TIFF OMITTED] 37916.217
    
    [GRAPHIC] [TIFF OMITTED] 37916.218
    
    [GRAPHIC] [TIFF OMITTED] 37916.219
    
    [GRAPHIC] [TIFF OMITTED] 37916.220
    
    [GRAPHIC] [TIFF OMITTED] 37916.221
    
    [GRAPHIC] [TIFF OMITTED] 37916.222
    
    [GRAPHIC] [TIFF OMITTED] 37916.223
    
    [GRAPHIC] [TIFF OMITTED] 37916.224
    
    [GRAPHIC] [TIFF OMITTED] 37916.225
    
    [GRAPHIC] [TIFF OMITTED] 37916.226
    
    [GRAPHIC] [TIFF OMITTED] 37916.227
    
    [GRAPHIC] [TIFF OMITTED] 37916.228
    
    [GRAPHIC] [TIFF OMITTED] 37916.229
    
    [GRAPHIC] [TIFF OMITTED] 37916.230
    
    [GRAPHIC] [TIFF OMITTED] 37916.231
    
    [GRAPHIC] [TIFF OMITTED] 37916.232
    
    [GRAPHIC] [TIFF OMITTED] 37916.233
    
    [GRAPHIC] [TIFF OMITTED] 37916.234
    
    [GRAPHIC] [TIFF OMITTED] 37916.235
    
    [GRAPHIC] [TIFF OMITTED] 37916.236
    
    [GRAPHIC] [TIFF OMITTED] 37916.237
    
    [GRAPHIC] [TIFF OMITTED] 37916.238
    
    [GRAPHIC] [TIFF OMITTED] 37916.239
    
    [GRAPHIC] [TIFF OMITTED] 37916.240
    
    [GRAPHIC] [TIFF OMITTED] 37916.241
    
    [GRAPHIC] [TIFF OMITTED] 37916.242
    
    [GRAPHIC] [TIFF OMITTED] 37916.243
    
    [GRAPHIC] [TIFF OMITTED] 37916.244
    
    [GRAPHIC] [TIFF OMITTED] 37916.245
    
    [GRAPHIC] [TIFF OMITTED] 37916.246
    
    [GRAPHIC] [TIFF OMITTED] 37916.247
    
    [GRAPHIC] [TIFF OMITTED] 37916.248
    
    [GRAPHIC] [TIFF OMITTED] 37916.249
    
    [GRAPHIC] [TIFF OMITTED] 37916.250
    
    [GRAPHIC] [TIFF OMITTED] 37916.251
    
    [GRAPHIC] [TIFF OMITTED] 37916.252
    
    [GRAPHIC] [TIFF OMITTED] 37916.253
    
    [GRAPHIC] [TIFF OMITTED] 37916.254
    
    [GRAPHIC] [TIFF OMITTED] 37916.255
    
    [GRAPHIC] [TIFF OMITTED] 37916.256
    
    [GRAPHIC] [TIFF OMITTED] 37916.257
    
    [GRAPHIC] [TIFF OMITTED] 37916.258
    
    [GRAPHIC] [TIFF OMITTED] 37916.259
    
    [GRAPHIC] [TIFF OMITTED] 37916.260
    
    [GRAPHIC] [TIFF OMITTED] 37916.261
    
    [GRAPHIC] [TIFF OMITTED] 37916.262
    
    [GRAPHIC] [TIFF OMITTED] 37916.263
    
    [GRAPHIC] [TIFF OMITTED] 37916.264
    
    [GRAPHIC] [TIFF OMITTED] 37916.265
    
    [GRAPHIC] [TIFF OMITTED] 37916.266
    
    [GRAPHIC] [TIFF OMITTED] 37916.267
    
    [GRAPHIC] [TIFF OMITTED] 37916.268
    
    [GRAPHIC] [TIFF OMITTED] 37916.269
    
    [GRAPHIC] [TIFF OMITTED] 37916.270
    
    [GRAPHIC] [TIFF OMITTED] 37916.271
    
    [GRAPHIC] [TIFF OMITTED] 37916.272
    
    [GRAPHIC] [TIFF OMITTED] 37916.273
    
    [GRAPHIC] [TIFF OMITTED] 37916.274
    
    [GRAPHIC] [TIFF OMITTED] 37916.275
    
    [GRAPHIC] [TIFF OMITTED] 37916.276
    
    [GRAPHIC] [TIFF OMITTED] 37916.277
    
    [GRAPHIC] [TIFF OMITTED] 37916.278
    
    [GRAPHIC] [TIFF OMITTED] 37916.279
    
    [GRAPHIC] [TIFF OMITTED] 37916.280
    
    [GRAPHIC] [TIFF OMITTED] 37916.281
    
    [GRAPHIC] [TIFF OMITTED] 37916.282
    
    [GRAPHIC] [TIFF OMITTED] 37916.283
    
    [GRAPHIC] [TIFF OMITTED] 37916.284
    
    [GRAPHIC] [TIFF OMITTED] 37916.285
    
    [GRAPHIC] [TIFF OMITTED] 37916.286
    
    [GRAPHIC] [TIFF OMITTED] 37916.287
    
    [GRAPHIC] [TIFF OMITTED] 37916.288
    
    [GRAPHIC] [TIFF OMITTED] 37916.289
    
    [GRAPHIC] [TIFF OMITTED] 37916.290
    
    [GRAPHIC] [TIFF OMITTED] 37916.291
    
    [GRAPHIC] [TIFF OMITTED] 37916.292
    
    [GRAPHIC] [TIFF OMITTED] 37916.293
    
    [GRAPHIC] [TIFF OMITTED] 37916.294
    
    [GRAPHIC] [TIFF OMITTED] 37916.295
    
    [GRAPHIC] [TIFF OMITTED] 37916.296
    
    [GRAPHIC] [TIFF OMITTED] 37916.297
    
    [GRAPHIC] [TIFF OMITTED] 37916.298
    
                                    

</pre></body></html>
